<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-756]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-756
 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2009 

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 3288

AN ACT MAKING APPROPRIATIONS FOR FOREIGN OPERATIONS, EXPORT FINANCING, 
AND RELATED PROGRAMS FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2009, AND 
                           FOR OTHER PURPOSES

                               __________

                          Department of State
                        Nondepartmental Witness
           United States Agency for International Development

                               __________

         Printed for the use of the Committee on Appropriations

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

41-269 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on State, Foreign Operations, and Related Programs

                  PATRICK J. LEAHY, Vermont, Chairman
DANIEL K. INOUYE, Hawaii             JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
JACK REED, Rhode Island              LAMAR ALEXANDER, Tennessee

                           Professional Staff

                               Tim Rieser
                              Kate Eltrich
                             Nikole Manatt
                         Paul Grove (Minority)
                        Michele Wymer (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support

                             Renan Snowden



                            C O N T E N T S

                              ----------                              

                         Tuesday, March 4, 2008

                                                                   Page

United States Agency for International Development...............     1

                        Wednesday, April 9, 2008

Department of State: Office of the Secretary.....................    31


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Gregg, and Bennett.

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF HENRIETTA H. FORE, ADMINISTRATOR AND 
            DIRECTOR OF FOREIGN ASSISTANCE


             opening statement of senator patrick j. leahy


    Senator Leahy. They've doctored up this hearing room a 
little bit. I have to get used to where all the buttons are for 
the sound, as this is the first hearing of the subcommittee 
this year.
    Senator Gregg and I have a strong interest in ensuring that 
our foreign aid dollars are used wisely. There have been a lot 
of examples, of course, where they have not been, and there 
have been a number of great examples where they have.
    Iraq comes to mind as one example of how not to do it. If 
USAID had been listened to earlier, I think there would have 
been a lot less money wasted. We'll hold a hearing in the full 
committee on the Iraq reconstruction fiasco a week from today.
    We also have some concerns with the effectiveness of our 
programs in Afghanistan and Pakistan, countries that do not get 
enough attention, and where we should be doing more. I'm 
speaking now of USAID's role.
    I'm delighted that Henrietta Fore is here. She is the 
Director of United States Foreign Assistance. She is 
Administrator of the United States Agency for International 
Development. It's quite a mouthful of a title. Ms. Fore, we 
appreciate you being here.
    Some say there's not enough time in an election year to 
accomplish anything significant. I disagree with that. We have 
a lot to do. We should make the most of the time we have. We 
want to focus on the President's fiscal year 2009 budget 
request for USAID, and there's a great deal in the President's 
request that I support.
    He proposes higher levels of funding for development 
assistance than he has before. These funds support USAID's core 
programs. They have strong bipartisan congressional support. 
For international health, the President proposes higher amounts 
for HIV/AIDS, malaria, and neglected tropical diseases.
    I met with him last week, with some other leaders from the 
House and Senate, to talk about his Africa trip. I did point 
out to him, that once again, he has cut funding for child 
survival and maternal health, and family planning and 
reproductive health.
    You can't take away with one hand what you gave with the 
other. We've got to get that in balance. One of the President's 
proposals is to recruit and train 300 new Foreign Service 
Officers to begin to rebuild USAID's professional workforce. 
It's long overdue.
    I will support the President on that. It's something I 
called for years ago. I think we would be a lot further along 
if people had listened back then, but I'm willing to welcome 
converts whenever they show up.
    But, in the meantime, USAID's professional staff has become 
a shadow of what it was. We routinely hear that USAID has 
become a check-writing agency for a handful of big Washington 
contractors and NGOs because you don't have the staff to manage 
a large number of smaller contracts and grants, even though 
oftentimes those smaller contracts and grants are the ones that 
will have the most effect.
    Sometimes the large contractors do a good job. They do 
charge an arm and a leg to do it, but other times there are 
piles of money that are wasted. We get glowing reports, but it 
doesn't always reflect what you see on the ground.
    The small, not-for-profit organizations are shut out of the 
process. I don't think that helps these countries. It certainly 
doesn't help U.S. taxpayers.
    When your predecessor passed by here last year, he had big 
plans for reforming foreign aid, but he did not appear to have 
much of a grasp of USAID's budget and programs.
    You, however, come with considerable USAID experience, and 
I appreciate that. The best advice I could give is to focus on 
two or three key areas where you can make a real difference, 
where USAID can become more accessible and more responsive.
    I know that Senator Gregg is going to a budget meeting, but 
Senator Bennett--who is a very knowledgeable Senator, and one 
who has worked very hard in these areas--I yield to you, 
Senator Bennett, if you'd like to make any comments?
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Good afternoon. This is the first hearing of this subcommittee this 
year. Senator Gregg and I share a strong interest in ensuring that our 
foreign aid dollars are used wisely. There have been many examples of 
when they have been, and many examples of when they have not been.
    Iraq comes to mind as one example of how not to do it. If USAID had 
been listened to earlier I think there would have been a lot less money 
wasted. The Appropriations Committee will hold a hearing on the Iraq 
reconstruction fiasco a week from today.
    We also have concerns with the effectiveness of our programs in 
Afghanistan and Pakistan, and countries that do not get much attention 
where we should be doing more.
    Today we welcome Henrietta Fore who is the Director of United 
States Foreign Assistance and Administrator of the United States Agency 
for International Development. That is a mouthful of a title. Ms. Fore, 
we appreciate you being here.
    Some say there is not enough time in an election year to accomplish 
anything significant. I disagree. We have a lot to do and we should 
make the most of the time we have.
    Today we want to focus on the President's fiscal year 2009 budget 
request for the U.S. Agency for International Development.
    There is much in the President's request that I support. He 
proposes higher levels of funding for Development Assistance than he 
has before. These funds support USAID's core programs that also have 
strong, bipartisan congressional support.
    For international health, the President proposes higher amounts for 
HIV/AIDS, malaria and neglected tropical diseases. But, yet again, he 
cuts funding for child survival and maternal health and for family 
planning and reproductive health.
    One of the President's proposals is to recruit and train 300 new 
Foreign Service Officers to begin to rebuild USAID's professional 
workforce. This is long overdue and I strongly support it. I and others 
called for this years ago. Imagine how much farther along we would be 
today if OMB had listened to us.
    USAID's professional staff is a shadow of what it once was. We 
routinely hear that the reason USAID has become a check writing agency 
for a handful of big Washington contractors and NGOs is because you 
don't have the staff to manage a larger number of smaller contracts and 
grants.
    Sometimes these big contractors do a good job, although they charge 
an arm and a leg to do it. Other times they waste piles of money and 
accomplish next to nothing, although they are masters at writing 
glowing reports about what a good job they did.
    Meanwhile, the small not-for-profit organizations are shut out of 
the process. This is bad not only for U.S. taxpayers but also for the 
countries that need our help.
    When your predecessor testified here last year he had big plans for 
reforming foreign aid, but he did not appear to have much of a grasp of 
USAID's budget and programs.
    You come with considerable USAID experience. The best advice I can 
give you is to focus on two or three key areas where you can make a 
real difference to help make USAID a more accessible, responsive agency 
that is not beholden to a select few.
    I will stop there so Senator Gregg can make any opening comments.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate the opportunity. Madam Administrator, I've been on 
your side of the table, and I know that what you are allowed to 
say here is dictated by the elves in OMB, and that many times 
you would like more to agree with the people here than you 
agree with the people who control what you have to say.
    But I notice that microenterprise programs have been cut 
back very dramatically in this budget. In fiscal 2008, there's 
going to be $245 million to go to microenterprise programs. Of 
all of the things I've done since I've been in the Senate, none 
has been more satisfying than the work I've done to try to 
increase the amount of money going for microenterprise.
    The request for fiscal year 2009 is $104.5 million, so it's 
cut more than in half. I don't know who did that, and I really 
don't want to know who did that, but I want you to know that I 
will do what I can to try to change that around here, and get 
back up towards the previous number. I don't see anything but 
enormous value that comes out of this.
    We talk about the standard reasons why it's good for the 
people--overwhelmingly they are women--who get these 
microloans. We get the anecdotal evidence of this woman, and 
this family, and this business, and so on. Ideologically, we 
make capitalists out of these people, and I think that's a very 
good idea. The father of microenterprise has been given the 
Nobel Prize, Muhammad Yunus. He's in town, he's been written up 
recently, and I don't know if we get to the appropriate 
question point period, but I'd like to discuss that with you a 
little bit further.
    Then having said that, I make my standard annual plea, that 
I'm sure you're familiar with and sympathetic with. That is the 
fight against corruption, and the use of these funds in 
governments that are corrupt, and we end up seeing bank 
accounts in Switzerland, or other projects that get handed out 
to sons-in-law, and nephews, and those sorts of things.
    It goes through a laundering process of two or three ways, 
but somehow it ends up more in the pockets of the government 
officials than it ends up making sense for the people involved. 
I've never heard any hint of any kind of corruptions with 
microenterprise, which is another reason why I like it.
    So those are my two hobbyhorses. This is your first time 
here, and I couldn't let you come without just repeating what 
I've repeated to all of your predecessors in these two areas.
    Thank you, Mr. Chairman.
    Senator Leahy. To make it easy for you, we have two tall, 
bald-headed men in gray pin-striped suits, with glasses on. So 
just take either one. It doesn't make any difference, 
especially on this issue that we agree so much on--
microenterprise. It goes to my point that it's easy to give a 
contract to a very large corporation, with a large bureaucracy, 
and oftentimes large cost overruns. It's kind of hard to steal 
the money when you're talking about a $200 or $300 microloan, 
but it may bit-by-bit change society, certainly in a number of 
areas that empower women who would not have been otherwise.
    Go ahead and give your opening statement, please.

                 SUMMARY STATEMENT OF HENRIETTA H. FORE

    Ms. Fore. All right. Thank you very much, Mr. Chairman. I 
am so intrigued with these subjects. I love the issues of women 
and business enterprise, as you know, Senator Bennett, so I 
would love to talk about this more deeply. Senator Leahy and 
Senator Bennett, thank you both for your support for the U.S. 
Agency for International Development over the years, but also 
now. It is very important for the development efforts of our 
country.
    With your permission, Mr. Chairman, I will give a shorter 
oral statement. I've placed my longer statement in the record.
    Senator Leahy. Your full statement will be part of the 
record.
    Ms. Fore. Good. Thank you very much.
    The degree of turmoil and poverty in the world right now 
poses both challenges and opportunities for our assistance 
programs, and underscores the vital role of development in 
achieving our objectives. The dramatic election in Pakistan, 
Kosovo's declaration of independence, the humanitarian crises 
all over the world--never has foreign assistance been more 
critical to our national security and to the citizens of the 
developing world.
    The path from poverty to prosperity is a long one, but 
already we have made progress this century. In 1981, 40 percent 
of the population of developing countries was in poverty. In 
2004, that percentage had decreased to 18 percent, and is 
projected to decline further to 10 percent in 2015.
    As we discuss the budget request, which can often seem dry 
and abstract, it is important, as I know you are very aware, to 
remember what this funding will mean to our partners and 
recipients all around the world.
    For example, Senator Leahy, because of your vision, we have 
had great success in the services and emerging technologies to 
allow war victims, as well as other people with mobility-
related disabilities, to become productive participants in 
their social, political, and economic communities.
    The Prosthetic Rehabilitation and Barrier-Free 
Accessibility Project in Vietnam paved the way in providing 
mobility and barrier-free access to tens of thousands of 
individuals in Vietnam, as well as in other countries where its 
approaches and lessons have been learned and replicated.
    The Marla Ruzicka War Victims Assistance Program has 
provided assistance to individuals, families, and entire 
communities harmed as a result of coalition military 
operations. To date, 1,311 projects have been implemented 
directly, assisting nearly 2 million war victims and their 
family members.
    Both Senator Leahy and Senator Gregg, your continued 
attention in health and education, and the needs of Iraqi 
refugees, has helped ensure that they receive resources so 
desperately needed. Senator Bennett, thank you for being a 
leader in advocating for economic growth programs for the many 
people that we serve, as a means for people to find sustainable 
solutions and livelihoods.
    These are small examples of the many people that we serve. 
Those who have the least means and opportunity, yet still yearn 
to build their lives, their nations, and their futures. With 
that backdrop, I would like to describe the highlights of the 
fiscal year 2009 request.
    President Bush's fiscal year 2009 foreign operations budget 
for the State Department and the United States Agency for 
International Development requests $22.7 billion--a 2.7 percent 
increase for the fiscal year 2008 enacted level. Our request is 
an increase of over $2.1 billion, compared to the fiscal year 
2008 President's budget request for State Department and USAID 
foreign operations accounts.
    The key new component to this year's request is the $92 
million to launch the Development Leadership Initiative for 
USAID, which aims to strengthen and invest in USAID's 
critically important Foreign Service Officer core. Not only do 
we need to ensure the size of USAID's workforce keeps pace with 
the significant increases in USAID program management 
responsibilities, but we also need to make sure the workforce 
has the necessary expertise and skill sets.
    The fiscal year 2009 request demonstrates our strong 
commitment to fighting poverty, with a focus on promoting 
economic growth and strengthening democratic governance, 
specifically in Africa and the Western Hemisphere.
    This is reflected in our request for the Development 
Assistance Account, which is more than a 40 percent true 
program increase from the fiscal year 2008 request.
    While we continue our strong commitment to key 
intervention, such as health, education, and environment, the 
fiscal year 2009 request renews our focus on creating 
comprehensive programs that address development gaps in other 
sectors. We aim to leverage the large investments that we are 
making through PEPFAR and the MCC with balanced development 
programs to ensure that all of the investments that the United 
States makes on the ground are lasting and secure.
    While I know the Public Law 480 title II appropriation is 
handled by a separate subcommittee, over the past 6 months 
commodity costs have risen 41 percent, eroding the buying power 
of the funds appropriated in this account, and making it ever 
harder for us to meet the humanitarian needs around the world.
    We hope that our supplemental budget request will be 
enacted as soon as possible, and that any restrictions on our 
ability to meet lifesaving emergency food aid needs will be 
considered within the context of rising prices. There is a 
direct link to our development goals and other humanitarian 
assistance programs funded by this subcommittee.
    I look forward to engaging with this subcommittee to ensure 
that America retains its humanitarian leadership. In support of 
the war on terror, this request will provide strong support for 
our critical efforts in Iraq and Afghanistan, as well as the 
continued focus on security assistance to our key allies, such 
as Israel and Egypt.
    In both Iraq and Afghanistan, we are creating strong 
foundations for the governments to build upon. Our Iraq 
programs continue to focus on economic and governance reform, 
and in Afghanistan we are bringing the government closer to the 
people through improvements in health and education services, 
justice administration, and local governments. We will continue 
to work with the Government of Pakistan to end extremism and 
violence, particularly on the frontier region.
    This is a robust request, one that is fully justified and 
critical to the interests of the United States, and I would be 
glad to take your questions. Thank you.
    [The statement follows:]
                Prepared Statement of Henrietta H. Fore
    Thank you for this opportunity to appear before the committee today 
in support of the President's fiscal year 2009 Foreign Operations 
budget request and to discuss our Nation's foreign assistance 
priorities. The degree of turmoil and poverty in the world right now 
poses both challenges and opportunities for our assistance programs and 
underscores the vital role of development in achieving our objectives. 
The dramatic election in Pakistan. The transfer of power in Cuba. 
Kosovo's declaration of independence. The safety concerns that so many 
of our staff and the staff of our partners face on a daily basis. The 
humanitarian crises in Darfur, Chad, West Bank Gaza, Iraq, Burma and 
Democratic Republic of Congo . . . to name a few. Never has foreign 
assistance been more critical to our national security, and to the 
citizens of the developing world.
    The path from poverty to prosperity is a long one. Success can't be 
realized in a matter of months, by a single Administration, or by any 
one generation of development leadership. But already we have made 
progress this century. In 1981, 40 percent of the population of 
developing countries was in poverty. In 2004, that percentage had 
decreased to 18 percent and is projected to decline further, to 10 
percent in 2015. According to Freedom House, by the end of 2007, the 
number of not free countries dropped from 59 in 1980 to 43, the number 
of partly free countries increased from 52 to 60, and the number of 
free countries increased from 51 to 90.
    We are here today to talk about the fiscal year 2009 Budget for 
Foreign Operations. As we discuss these numbers--which can often seem 
dry and abstract--it is important, as I know you are very aware, to 
remember what this funding will mean to our partners and recipients all 
around the world. The surest, truest compass point I know to remember 
the why of what we do is to see first hand the people we serve. The 
Peruvian farmer in the highlands, the Malian girl who just attended her 
first day at school, the Sudanese family who found safety in a refugee 
camp, a youth activist in Ukraine, a young trafficking victim from 
Vietnam, a landmine victim in Lebanon, a Kyrgyz business woman looking 
to expand her business. These are the people we serve--those who have 
the least means and opportunity yet still yearn to build their lives, 
their nations and their futures. With that backdrop, I would like to 
describe some highlights of the President's fiscal year 2009 Foreign 
Operations request.
    President Bush's fiscal year 2009 Foreign Operations Budget for the 
State Department and the United States Agency for International 
Development (USAID) requests $22.7 billion, a 2.7 percent increase 
above the fiscal year 2008 enacted level. Our request is an increase of 
over $2.1 billion compared to the fiscal year 2008 President's Budget 
for State Department and USAID Foreign Operations accounts. This robust 
request was built with an improved model that reflects an integrated 
approach between State and USAID and Washington and our missions in the 
field, and a collaborative effort with other U.S. Government agencies 
involved in foreign assistance.
                       foreign operations request
    The fiscal year 2009 budget request will strengthen and expand U.S. 
capacity for global engagement by enhancing our ability to pursue 
diplomatic and development solutions to vital national security issues. 
It reflects the critical role of the Department of State and USAID in 
implementing the National Security Strategy and addressing the 
conditions that facilitate terrorism by promoting freedom, democracy, 
and development around the world. The budget request supports five key 
goals: supporting our war on terror efforts, strengthening USAID's 
operational capacity, expanding our poverty reduction investments, 
maintaining a strong focus on health, and continuing our focus on 
security assistance. I would like briefly to address for the committee 
each of these goals.
                          global war on terror
    Terrorism is the greatest challenge to our national security, and 
the war on terror will continue to be the focus of both diplomatic and 
reconstruction efforts as long as violent extremist ideologies and 
their proponents find safety and support in unstable and failing 
states. As the President said in his September speech to the U.N. 
General Assembly, the best way to defeat the extremists is to defeat 
their dark ideology with a more hopeful vision of liberty. We have made 
important strides in diplomatic and foreign assistance efforts in Iraq 
and Afghanistan, even as we recognize the daunting work that remains. 
The fiscal year 2009 request includes $2.3 billion to continue 
providing strong support for our critical efforts in Iraq, Afghanistan 
and Pakistan.
    Our engagement with Iraq remains the centerpiece of the United 
States' effort in the War on Terror. The administration's fiscal year 
2009 request of $404 million is critical to achieving our long-term 
goals in Iraq, the Middle East and the War on Terror. While the 
strategy to achieve success in Iraq has evolved, the overarching goal 
remains unchanged: a unified, democratic, federal Iraq that can govern, 
defend, and sustain itself, and is an ally in the War on Terror.
    This request includes economic, democratic and governance reform 
programs that take advantage of the recent security gains to help the 
Iraqis create a strong political and economic foundation. I also would 
urge Congress to act quickly on the President's remaining $986 million 
requested in the fiscal year 2008 Global War on Terror Supplemental. 
These funds are urgently needed to help the Iraqis become more self-
reliant and undermine Iraq's insurgency through job creation programs 
for young men, capacity building, governance and reconciliation 
programs at both the community and national level. We would like to 
thank this Committee for its leadership and continued support for the 
Marla Ruzika War Victim's Assistance program. This program has provided 
assistance to individuals, families, and entire communities harmed as a 
result of coalition military operations. To date 1,311 projects have 
been implemented directly assisting nearly 2 million war victims and 
their family members. Your support has been essential in achieving 
these excellent results.
    The President's request of $1.05 billion in foreign assistance for 
Afghanistan will assist to fight the insurgency and establish long-term 
stability in the country. The United States is pursuing a multi-year 
program of economic development, security sector assistance, and 
political engagement buttressed by efforts to establish democratic 
institutions and improvements in governance, rule of law, and service 
delivery by the Government of Afghanistan. I would urge Congress to 
also act quickly on the fiscal year 2008 supplemental for additional, 
and critical, assistance programs to help Afghanistan push-back on 
recent gains by the Taliban. The fiscal year 2009 request sustains 
activities that are supported by the fiscal year 2008 Supplemental 
request, which is aimed at making government more accountable and 
closer to the people through improvements in health and education 
services, justice administration, opportunities for political 
participation, and local governance. Efforts to improve Afghan 
governance, establish and strengthen democratic institutions and 
achieve prosperity for the Afghan people are just as crucial to winning 
the War on Terror as security assistance to fight insurgent groups, 
prevent narcotics trafficking, and train the Afghan Security Forces.
    With the increasing influence of extremists in the Pakistan border 
region with Afghanistan, Pakistan has become an even more critical 
front to winning the War on Terrorism, particularly in Afghanistan. The 
$826 million requested supports the Government of Pakistan in 
fulfilling its vision of a moderate, democratic, and prosperous country 
at peace with its neighbors and contributing to regional stability. It 
will be important to align these resources with the newly elected 
democratic government of Pakistan, and we are prepared to engage fully 
with that government on its development priorities, including in the 
Federally Administered Tribal Areas.
    A Fiscal Year 2009 Global War on Terrorism Supplemental request is 
not included in this budget request. As needs are better known, the 
administration will request additional funds for Foreign Operations.
               strengthening usaid's operational capacity
    Under President Bush and with the full support of Congress, the 
United States has launched the largest international development effort 
since the Marshall Plan. USAID's workforce and infrastructure must keep 
pace. This request includes $92 million to launch the Development 
Leadership Initiative (DLI), which aims to strengthen and invest in 
USAID's critically important Foreign Service Officer Corps. Not only do 
we need to ensure the size of USAID's workforce keeps pace with the 
significant increases in USAID program management responsibilities, but 
we also need to make sure the workforce has the necessary expertise and 
skill sets.
    The request for the Development Leadership Initiative will allow 
USAID to hire an additional 300 Foreign Service Officers, a 30 percent 
increase in the career Foreign Service workforce. DLI will address 
critical staffing challenges in stewardship and technical areas, which 
will help provide increased accountability in U.S. foreign aid 
programs. We need more talent on the ground, in more countries, with 
the resources and skills to help build the capacity of people and 
institutions.
    The overall request for USAID administrative accounts represents a 
significant increase in the resources for training and information 
technology from the fiscal year 2008 enacted levels. Increased training 
will enable the Agency to ensure that staff have essential job skills 
and leadership training to carry out the development mission. We need 
to modernize antiquated business systems to improve the integrated 
procurement and financial management processes, continue e-government 
initiatives, and improve the agency's ability to report results.
                renewing the focus on poverty reduction
    The fiscal year 2009 request demonstrates our strong commitment to 
fighting poverty, with a focus on promoting economic growth and 
strengthening democratic institutions and governance. This is reflected 
in our request for the Development Assistance (DA) account, which 
represents a 40 percent true programmatic increase from the fiscal year 
2008 request.
    A key priority in building this year's budget is strengthening our 
commitment to Africa. Funding is targeted to address development gaps 
and to support economic opportunity and governance programs critical to 
the success of the massive investments we have made through the 
Millennium Challenge Corporation and the President's Emergency Plan for 
AIDS Relief. The budget provides significant increases for democracy 
funding in African countries.
    Another key priority is reinvigorating investment in the Western 
Hemisphere. Programs to advance democracy and free trade in the region 
are prioritized, with significant investments for Peru and Central 
America. Our goal is to encourage transparent and competitive political 
processes, promote the rule of law and respect for human rights.
                           promoting freedom
    The United States supports freedom through promoting institutions 
that foster just and democratic governance for three reasons: as a 
matter of principle, as a central pillar of our national security 
strategy, and to advance our broader development agenda. For this 
reason, our request for governing justly and democratically (GJD) 
programs has increased 27 percent from fiscal year 2008 enacted levels.
    U.S. foreign assistance will support the President's Freedom Agenda 
to end tyranny and the Secretary's vision of Transformational Diplomacy 
by promoting and strengthening effective democracies in recipient 
states and moving them along a continuum toward consolidation and 
sustainable partnership. Our objective is to reduce the number of 
authoritarian states that do not allow meaningful political competition 
and do not respect human rights, and to increase the number of 
democracies and improve the quality of their governance.
    Over 75 percent of the money is targeted to fragile democracies and 
authoritarian states. With this Committee's continued strong support 
for democracy programs, we will support elections in Afghanistan, build 
government capacity in Iraq, and support a genuine transition to 
democratic, civilian rule in Pakistan while building up the capacity to 
govern in the volatile frontier region. We will also continue to 
support democracy activists in some the world's most repressive regimes 
in countries like Belarus, Burma, Cuba, Iran, North Korea, Syria, and 
Zimbabwe.
    To assist us in the work that we do, American private capital flows 
to the developing world have tripled over the last three years--and now 
represent over 80 percent of financial flows to developing countries. 
This is a profound--indeed, radical change in the relationship between 
institutional and private foreign assistance flows. Across the broader 
development landscape, I envision USAID making an invaluable 
contribution, by using its convening influence to better coordinate 
public and private sector resources and programs that support human 
progress in the developing world. We will devote more of our 
management, technical expertise and financing resources to coordinating 
international development--and to building partnerships that will 
accelerate the pace of progress.
                   maintain a strong focus on health
    This request continues our commitment to improving interventions 
that address critical worldwide needs for HIV/AIDS, malaria, 
tuberculosis, neglected tropical diseases, other infectious diseases, 
maternal and child health, and family planning. A total of $1.58 
billion is requested for the Child Survival and Health Programs Fund 
(CSH). This includes $385 million to support the President's Malaria 
Initiative (PMI) to provide prevention and treatment in 15 countries 
severely burdened by malaria; $370 million for life saving 
interventions for children and mothers, including immunizations, 
newborn and post-partum care; and $301 million for high-quality, 
voluntary family planning.
    The Global HIV/AIDS initiative continues to be the centerpiece of 
our health programs and is the largest source of funding for the 
President's Emergency Plan for AIDS Relief (PEPFAR). The request of 
$4.779 billion is a substantial increase over the fiscal year 2008 
enacted level. Funding will support country-based activities, 
international partners, technical support, and oversight and 
management. The fiscal year 2009 request is the first of a new, 5-year, 
$30 billion commitment that builds upon and expands our initial 5-year, 
$15 billion commitment.
                 continued focus on security assistance
    Building well-governed, democratic states and reducing poverty is 
an anti-dote to extremism and requires a foundation in security. The 
United States must remain a leader in combating transnational security 
threats, including terrorism, the proliferation of weapons of mass 
destruction, transnational crime and illicit narcotics. We also must 
continue to support bilateral and multilateral stabilization efforts in 
countries that are in or rebuilding from conflict. The United States 
cannot do this alone. Therefore, our security assistance request will 
help ensure that our coalition partners and friendly foreign 
governments are equipped and trained to work toward common security 
goals and share burdens in joint missions. This request includes more 
than $5.1 billion for security assistance, a five percent increase over 
fiscal year 2008 levels.
    The largest component of our security assistance request is $4.8 
billion in Foreign Military Financing (FMF). This includes $2.6 billion 
for Israel, a $150 million increase from fiscal year 2008, to support 
the first year of a 10-year, $30 billion strategy to help Israel 
maintain its qualitative military advantage.
    The President also is requesting an additional $550 million to 
improve security in our hemisphere through the new Merida security 
initiative. This initiative will combat drug trafficking, transnational 
crime, and related threats in Mexico and Central America, while 
consolidating democratic gains. Also in the Western Hemisphere, we are 
requesting $406 million for the Andean Counter-drug Program to continue 
reducing the flow of drugs into the United States.
    In Africa, we are committed to supporting peace keeping and 
counterterrorism efforts. The fiscal year 2009 request includes $50 
million in Peacekeeping Operations to complete the effort to transform 
the Liberian military, invest in building and transforming Southern 
Sudanese guerilla forces into a conventional army, support peace in the 
Horn of Africa, and provide technical assistance and training to the 
Democratic Republic of the Congo to stabilize this volatile region. The 
$61 million total request in several accounts for the Trans Sahara 
Counterterrorism Partnership will facilitate coordination in countering 
terrorism between countries in West and North Africa.
    The President's request also includes the Civilian Stabilization 
Initiative (CSI), designed to strengthen the U.S. Government's response 
to stabilization and reconstruction crises. While it is funded from the 
Department of State Operations budget, I would note that CSI provides 
for the creation of a 250-member interagency Active and 2,000-member 
Standby Response Corps, of which almost half will be based at USAID. 
Likewise, the U.S. Civilian Reserve Corps will allow the Secretary of 
State, and USAID as the development agency, to draw on expertise from 
citizens across the United States in municipal and local government, 
the private sector and non-governmental partners. Working closely with 
our Active and Standby Response Corps, these city managers, community 
police advisors, municipal utility engineers and other experts will 
allow us to put the right people in the right place at the right time 
when we need them most.
    Finally, I would like to note that there have been concerns 
expressed among our partners in the NGO community that humanitarian 
funding has been reduced in the fiscal year 2009 request. I want to 
assure the committee that this administration supports America's proud 
tradition of helping those most in need when natural or man-made 
disaster strikes. As always with regard to humanitarian assistance 
accounts, additional requests for resources will be made during the 
course of the year, as the level of requirements becomes clearer. While 
I know that the Public Law 480 Title II appropriation is handled by a 
separate subcommittee, the funds requested for emergency food aid have 
a direct link to our overall development goals and other humanitarian 
assistance programs funded by this subcommittee. I look forward to 
engaging with this committee to ensure that America continues its 
humanitarian leadership.
    As Secretary Rice recently said, it is American Realism that 
informs our pursuit of a just economic model of development. Despite 
the wealth of many, the amount of deprivation we see still remains 
unacceptable. Half of our fellow human beings live on less than $2 a 
day. But we know what works: We know that when nations embrace free 
markets and free trade, govern justly and invest in their people, they 
create a prosperity of their own that fosters opportunities for all 
their citizens to participate fully in their political and economic 
system.
    We have met, or are on course to meet, our international 
commitments to increase official development assistance: Since 2001, we 
have quadrupled our bilateral assistance to Africa and we've nearly 
tripled our development assistance worldwide. This unprecedented 
investment calls on us to focus--more than we ever have before--on 
setting clear goals. Managing performance. Demanding accountability. 
And generating results. To that end, we have submitted a robust budget 
while we work to both modernize and revitalize the delivery of foreign 
assistance.
    I know that many of our colleagues in the development community and 
in Congress have important questions about how the management of 
foreign assistance is proceeding since the creation of the position of 
Director of Foreign Assistance. Since I carry this portfolio, as well 
as that of Administrator of USAID, I have devoted much time to 
improving this process, as I pledged to the Congress I would. Over the 
past 9 months, I've made significant changes in the foreign assistance 
budget processes based on specific suggestions from colleagues in USAID 
and State--particularly those in the field--and from our partner 
organizations and from you in Congress. This includes shifting the 
emphasis to the field by providing more opportunities for field 
proposals into the budget formulation and distribution processes. 
Additionally, we have started implementing a number of changes to 
streamline the fiscal year 2008 Operational Plan preparation and 
approval processes, increasing transparency and improving communication 
to the field. We are pleased that these changes will reduce the amount 
of field time required to prepare the Plan and reduce the volume of 
materials submitted to Washington by between 20 and 80 percent. We are 
also starting a new competitive procurement for the Operational Plan 
database--placing a premium on user-friendliness, performance and 
flexibility in the system.
    Mr. Chairman, the robust fiscal year 2009 Foreign Operations 
request is fully justified and critical to the national security 
interests of the United States. We understand that these funds are the 
result of the efforts of hard working American taxpayers. By 
strengthening the capacity of USAID, strengthening our collaboration 
with other U.S. Government agencies and our coordination with the 
private sector, we will manage these funds efficiently as stewards of 
the American people.
    Thank you very much. I would be pleased to respond to questions.

    Senator Leahy. Thank you. I know, last year, the State 
Department created the Office of the Director of Foreign 
Assistance, the F-Bureau.
    It's created a lot of confusion, anxiety, and opposition. 
Designating every country to one of five categories, and 
focusing assistance in what they considered to be the highest 
priority for that category, often didn't take adequate 
consideration of the mission's priorities, or what experts on 
the ground said was needed.
    The one good thing I've heard about is Rich Green who was 
given the unenviable job of picking up the pieces after 
Ambassador Tobias. Everybody gives him high marks for the work 
he does.
    What's the status of the F-Bureau today? Is it full steam 
ahead, or are you changing the procedures? What's going to 
happen?
    Ms. Fore. Thank you, Senator Leahy. It is full steam ahead. 
In the Office of the Director of U.S. Foreign Assistance, I 
know that Rich Green is glad to hear that he's picked up the 
pieces. We have been working very hard to try to simplify, to 
streamline----
    Senator Leahy. I've probably ruined his career by praising 
him. Go ahead.
    Ms. Fore. But we're trying very hard to simplify, to 
streamline, and to communicate.
    Senator Leahy. But those are words that we say about 
everything. You know, we're robust, we're streamlined, we're 
effective, but it's what actually happens that counts.
    I mean, we heard it about another Department right after 
Katrina--we're streamlining, we're robust, we're this, we're 
that, and, of course, nothing happened. We've got to be able to 
point to things and say, ``Look, this is why it's better now 
than it was before.''
    Anyway, go ahead.
    Ms. Fore. All right. We've listened very hard, so those 
words actually mean something for us. We've moved to country-
based programming, so that we are now putting more emphasis on 
the field. This must be field-centered. It must be that the 
country team in the field gathers and really talks about the 
development needs in the country. That they, as a team, begin 
each budget request.
    It is also important that it's integrated with the 
country's plans for development. If the country doesn't have 
ownership in the sectors and the areas of the programs that 
we're working in, it will not result in sustained development. 
You have worked in this field long enough to know that we must 
facilitate long-term development. So the country team has that 
mandate.
    Then, the budget moves to Washington, and we have 
Assistance Working Groups. Assistance Working Groups take the 
work coming out of their mother bureaus--so out of USAID, and 
out of State Department--and they try to gather around the 
table all the U.S. Government agencies that are interested in 
that country or sector.
    It's very complex, it's difficult, but they try to make 
trade offs based on the opportunities that they see--for 
example because of democratic elections, or because of economic 
openings, or because of stability after conflict--to try to 
focus our assistance in a way that's better coordinated than it 
has been in the past.
    Senator Leahy. But you have to oversee this. You also have 
to oversee PEPFAR, military assistance, the MCC, and so on. Are 
we really talking about two jobs?
    Because what I've worried about in the past, in both 
Democratic and Republican administrations, has been a lack of 
emphasis on putting strong administrators at the top. I mean, 
have we given you jobs that really should be handled by more 
than one person?
    Ms. Fore. Well, there's lots to do, but I think the jobs 
are strengthened by being together. Why I say that is something 
as simple----
    Senator Leahy. Both Director of Foreign Assistance and 
Director and Administrator of USAID?
    Ms. Fore. Yes. Something that you had been speaking about, 
the invigoration and the growth of USAID personnel, it is 
difficult if you are a USAID Administrator to move that through 
the many avenues to get it approved.
    I think this year, because it was my number one priority, 
and because I am doing better, it was successful.
    I also think that this year we have focused on trying to 
simplify, and we have reduced the required paperwork from 
between 20 and 80 percent for the field and for the people 
involved in the budget process. We know we're at the beginning 
of this process. It's not in the middle, nor have we reached 
the end of how to realign foreign assistance, and how to 
organize it.
    But with the new organization of the Office of the Director 
for Foreign Assistance and the common definitions, I think we 
have a good start.
    Senator Leahy. You'd mentioned Afghanistan, one of the most 
important programs we have in the world. I don't know if you 
saw the December 2007 issue of Atlantic Monthly. It said it was 
so hard to work with USAID, it wasn't worth it.
    Another NGO supporting women in Afghanistan, describing 
work with USAID, said, ``I've seen a whole lot of folks come 
and go. Most of them are great. Some are just putting in their 
time. They come and go quickly, and there's often not an 
effective handoff. Every time you try to do something, is the 
dawn of creation all over again.'' It went on to say how hard 
it is to find funding for $10,000, $15,000 projects, applying 
for millions to build a road, even though the area might not be 
secure that the road goes through, you could sure build that 
road, and it photographs well.
    But how about these other things?
    Ms. Fore. Your opening comments, Senator Leahy, about the 
need to be sure that we have a number of smaller implementors, 
is something that we are very much aware of at USAID, and we 
want to reach out to them.
    This request for additional personnel, United States direct 
hires in USAID, will help, because there must be good 
accountability and oversight, and the ability to have many 
smaller partners requires additional staff.
    We have many programs around the world, as you know, that 
are focused on smaller enterprises and encouraging women to 
participate. It is something of, obviously, great importance to 
me personally, but we are making sure that we are improving how 
we reach out around the world, in both our contracting 
mechanisms, as well as the effectiveness, what results we're 
achieving with the funds that we have.
    Senator Leahy. Well, speaking of the funds we have, the 
dollar is dropping precipitously. I think it takes about $1.50, 
$1.60 to buy a Euro. I remember when 70 cents would buy a Euro.
    The Canadian dollar used to cost us 70 cents, and now it 
actually costs more than $1. Canada's economy is strengthened, 
but it's partly because ours has weakened so, and our dollar 
has gone way, way down.
    Thus, the price of fuel goes way, way up. You're talking 
about these things you're doing, but with the plans we've made 
for the budget 6 months ago or 1 year ago, the value of the 
dollar, the cost of fuel the situation today is different.
    Is there going to be a supplemental request to make up the 
difference?
    Ms. Fore. Well, at the moment we are struggling with the 
challenge of the lower buying power of the dollar in almost 
every aspect. It affects our operations, it affects our ability 
to buy food, it affects most of our partners around the world. 
It certainly affects partners that have offices in Europe.
    We are constantly analyzing the budgets, and discussing 
what can be done, trying to utilize all of our funds, as 
effectively as possible.
    Senator Leahy. But you don't know whether there's going to 
be a supplemental request for that.
    Ms. Fore. I do not know.
    Senator Leahy. Thank you. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. Can we talk about 
the microenterprise number? Give me some insight as to why it 
was cut in half?
    Ms. Fore. Yes. The amount that we currently have, the $104 
million, is just a beginning since it represents programs whose 
primary focus is microenterprise. As you know, funds for 
microenterprise programs come from a number of other 
crosscutting programs, from missions and from programs around 
the world. I would anticipate that for fiscal year 2009, that 
number will end up much higher than where it is now.
    Microenterprise has been a real strength for USAID for many 
years. As you correctly mentioned, microenterprise has set a 
number of best practices for the industry. What we also have is 
a whole new burgeoning industry. I was just at a web-based 
outreach fair that was a part of what we're calling the Global 
Development Commons, in which the microenterprise industry has 
web-based leaders, community leaders, so that communities build 
up around microenterprise best practices. Lots of private 
companies are now strongly in the microenterprise sector.
    When, Senator Leahy, you and I, were together at the World 
Economic Forum, one of the things that we heard from a number 
of banks around the world is microenterprise and how important 
it is. But what they were also saying is that, for them, 
microenterprise is a for-profit activity. They would like us to 
think about what they call ``the missing middle.'' So there's 
microenterprise and then there's entrepreneurs that are the 
next stage up, and then, of course, the big multinationals.
    But they are finding that they would like us to blend into 
that middle category to try to encourage entrepreneurship, 
whether it's in Liberia or anywhere around the world. So we 
will try to view this holistically as economic growth to 
encourage entrepreneurship. It does encourage the empowerment 
of women and small enterprises, whether in the agricultural 
sector, or any other sector, because it is how people build 
their own family wealth and stability, but it also sets a 
stable, middle class in countries.
    Senator Bennett. Okay. I'm with you and I support that but 
let's not begin to cannibalize some of the people at the 
bottom.
    The other thing that I have found over the years--and 
clearly, you don't fall into this category--but there has been 
resistance on the part of some in the State Department, simply 
because they don't get to control the money. That's one of the 
reasons why it works, because it goes into the hands of people 
who will use it creatively.
    It is a for-profit operation, even at the very lowest 
level, because the repayment level is so high. I'm not telling 
you anything you don't know. The repayment level is so high, 
the default percentage is so small, and lots of people get in 
it for a variety of humanitarian reasons, but it's also very 
good business all the way around. So just to reinforce that.
    Can we talk about corruption? Do you deal with that? We've 
seen all of the fuss that's gone on in the World Bank, with the 
retirement by Mr. Wolfowitz, and his replacement by Mr. 
Zoellick, a lot of conversation down there. I'm not close 
enough to be able to say absolutely no action, but at least 
that's been part of the press's report that the World Bank has 
spent a lot of time talking about corruption in these 
countries, and then business as usual. It has overwhelmed Bob 
Zoellick as he's trying to carry on in that effort.
    What role does USAID play in this fight? I believe that 
corrupt governments constitute the number one obstacle to 
getting people out of poverty and making foreign aid--whether 
it's ours or any other country's--work intelligently for the 
people. That as long as you have a corrupt government, no 
amount of money you can put in can change the conditions in the 
country.
    What leverage do you have? What information do you have? 
What background can you share with us?
    Ms. Fore. Thank you, Senator Bennett. It's a very difficult 
area, and it is one that is on everyone's mind as they are in 
the field. But also, in Washington, as we are trying to look 
for best practices and what levers we can use through the 
political, economic, and societal means.
    Most of our activities for anti-corruption fall within our 
governing justly and democratically, categories in the budget. 
In all the programs they try to target areas that are most 
important. So whether it is at the local government level, or 
whether it is at a customs office, or whether it is at a 
business licensing facility, or whether it is in the national 
government--we try to help civil society organizations that can 
act as watchdogs. We strengthen journalists and the media, so 
that there is transparency and an ability to view the financial 
operations of a government.
    We also try to encourage and help with good financial 
systems. For many countries, a government's capacity, the 
ability to have a clear financial system, or a clear budgeting 
system, is very weak. If we can strengthen that, it encourages 
transparency, and through our training programs, bringing 
visitors both here, as well as training in the country, they 
learn how to look for and how to put in internal controls and 
external controls, so that money is indeed watched.
    Senator Bennett. Let me share with you an experience I had 
with a Finance Minister.
    I said to him, ``All right, what do you need?'' He said, 
``I need competent people.'' He said, ``I preside over a 
Finance Ministry with tens of thousands of employees. I could 
fire every one of them, if I had 15 people I could trust.'' 
This was a man who was trained in the United States, got a 
Ph.D. in economics from one of our finest universities.
    He said, ``I can't get USAID to give me any scholarship 
money. They tell me, `Well, if we gave you scholarship money, 
you'd just pick your nephew and your son-in-law, and all of the 
rest of them, and send them to the United States on a free 
educational junket that the U.S. taxpayer would pay for.' ''
    In other words, it would all be kept in the family. We saw 
a lot of that in the Olympics Movement. We, in Salt Lake City, 
got blamed for the corruption that was in the International 
Olympic Movement. We didn't start it, but we ended it.
    So this Finance Minister said, ``All right. You pick them. 
The USAID officials go out in my country and pick the 
brightest, most ambitious, most attractive people, train them 
in the United States in basic economics and business 
procedures, and then send them back to me. They won't do it. 
They'll put money into a bridge. They'll put money into a 
warehouse. They'll build some kind of monument.''
    He said, ``I could fire all of these people in my 
ministry.'' He couldn't, because that's part of the employment 
of that particular country. They keep their employment up by 
keeping huge amounts of people working on the government 
payroll. But he said, ``If I had 15 people that I could trust, 
who were properly trained, I could make a true difference in 
the way things work here. I can't train them in this country. 
They've got to come to the United States. USAID would get far 
greater return on its investment if they were to--they pick the 
very best and brightest among our young people, and take them 
to the United States, with the full understanding that by 
virtue of their having their education paid for by the U.S. 
Government, they're going to come back, they're going to be 
employees of the Finance Ministry of this country, and we can 
start to get something done.''
    Have you ever had any conversations like that?
    Ms. Fore. Well, I haven't had the conversation where USAID 
hasn't said, ``Yes, we'll do it.''
    So we can talk about this particular Finance Minister and 
country, but USAID does exactly these kinds of programs all 
over the world. I think they are enormously important. We try 
to use it, because building human capacity and human capital is 
one of the most important things that we can do.
    One of the areas that we've been talking about in the 
Global Development Commons is how to exchange best practices 
around the world. So that if you are Finance Minister, or 
someone working within the Ministry, you pick up good ideas 
about the work that you have before you, at the time you need 
it, rather than waiting for training.
    So I think that part of this education must be on the web. 
Part of it should be in person, where they come to America, or 
to another country, where we can teach a variety of skills. But 
it is very important, Senator Bennett.
    Senator Bennett. I'll share the name with you privately 
then.
    Ms. Fore. Yes. Good, thank you.
    Senator Bennett. Thank you. Thank you, Mr. Chairman. I 
would like to talk to you about India.
    Senator Leahy. Go ahead.
    Senator Bennett. We assume that since India is prospering, 
India doesn't need any foreign aid anymore. There are some 
programs that, frankly, the Indian Government isn't qualified 
to handle, and USAID is.
    I have heard, from people who are in the Embassy over 
there, that we've made a really dumb mistake in our long-term 
relations with India to say, ``Okay. You're now financially 
capable of doing this yourselves, and so we're going to 
withdraw any aid from India.''
    India is going to be an extremely important country in our 
future, and maybe it's not spot-on for what USAID's mission is, 
but in terms of our geopolitical relationship with India, a few 
dollars spent now to keep some of those programs alive would 
pay huge geopolitical dividends later on.
    You don't have to comment, but I want to put that bug in 
your ear, as they say.
    Ms. Fore. Yes. Very good, Senator Bennett. We are 
transitioning in India, to more public/private partnerships, 
because we think there is an enormous capacity, in both the 
United States, as well as in Indian business, that could pair 
up with us in a number of sectors.
    Senator Leahy. One program that has worked, according to 
your folks and the Iraqis that have participated in it, is the 
Community Action Program. I don't want to get too bogged down 
on Iraq, no pun intended, because we've wasted more money there 
than your entire fiscal year 2009 budget. But the Community 
Action Program that supports local initiatives to rebuild has 
been very successful.
    You don't have anything in the fiscal year 2008 
supplemental or the fiscal year 2009 request for this program. 
If it's that successful--I mean, is it so successful that we 
don't need it?
    Ms. Fore. We have a number of programs for which we are 
requesting funds, and we have a number that we are sharing with 
other agencies. So some of these programs, we are funding from 
different streams. So perhaps, Senator Leahy, I could come back 
to you with the funding----
    Senator Leahy. Would you, please?
    Ms. Fore [continuing]. Sources for it. Yes.
    [The information follows:]
                              USAID Budget
    The Community Action Program (CAP) is a well established Iraq-wide 
program that has been successful in mobilizing citizens at the local 
level through the civil society process to make a difference in Iraqi 
communities. CAP II will end in September 2008 and USAID is reviewing 
options for a follow on program. It is currently funded from IRRF II 
with $22.4 million obligated and ESF with $145 million. A congressional 
notification has been submitted for a reobligation of IRRF II funds in 
the amount of $20 million.

    Senator Leahy. I would like to know if there are other 
donors picking that up and who that would be.
    Last year, we appropriated $446 million for child survival 
and maternal health programs, about $90 million above the 
President's request, because every expert we heard from told us 
how important that is. You measure how well a health system is 
doing in a country by how many children die before the age of 
five, how many women died needlessly of pregnancy-related 
causes.
    The administration has done a lot to increase funding for 
AIDS and TB and so on, but you propose to cut funding for child 
survival and maternal health in fiscal year 2009. Has the need 
gone away?
    Ms. Fore. The need is still there, and the United States is 
still the largest bilateral donor in these areas. Our fiscal 
year 2009 request is about at the same level as our fiscal year 
2008 request.
    It shows a strong priority, but it also shows that, with 
reduced resources and stretched resources, that we need to be 
more broad-based in our health programs. We continue to do very 
fine work in all of these areas. They have probably been the 
single most important long-term effort for the United States 
Government.
    Senator Leahy. But it will be a cut below what we had last 
year?
    Ms. Fore. If we----
    Senator Leahy. No, actually----
    Ms. Fore. Yes, from the enacted level. But from the 
requested level, it's about even.
    Senator Leahy. We appropriated $456 million for family 
planning and reproductive health, which we were told is very 
helpful. Actually, it's about the same that we appropriated in 
1995. You propose to cut it by $156 million, down to $300. That 
makes sense?
    Ms. Fore. Well, we continue to have a very strong priority 
in this. It is still very important to us that there is United 
States leadership. We remain the largest donor. In all of these 
areas, maternal and child----
    Senator Leahy. The largest donor in dollar amounts, but 
there are many countries that give more as a percentage of 
their GDP. Do we not?
    Ms. Fore. Correct.
    Senator Leahy. But you feel the cut is justified?
    Ms. Fore. We would wish to have money for everything, but 
in a time of constrained resources, we wanted to be sure that 
there was broad-based approach to health. So we have a number 
of excellent health programs, whether they're PEPFAR, the 
neglected tropical diseases, and others, across the health 
sector.
    So areas where we have great successes and we have done 
well, we tried to stretch the dollars as far as we can.
    Senator Leahy. This is one that has been successful?
    Ms. Fore. Sometimes it's especially because they've been 
successful. If they've been very successful, then it is time 
that public/private partnerships can help pick it up, and local 
governments can help pick it up, and other donors can help pick 
it up. So we try----
    Senator Leahy. Well, let's----
    Ms. Fore [continuing]. To share those best practices with 
others.
    Senator Leahy. Well, let's talk about some of these places. 
You've--between the Child Survival and Health program and the 
Economic Support Fund, you're requesting $470 million for 
Pakistan.
    Now, we've given them billions of dollars over the past 2 
years. Has that money been spent wisely? Or is it--in a country 
where corruption is so endemic and accountability seems almost 
nonexistent--are we spending money just to buttress political 
statements we've made?
    Ms. Fore. Well, in Pakistan, in the health sector, the TB 
case detection rate has improved significantly, from 25 percent 
in 2004 to 50 percent in 2006. Treatment success rates for 
these patients is 83 percent, very close to the 85 percent 
target.
    Senator Leahy. Not my question. Are you convinced that none 
of that money has or----
    Ms. Fore. We have in place a number of programs to try to 
be sure that we are monitoring every single dollar, so that we 
are sure that the American dollars are going for areas that are 
most productive, that are well spent, that are getting the 
results that we expect.
    Senator Leahy. So is that money----
    Ms. Fore. We've had several audits.
    Senator Leahy. Yes. Has that money been well spent and 
productive in Pakistan?
    Ms. Fore. The audits show it's been carefully spent, and 
the results show that we have some very good, strong results in 
democracy, in health, in education, and in economic growth.
    Senator Leahy. If this were your money, personally, would 
you feel confident in that it's going to Pakistan?
    Ms. Fore. I think of all of it as being my money, 
personally.
    Senator Leahy. Well, that's not my question.
    Ms. Fore. Well, I think that Pakistan is such a strong and 
important ally for us, an ally in many areas--the global war on 
terror--but also, it's an ally in many areas in which we have 
shared interests.
    Foreign assistance works in many ways, both short term and 
long term, and sometimes our investments are rewarded by 
immediate results, and sometimes they take a long time.
    So I think we are doing a good job in investing the money, 
and for some of the results, we will not see them immediately. 
But when you see some of what we've accomplished in education, 
or in economic growth, or in governance, it's remarkable. 
Americans should feel very proud of their assistance.
    Senator Leahy. Indonesia--the largest Muslim country in the 
world--faces huge challenges. I've heard from so many 
administration officials and the President speak of the 
importance of Indonesia. You're suggesting cutting our 
assistance to them. Does that make sense?
    Ms. Fore. Well, Indo----
    Senator Leahy. Or has the assistance that we've given them 
been so successful we don't need it?
    Ms. Fore. Indonesia is what we consider a key country. It 
is important for us in regional security. It's important to us 
in democracy and economic growth. You know that we've been 
helping on the reconstruction in Aceh. It is an MCC threshold 
country.
    Fiscal year 2009 budget is $186 million. There are long-
term programs. Indonesia is just a very, very key country for 
us.
    Senator Leahy. We have spent $74 million to support 
programs related to Cuba since 1996. For fiscal year 2008, the 
President requested, and we appropriated $45 million--that's a 
500 percent increase over the previous year.
    In November 2006, a GAO study concluded that poor oversight 
of the Cuba Program did not provide adequate assurance that 
funds were properly used. They said administrative costs on the 
part of grantees were high. Shipping costs to get goods into 
Cuba were very high.
    According to the GAO study, there are instances in which 
cashmere sweaters, Godiva chocolates, Nintendo Game Boys, and 
Sony PlayStations were among the items purchased with U.S. 
Government funds to be shipped to dissidents in Cuba.
    How much of this money has been spent on programs in Cuba 
for dissidents and others? How much has been given to people 
here, right here in the United States?
    Ms. Fore. I do not have an answer for that one. In our 
fiscal year 2009 budget, we have requested $20 million. It's 
the number suggested by CAFCII, and it encourages democratic 
freedom and our support for the people of Cuba.
    Senator Leahy. Well, yes. That's easy to say, but you've 
got this GAO study. Have you responded to it?
    Ms. Fore. We believe that we've taken care of all of the 
outstanding issues and remedied them.
    Senator Leahy. Could we have a copy of that response?
    Ms. Fore. Yes, of course.
    Senator Leahy. Thank you. Senator Bennett. I have other 
questions that will be for the record.
    The President took a great deal of credit for a number of 
the programs that we've supported in Africa and elsewhere on 
his latest trip. But the money you talked about was not the 
money he'd requested. We actually put more money in for a 
number of these programs.
    When I asked the President about how it's great to take 
credit for it, but he's put in less money than what he needs, 
and then we have to find the money by robbing Peter to pay Paul 
to do it--he said, ``Well, I know how appropriations work. You 
always find the money.'' I said, ``No. I disagree with you.''
    If you're repairing roads and bridges in this country, 
sure. Everybody's going to say, ``Wait a minute, my State needs 
to replace that bridge or that road. It's dangerous. Besides 
which, it's going to look good back home if we can.'' You're 
going to want to increase it.
    I said to the President, ``How many of us do you think 
are--at a time we are going into a recession--how many of us do 
you think have constituents pounding on our doors saying, 
`Please give more money for foreign aid?' ''
    I don't have too many people back home saying, ``Please 
give more money for foreign aid.''
    I think it's worthwhile if it's well spent. But I also 
worry when I see something like this Cuba GAO report that it's 
not being. I think, years ago, of a country where we spent 
hundreds of millions of dollars to build housing. They showed 
me one half-finished, one-room apartment. The Administrator of 
the program did come up in a very expensive car, certainly a 
lot more expensive than I own.
    We provide $10 million to U.S. nongovernmental 
organizations for environment and rule of law programs in 
China. Additional funds are provided for democracy programs 
under the Democracy Fund account.
    When you watch what's happening in China, I would like a 
significant portion of that $10 million used for environmental 
programs, and in a manner that encourages matching private 
funds and U.S./Chinese partnerships.
    Can you work with us to do that?
    Ms. Fore. Yes. Well, Senator Leahy, I know how important 
foreign assistance is around the world. I know how much good it 
does. I know that it is a good investment for all of us, and I 
thank you for your leadership and support of it.
    As an American, I am really honored and proud when I see 
our programs around the world. So we will endeavor to do our 
best to work with all of you to create the finest programs on 
behalf of the American people.
    Senator Leahy. Well, look at this China one, too. It's just 
one of many. But as Senator Bennett pointed out, it's often not 
the big--the grandiose Aswan Dam projects, but it might be a 
lot of microenterprise loans and maybe a whole lot of smaller 
educational or health programs.
    I was glad to hear you mention the Marla Ruzicka Fund. 
That's one I wrote. I'm glad to hear it is working. I know a 
few of you knew Marla Ruzicka. An impressive young woman who 
died much too soon. Thank you very much.
    Ms. Fore. Thank you, Senator Leahy.

           STATEMENT SUBMITTED BY SENATOR CHRISTOPHER S. BOND

    Senator Leahy. We have received the prepared statement of 
Senator Christopher S. Bond that will be made part of the 
record at this time.
    [The statement follows:]
           Prepared Statement of Senator Christopher S. Bond
        rebuilding the u.s. agency for international development
    As I have said many times, 80 percent of the current war on radical 
Islam and terrorism must employ our Nation's smart power, or non-
kinetic forces. By putting more sandals and sneakers on the ground, we 
lessen the likelihood of having to put boots on the ground. The pointy 
end of this smart power spear, in the past, has been USAID's Foreign 
Service. They have been deployed abroad, overwhelmingly in the world's 
poorer countries, and increasingly, in some of the same places our 
folks in uniform find themselves, working closely together. Today, 
USAID's Foreign Service amounts to about 1,100 Officers, mostly 
deployed--spread very thin--among the more than 80 Missions USAID 
staffs. At the same time, USAID's program management responsibilities 
have grown, particularly since 9/11, having reached a low point in the 
mid to late 1990s.
    USAID and its mission are about 60 years old, and over that period 
they have been an important instrument of U.S. foreign policy and 
national interest, and the principal means by which the U.S. Government 
extends America's humanitarian assistance to the world. This small 
agency and its mission may well be even more important in today's world 
than they have been in the past. Yet their capacity to deliver has 
shrunk dramatically from times past and now must rely largely on 
contractors that lack the necessary expertise and experience to conduct 
sustainable development. Perhaps we started to take a holiday from 
history after the end of the cold war, or perhaps it started even 
earlier, in the wake of our withdrawal from Vietnam. Whenever it began, 
however, the result is today a serious problem for U.S. Foreign policy.
    In short, the size of the Foreign Service Officer workforce has not 
kept pace with the significant increase in USAID program management 
responsibilities. Between 1995 and 2007, funding for USAID-managed 
programs increased by 40 percent while FSO staffing decreased by 24 
percent, for example. This combination of increased program funding and 
decreased staff levels has eroded the agency's core leadership and 
technical capabilities.
    Today, I am told, some 45 percent of all of USAID's Foreign Service 
Officers are eligible to retire as is some 71 percent of the Senior 
Foreign Service. To make the problem worse, as we have fewer and fewer 
Foreign Service Officers to administer USAID's programs, they turn of 
necessity to more and more contracts and grants, so that the face of 
USAID abroad is increasingly their contractors and grantees. Many do 
good work, but there are some important things that private citizens 
can't do that direct hires of Uncle Sam can, like dealing officially 
and directly with the host governments, for example. It also leads to a 
vicious circle--as USAID has turned increasingly to contracts and 
grants to implement its mission, it's hiring priorities have 
increasingly focused on more contract and grant management officers, at 
the expense of specialties and professions that once typified USAID's 
field presence.
    The administration is proposing to begin the rebuilding of USAID, 
focusing first on its Foreign Service, by beginning to hire above 
attrition for the first time in many years--300 Foreign Service 
Officers above attrition in fiscal year 2009--toward a goal of roughly 
doubling USAID's Foreign Service over the next several years. I know 
that this is beyond the horizon of the current administration, but I am 
very impressed by the broad consensus that seems to be emerging in the 
Congress, in both Houses and across Party lines on the importance of 
this initiative, and I urge my colleagues on the Committee to give it 
their full support.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                    administrator fore's priorities
    Question. We are all mindful that this is an election year and time 
is short. What do you see as the two or three most pressing challenges 
facing USAID--in the way USAID is structured, managed or the programs 
it administers, what do you plan to do about them, and do you have the 
necessary legal authorities and the resources to do it?
    Answer. Revitalizing and reinvesting in critically-important USAID 
capacity to carry out our core development and humanitarian assistance 
mission is my top priority. We need more USAID talent in the field, in 
more countries, to help build the capacity of people and institutions--
and engage more broadly with development partners. In addition, to 
anticipate the societal losses and setbacks that occur when conflict 
disrupts our partner nations, USAID, and the State Department, must 
have similar capacity to ``surge'' as other parts of the U.S. 
Government, so that together, we can place enough of our conflict 
prevention and reconstruction assets in the right places at the right 
times.
    The President's fiscal year 2009 budget request includes Operating 
Expense funds to enable USAID to hire 300 Foreign Service Officers ( 
FSOs) in addition to those hired to replace FSOs lost through 
attrition--the Development Leadership Initiative--and $36 million for 
information technology systems development in the Capital Investment 
Fund. If appropriated, these resources will strengthen our good 
stewardship of taxpayer dollars, begin to restore the technical 
expertise USAID has been famous for, and provide 21st century tools to 
enable our people to work more efficiently. The fiscal year 2009 budget 
also requests funds for significant investments in post-conflict 
capacity.
    I feel deeply that USAID must re-establish intellectual leadership 
in the development community and am moving rapidly to strengthen the 
agency's capacity in this regard. We have reinstituted an agency policy 
coordination process and are hiring well-qualified staff to work with 
me and the senior leadership team to lead policy development. One of 
the first fruits of this new process is a new Economic Growth strategy 
that I expect to make public shortly.
    USAID has long emphasized evaluation for accountability and, more 
important, as a source of development learning. The recent lack of a 
coordinated evaluation plan hampers our ability to identify common 
issues and best practices across the portfolio. Therefore, I am 
reinstituting a central evaluation function that will be an independent 
voice to assess the effectiveness of USAID's programs. The new 
Evaluation Unit will focus on: (1) establishing a core Agency 
evaluation expertise; (2) developing and implementing an annual 
evaluation agenda; (3) managing evaluation support services used by 
Missions; and (4) strengthening evaluation policy and training agency-
wide.
    Last but not least, USAID needs to extend our reach to private 
sector partners and NGOs who are eager to combine their own expertise 
and resources with ours to overcome development challenges, and to the 
American people, so that they understand the vital role of development 
in national security and the impact their tax dollars are having on the 
lives of people around the globe.
                   development leadership initiative
    Question. You have talked about your Development Leadership 
Initiative to begin rebuilding USAID's professional staff. Assuming we 
give you the funds you have asked for, what tangible differences will 
this make in the way USAID does business--if I were an NGO or 
contractor, or a beneficiary of USAID assistance in a foreign country, 
how will it change things for me?
    Answer. The Development Leadership Initiative will enable USAID to 
engage more directly with more partners on the ground and devote more 
attention to strengthening institutional capacity in the countries in 
which we work. Currently, the severe shortage of qualified procurement, 
financial management and technical personnel, in the field and in 
Washington, restricts USAID's ability to build productive relationships 
with a wider range of host country counterparts, significantly expand 
the innovative Global Development Alliances model and other types of 
public-private partnerships and manage a substantially larger number of 
contracts and grants, particularly with local non-governmental 
organizations NGOs.
    With a significant new cadre of procurement, financial management, 
program and technical officers, USAID staff will be able to spend more 
time working directly with beneficiary organizations such as local NGOs 
to strengthen their governance structures and financial management 
systems, better preparing them to continue their work once USAID's 
assistance ends.
                   international disaster assistance
    Question. In fiscal year 2008, including the supplemental, we 
appropriated $429 million for International Disaster Assistance. That 
was more than the President asked for but 25 percent less than the 
fiscal year 2007 budget. This leaves a shortfall of about $175 million 
from the level that the Office of Foreign Disaster Assistance expects 
to need in 2008, yet the President has not asked for any additional 
funding. OFDA says it is already preparing to cut back programs by 25 
percent.
    This means the United States will provide less emergency shelters 
for disaster victims during the rest of this year, impacting hundreds 
of thousands of people. It means less potable water to reduce the risk 
of disease in IDP camps. It is estimated that over 600,000 vulnerable 
people in Darfur will be cut off from basic health immunizations and 
education. In Kenya, half a million people who would have received 
seeds and tools to restart their agricultural livelihoods in areas 
affected by the recent conflict will have no support.
    Are you aware of this? Does the administration plan to request any 
additional funding for these crucial programs in fiscal year 2008? What 
do you suggest we do about it?
    Answer. Yes, we are very much aware of the dynamic, changing, and 
critical humanitarian situations. We maintain close contact with our 
staff and partners on the ground and their constant feedback helps us 
to make the necessary budgetary adjustments to ensure that the most 
critical humanitarian programs remain operational and the needs are 
met. We understand the humanitarian assistance budget situation for 
fiscal year 2008. Additional resources for our fiscal year 2008 
humanitarian programs were not requested; we will do what we can with 
our existing resources.
                   child survival and maternal health
    Question. Last year, we appropriated $446 million for child 
survival and maternal health programs. This was about a $90 million 
increase above the President's request because every global health 
expert has advised us that effective public health systems begins with 
children and pregnant women. You can measure the effectiveness of a 
country's health system by whether children do not die needlessly 
before the age of 5, and women do not die needlessly of pregnancy 
related causes.
    While this administration has done a lot to increase funding for 
AIDS, TB, and malaria, you propose to cut funding for child survival 
and maternal health in fiscal year 2009 below the fiscal year 2008 
enacted level. Why does this make sense?
    Last year, we appropriated $456 million for family planning and 
reproductive health which, again, public health experts tell us is one 
of the essential building blocks of a functioning health system. That 
is about the same amount we appropriated in 1995, yet you propose to 
cut it to $301 million.
    Why does this make sense, when we know that there are women in many 
poor countries that need contraceptives and cannot get them, and we 
know that unplanned births only compound the difficulties of families 
that are already barely able to earn enough income to survive?
    Answer. The fiscal year 2009 request for Maternal and Child Health 
activities reflects the constrained budget environment and competing 
priorities for HIV/AIDS and Malaria. The United States Government (USG) 
programs in HIV/AIDS and Malaria also benefit maternal and child 
health. The USG is a major donor in the field and will continue its 
technical leadership. The fiscal year 2009 aggregate request for 
Maternal and Child Health is the highest funded element in the USAID 
health portfolio.
    Our activities in child survival and maternal health are 
increasingly focused on the countries with the greatest need and with 
the greatest opportunity to improve outcomes for mothers and children. 
Africa continues to receive more maternal and child health funding than 
other regions, with 33 percent of CSH maternal and child health funds 
in the fiscal year 2009 request.
    The fiscal year 2009 aggregate request of $327 million for family 
planning and reproductive health includes $301 million in Child 
Survival and Health Programs Funds (CSH). The request is less than the 
appropriated levels in recent years due to the constrained budget 
environment and competing priorities. The USG remains the largest 
bilateral donor for family planning and reproductive health, even at 
the fiscal year 2009 request level.
                         transition initiatives
    Question. The Office of Transition Initiatives (OTI) provides quick 
recovery and reconstruction assistance for countries emerging from 
conflict. By all accounts it has done a good job with a small budget, 
often under very difficult conditions. Yet you propose to cut its 
budget from the $44 million we appropriated in fiscal year 2008 to $40 
million in fiscal year 2009. How do you explain this when the President 
is asking for $248 million for the new Civilian Stabilization 
Initiative, which has the same mission of helping countries stabilize 
and transition from war to peace?
    What role do you see USAID playing in the Civilian Stabilization 
Initiative?
    How do you see OTI and the Civilian Stabilization Initiative 
coordinating their activities and cooperating on the ground?
    Answer. USAID will play a key role in the Civilian Stabilization 
Initiative (CSI) by providing a significant portion of stand-by 
personnel to respond to major reconstruction and stabilization needs. 
USAID experts in areas ranging from Rule of Law to Micro-enterprise to 
Parliamentary Process to Human Rights Protection will be made available 
to participate in a CSI action in order to help bring stabilization and 
recovery to a nation that has undergone a recent major upheaval.
    The Office of Transition Initiatives (OTI) has consistently engaged 
with U.S. Department of State, Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS) since its creation and will 
continue to with new proposed formats such as the Civilian 
Stabilization Initiative. It is envisioned that OTI and other related 
actors will participate as part of the Civilian Stabilization 
Initiative response teams. In countries where OTI is already deployed, 
OTI field teams will coordinate with and be a part of advance civilian 
teams in the same manner that OTI has provided assistance to other 
urgent priorities. CSI activities are expected to engage OTI staff in 
front-lines programmatic responses, just as OTI staff have joined 
larger U.S. Government efforts in recent priority responses, including 
the Tsunami Relief in Sri Lanka and India, the earthquake response in 
Pakistan, and flood relief activities in Bolivia.
                    millennium challenge corporation
    Question. This year, like last year, and the year before that, the 
President is requesting billions of dollars for the Millennium 
Challenge Corporation at the same time that he wants to cut other 
programs--for basic education, the environment, child survival and 
maternal health, to name a few. Isn't this the classic case of robbing 
Peter to pay Paul, after we were assured that the MCC would be 
additional money, and that USAID is paying the price?
    Answer. The steady increase in the President's requested levels for 
the traditional assistance accounts since 2002 demonstrates 
conclusively that Millennium Challenge Account (MCA) has been additive.
    The President's request in fiscal year 2009 for the three largest 
``traditional'' assistance accounts--Child Survival and Health, 
Development Assistance and Economic Support Fund--has risen from 
approximately $4.6 billion in fiscal year 2002--before Millennium 
Challenge Corporation's (MCC) establishment--to $6.4 billion in fiscal 
year 2009, an increase of nearly 40 percent. Adding the fiscal year 
2009 request for $2.2 billion for the MCC represents an increase of 87 
percent in fiscal year 2009 over fiscal year 2002, a strong indicator 
of the President's commitment to foreign assistance.
    In a world of limited resources, individual country programs 
increased and decreased before MCA existed, and will continue to 
increase and decrease with MCA on the scene. What the existence of MCC 
requires of us is better integration, and that takes place on a country 
by country basis with considerations of needs, sectors, and timing.
    MCC's mission is poverty reduction through economic growth and is 
one of many important tools the U.S. Government has to accomplish its 
foreign assistance goals. MCC Compacts are targeted to countries that 
perform better then their peers on independent policy criteria and are 
designed by partner countries to address their constraints to economic 
growth--often infrastructure and rural development. MCC cannot do this 
alone. Before Compacts begin, and while they are being developed and 
implemented, USAID will need to continue to use its resources to 
improve the overall political, economic and social environment 
necessary for the success of MCC's larger investments. The synergies 
between MCC and USAID programs to achieve maximum development impact 
are recognized by both agencies.
    This means that USAID must continue to address critical reforms in 
the broader ``enabling environment'' needed to expand political and 
economic freedom, and foster local private sector growth. These 
elements are essential for the large MCC investment to have maximum 
impact and for the U.S. Government to achieve its broader 
transformational goals. A vibrant local private sector is key to 
reducing countries' reliance on foreign assistance and is the ultimate 
exit strategy; MCC and USAID working in tandem can accelerate that 
timeframe. In many MCC countries, particularly the poorest, USAID may 
need to continue its work after the completion of an MCC Compact 
whether the country remains eligible for additional MCC compacts or 
not.
    These realities are reflected in the process of determining country 
assistance programming. The goal of U.S. Government assistance efforts 
is to have the most effective possible mix of programs given each 
country's unique circumstances. Annual changes in requested assistance 
flows from the Economic Support Fund, Development Assistance and Child 
Survival and Health accounts to individual countries reflect a range of 
complex country specific factors, only one of which is projected MCC 
disbursements.
                                 china
    Question. The fiscal year 2008 State and Foreign Operations Act 
provides $10 million through U.S. educational and nongovernmental 
organizations for environment, democracy and rule of law programs in 
China. Additional funds are provided for democracy programs under the 
Democracy Fund account. We want a significant portion of the $10 
million to be used for environment programs, and I would hope it will 
be done in a manner that encourages matching private funds and U.S.-
Chinese partnerships.
    As you determine how to use these funds, I would appreciate it if 
you would consult with us first.
    Answer. Thank you for providing the opportunity to consult with the 
Appropriations Committee about USAID's programming of congressionally-
provided funds in China. USAID's ongoing environment programs in China 
link counterpart United States and Chinese universities to collaborate 
on environmental activities while encouraging matching funding from the 
private sector. Of the $10 million Development Assistance (DA) earmark, 
USAID plans to allocate approximately $5 million to environment 
activities in China in fiscal year 2008 that address clean energy and 
climate change, natural resources and biodiversity, and environmental 
governance.
    In the area of clean energy and climate change, USAID will support 
continued work to promote good governance practices in connection with 
strengthening regulatory standards for cleaner coal and energy 
efficient lighting (China is the world's largest consumer and 
manufacturer of each, respectively), and improving access to financing 
for clean technologies. We will establish public-private alliances and 
stronger U.S.-China partnerships in these areas.
    USAID will increase activities in China with two critical regional 
biodiversity programs addressing trade--illegal trade in wildlife and 
endangered species and trade in illegal forest products. As China is 
among the world's largest consumers in the illegal trade of wildlife 
and forest products, new USAID activities will strengthen China's 
ability to improve inspection, certification, and enforcement practices 
that help stem the flow of these illegal products into China from its 
Asian neighbors.
    In addition, USAID plans to allocate another $700,000 in Economic 
Support Funds (ESF) from the $5 million Tibet earmark to improve 
environmental conservation and natural resource management through 
increased adoption of practices that support sustainable rangeland 
management, livestock development techniques, and wildlife conservation 
in Tibetan areas.
    USAID also funds the China Environmental Health Project, which 
supports partnerships between Western Kentucky University, Southwest 
University of China and Anhui University of Science and Technology. The 
project will develop new practices for addressing water quality 
protection and mitigating pollution from coal combustion in southwest 
China, and it will analyze the relationship between pollution and 
public health.
    Similarly, the University Partnership for Environmental Law in 
China pairs Vermont Law School with Sun Yat-sen University in Guangdong 
Province in a 3-year training and technical assistance program to 
promote the establishment of environmental law clinics. Its public 
outreach heightens public awareness of environmental issues and 
increases accessibility to information regarding the environment in 
China. These partnerships bring to bear on these pressing issues, the 
capacities, institutional strengths and financial investments of all 
the partner universities. Further, as the USAID Administrator, I have 
directed the agency to seek means to triple USAID's public-private 
sector investments, and USAID has a person dedicated to do just that in 
the southeast Asia region, including China.
                           merida initiative
    Question. The President wants to spend $1.4 billion in Mexico and 
Central America over 3 years to combat drug trafficking. Most of the 
funds are for the army and law enforcement programs. We all want to 
help Mexico and other countries facing enormous challenges from drugs 
and organized crime, but I believe this Initiative all but ignores 
important aspects of the problem, particularly poverty and a 
dysfunctional judicial system. Was USAID consulted in advance about 
this Initiative, and if so, what did you recommend?
    Answer. USAID participated in the entire planning process of the 
Merida Initiative and is fully supportive of the resulting proposal. 
USAID will continue to be actively involved at each step of 
implementation should Congress fund this Initiative.
    Interagency cooperation within each country and a high level of 
cooperation between the Governments of the United States and Mexico 
have been essential to developing the Merida Initiative. During this 
process, representatives of USAID, the Departments of State, Justice, 
Homeland Security, Defense, and Treasury have participated in crafting 
the proposed partnership with the Governments of Mexico and Central 
America. We anticipate maintaining the same type of close cooperation 
within and between governments during the implementation phase of the 
Merida Initiative.
Background
    The administration has proposed the Merida Initiative as a 3-year 
program and has sought funds in the fiscal year 2008 supplemental bill, 
and the fiscal year 2009 budget. The proposed $1.4 billion was for 
Mexico, with a total amount for Central America still to be determined.
    While combating drug trafficking is a critical element of the 
package, the Merida Initiative is much more broadly focused. Through 
the Merida Initiative, the United States seeks to assist in 
strengthening our partners' capacities in the three broad areas of (1) 
counter-narcotics, counterterrorism, and border security; (2) public 
security and law enforcement; and (3) institution-building and rule of 
law.
    For Mexico, in the proposed fiscal year 2008 supplemental bill, the 
funds destined for the military are less than 40 percent of our total 
fiscal year 2008 supplemental request, with the remainder going to help 
civilian institutions. That percentage drops in the fiscal year 2009 
proposal, with only 22 percent allotted for the military and the 
remainder for civilian institutions. Over $130 million for these 2 
years would go to programs specifically focused on judicial 
institution-building and the rule of law in Mexico.
    With regard to the judicial system, it is important to note that 
the Mexican legislature has just passed comprehensive judicial reform 
in an effort to modernize and improve the Mexican justice system. While 
the proposal to amend the Mexican constitution must still be adopted by 
a majority of Mexican states, the legislation does establish a 
presumption of innocence for defendants, facilitates transition to an 
accusatorial system, and includes several reforms aimed at improving 
policing and investigative authority.
    The elements of the Merida Initiative directed to support Mexican 
judicial reform will help Mexico improve its economic climate. The 
establishment and implementation of a fair, predictable and flexible 
set of legal rules is vital to the processes of business formation, the 
establishment of capital markets, the ownership and transfer of real 
and intellectual property rights, the protection of contract rights, 
and other key elements that underpin economic development.
    As a member of NAFTA and our third largest trading partner, Mexico 
is the world's 14th largest economy. Yet, at the same time, 40 million 
Mexicans live at or below the poverty level. At $7,870, Mexico ranks 
73d in the world in terms of Gross National Income per capita, compared 
to the United States' $44,970.
    The greatest impact of the United States on the Mexican economy is 
our expanding trade relationship. Mexico is the United States' third 
largest trading partner; we traded over $1 billion per day in goods and 
services with Mexico in 2007. Mexican exporters pay their workers 37 
percent more than companies that do not export.
                        biodiversity protection
    Question. For fiscal year 2008, we appropriated $195 million for 
biodiversity programs. This includes funding to protect forests, 
watersheds and endangered species in the Amazon, central Africa, 
Indonesia, and elsewhere. Unfortunately, this falls far short of what 
we should be doing to protect these threatened areas. How much are you 
proposing for these activities in fiscal year 2009?
    Answer. Preserving biological diversity is critical to sustainable, 
long-term social and economic development, and is an important issue in 
its own right. There is a serious problem in countries around the world 
where habitat and species are disappearing at an alarming rate, and 
this is especially problematic in developing countries where many of 
the poorest people's livelihoods are often directly dependent on 
forests, fisheries and wildlife.
    The United States and our developing country partners address this 
issue in a holistic manner. Conflict, poverty, and the lack of better 
and more sustainable employment opportunities drive desperate people to 
put tremendous pressure on the ecosystems on which endangered animal 
and plant species rely. Weak political legitimacy, accountability, and 
governance constrains efforts to enforce conservation measures and 
suppress criminal activity.
    Recognizing the depth and complexity of the problem, the United 
States integrates its biodiversity conservation programs into a broad 
range of long-term development efforts designed to help countries 
achieve peace and security, govern justly and democratically, realize 
economic and social growth, invest in their people, maintain public 
health, and provide humanitarian assistance.
    Our request level for fiscal year 2009 is $115 million from the 
Development Assistance (DA) account plus $10 million from other 
accounts--totaling $125 million directed to 32 regional and country 
programs. These requests are based on specific needs and priorities 
identified by our embassies and field missions, taking into account 
competing priorities and the availability of funds.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                      national solidarity program
    Question. One of the more successful development efforts in 
Afghanistan, the National Solidarity Program, appears significantly 
underfunded. The program uses a participatory process to allow citizens 
to work with their local governments to prioritize and apply for 
funding for decided upon projects--building critical local ownership 
and oversight. At a time when development needs are critical to the 
long-term success in Afghanistan, please explain USAID efforts to 
support this program.
    Answer. USAID views the National Solidarity Program (NSP) as an 
important tool to build support for the Afghan Government in rural 
areas of the country. Created by the Government of the Islamic Republic 
of Afghanistan in 2003, the NSP helps Afghan communities to identify, 
plan, manage and monitor their own development projects. The program 
lays the foundation for a sustainable form of inclusive local 
governance, rural reconstruction, and poverty alleviation.
    Since its inception in 2003, USAID has contributed $50 million to 
the NSP, including $15 million in fiscal year 2007 base and 
supplemental funding. In fiscal year 2008, USAID plans to contribute an 
additional $50 million, doubling our total support for the program in a 
single year.
    Fiscal year 2007-2008 USG contributions break out as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                        Fiscal year                             Amount
------------------------------------------------------------------------
2007 Base..................................................            6
2007 Supplemental..........................................            9
2008 Base Request \1\......................................           10
2008 Supplemental Request \1\..............................          40
------------------------------------------------------------------------
\1\ Subject to approval and appropriation by the U.S. Congress.

    Funds provided by USAID for the NSP are under the daily direction 
and control of the Government of the Islamic Republic of Afghanistan 
and are used to meet local development priorities identified by 
Afghans. USAID funding contributes to the Afghan Government's objective 
of extending the NSP to all eligible villages.
    By promoting understanding of good governance at the local level, 
the NSP works to empower rural communities to make decisions affecting 
their own lives and livelihoods.
                     democracy program in pakistan
    Question. Please elaborate on plans to provide long-term democracy 
programs, including political party, election, civic strengthening, and 
rule of law efforts, to Pakistan?
    Answer. Background.--USAID will conduct two assessments that will 
guide its future democracy and governance activities: (1) a broad, 
Democracy/Governance Assessment; and, (2) a specific assessment on the 
state of the Rule of Law that will recommend specific programmatic 
initiatives. Following is a general description of the program based on 
the currently allocated budget.
    Probable Areas of Activity.--USAID will work with Pakistan's 
governing institutions, political parties, and the public to develop: 
(1) an issues-based political dialogue, (2) democracy within mainstream 
political parties, and (3) a transparent electoral process. A key focus 
will be on increasing transparency and accountability in support of 
anti-corruption reforms.
    The strategy adopts a two-pronged approach:
  --First, targeting improvements in local governance through community 
        projects that are designed and implemented by local citizens. 
        This approach helps to change citizen perceptions of how their 
        government works and its role in improving their lives. 
        Projects may include water systems, repair of public buildings 
        such as schools or health clinics, or other collaborative 
        activities.
    A large component of the Federally Administered Tribal Area (FATA) 
program is geared to increasing the capacity of the local government in 
FATA. A key objective is to help extend the writ of government 
throughout FATA, in part by demonstrating to the people that the FATA 
government can provide them with services that respond to their needs.
  --Second, focusing on national level political and governance 
        challenges by working with the institutions that shape the 
        entire system, such as the legislature and key ministries. 
        USAID has launched a training program for newly elected 
        parliamentarians to orient them to rules and procedures, and 
        legislative processes. This and other projects are timely given 
        the window of opportunity presented by the recent elections, 
        the gradual liberalization of the media and the return of an 
        independent judiciary. Other activities will encourage civil 
        society groups to hold accountable newly elected leaders while 
        providing the groups greater access to their provincial and 
        national assemblies.
    Question. The administration has noted in presentations regarding 
the budget that the fiscal year 2009 request marks the first time the 
President is submitting to Congress a jointly planned State Department-
USAID budget. The purpose of the merging of the foreign assistance 
budgets and policies of the State Department with USAID is to maximize 
the impact of our foreign assistance dollars to reduce widespread 
poverty, among other objectives. We know that women are the majority of 
the world's poor and research has shown that investing in women 
increases economic productivity, child education, family nutrition and 
stems the spread of HIV/AIDS. However, the budget does not reflect a 
clear strategy for addressing gender in our foreign assistance 
programs. Please explain plans to integrate women's programs into 
foreign assistance programs.
    Answer. I firmly believe in and support consideration of gender in 
the planning, development and implementation of USAID programs and 
strategies. USAID has always held a leadership role on gender and I 
intend that that leadership should continue.
    Women benefit significantly from USAID programs. For example, in 
fiscal year 2006 women represented 58 percent of all clients of USAID 
microfinance and enterprise development programs. The agency also 
trains women entrepreneurs in marketing and business planning. In 
Bangladesh, a training program for entrepreneurs created 5,000 jobs, 80 
percent of the positions going to women. USAID is aggressively pursuing 
reforms to improve the business environment in more than 50 developing 
countries, making a major impact advancing economic opportunities 
available to women.
    USAID has requirements related to gender in the Automated 
Directives System (ADS). Under these regulations gender is to be 
included up front in the planning process and in the procurement 
process as part of all solicitations issued by the Agency. The entire 
ADS is now being reviewed and up-dated to ensure that it reflects USAID 
priorities which include the integration of gender into the programs of 
the Agency. Two years ago the Office of Women in Development gathered 
quantitative data on the extent to which gender was included in country 
strategies and in procurement solicitations. The revision of the ADS in 
2003 to make requirements concerning gender explicit had an impact on 
the integration of gender throughout the planning process. The study 
results showed a clear improvement in the thoroughness of the 
discussion of gender in documents from 2003 and beyond over the pre-
2003 period. The Office continues to work with Operating Units in 
Washington and in the field to promote and facilitate the integration 
of gender into all USAID programs.
    With regard to monitoring and evaluation overall, in those programs 
for which USAID measures benefits to individuals, to the extent 
possible, results are disaggregated by sex to best track the inclusion 
of women and girls in our programs.
                                 water
    Question. How are assistance programs that focus on issues of 
water, including clean water, sanitation, water management, and 
conservation, developed, implemented, and overseen within USAID?
    Answer. USAID and State consult with Congress on water language in 
the appropriations act and the Simon Water for the Poor Act. A joint 
USAID-State team then decides priorities for water assistance in the 
context of the Foreign Assistance Framework. Two of the Framework's 
Objectives include water--Investing in People and Economic Growth. The 
former incorporates USAID's health programs which include the clean 
water supply and sanitation components. The latter incorporates USAID's 
environment programs and agriculture programs which include the water 
management and water conservation components. Coordination across these 
objectives is achieved through USAID's cross-cutting Water Team.
    Programs are then designed and implemented in close partnership 
between USAID and a broad array of non-governmental organizations, 
universities, companies, and government agencies in the assisted 
countries and the United States.
                                 burma
    Question. What plans does USAID have for both immediate and long-
term democracy assistance for both Cuba and Burma, should circumstances 
in either country suddenly allow for a more open political process or 
transition?
    Answer. In Burma, the United States' top priority is the 
establishment of a democratic state that observes the rule of law and 
fully respects human rights. Since the U.S. Government does not have a 
bilateral assistance agreement with the Government of Burma, the 
Department of State and USAID provide assistance to achieve this 
priority synergistically through international and local non-
governmental organizations.
    The goal of U.S. democracy assistance is to build the capacity of 
the Burmese people to participate in a democratic society by providing 
them with the information and skills necessary to participate 
effectively in a dialogue that leads to a transition to democracy. This 
includes providing educational opportunities to prepare the future 
leaders that a democratic Burma will require. These programs complement 
our diplomatic efforts urging the Burmese regime to begin a credible, 
inclusive dialogue with pro-democracy activists and ethnic minorities 
to pave the way for a transition to a free, open, broadly 
representative government that respects the human rights of all of its 
people. U.S. assistance programs maintain flexibility in order to 
pursue emerging opportunities. The co-chairs of the interagency Burma 
Assistance Working Group would be happy to provide an oral briefing as 
the situation in Burma develops.
                                  cuba
    Question. What plans does USAID have for both immediate and long-
term democracy assistance for both Cuba (and Burma), should 
circumstances in either country suddenly allow for a more open 
political process or transition?
    Answer. In addition to USAID's ongoing Cuba program, the agency 
has, for the past 18 months, been engaged in intensive inter-agency 
planning for democracy and transition assistance to Cuba, upon United 
States recognition of a transition \1\ government in Cuba. This 
planning effort is being coordinated by the Cuba Transition 
Coordinator, working with the Department of State's Bureau of Western 
Hemisphere Affairs (WHA), the Coordinator for Reconstruction and 
Stabilization (S/CRS), and USAID. Democracy and governance assistance 
to Cuba is planned in three phases--Hastening, Transition, and Long-
Term Democracy and Governance Phases--which correspond to benchmarks 
identified under U.S. law on assistance to Cuba.
---------------------------------------------------------------------------
    \1\ ``Transition'' refers to a particular ``trigger'' or key 
development when the USG and U.S. Congress agree that the situation on 
the island is such that requirements of Helms Burton and/or other 
legislative restrictions are met and the United States can provide 
broader assistance than legislation currently permits.
---------------------------------------------------------------------------
    Key tasks in the current, ongoing Hastening Phase include: 
providing humanitarian assistance to families of political prisoners 
and others; supporting the release of political prisoners and improving 
human rights conditions; strengthening civil society and the pro-
democracy movement; supporting freedom of information through the 
dissemination of materials and equipment; and increasing international 
encouragement of democracy. The USAID program, through its support to 
non-governmental organizations and U.S. universities, currently 
provides: Leadership training to Cuba's proponents of human rights; 
global publication of reports by Cuba's independent journalists 
worldwide via the Internet and distributed in hard copy inside Cuba; 
and direct outreach to the Cuban people through distribution of books, 
newsletters, videos and radios.
    The Transition Phase is focused on the goal of free and fair 
elections, as well as other key objectives identified by the Commission 
for Assistance to a Free Cuba (CAFCII). Programming during this phase 
will commence when requested by a United States-recognized transition 
government in Cuba. Key tasks during this Phase include: Assisting a 
transitional government to establish the legal framework for elections 
and civil liberties; strengthening political parties and independent 
groups through trainings; supporting creation of independent media via 
journalist trainings; supporting the transitional government's 
institutions to administer and secure free and fair elections, through 
the establishment of independent electoral bodies, voter registries and 
voter education; and supporting the transitional government's measure 
to establish rule of law, and provide training for security and justice 
personnel in human rights. During this Phase, there will also be a 
focus on activities to increase private sector business and economic 
activity, such as start-up grants for microfinance institutions.
    The Long-Term Democracy and Governance Phase plans for assistance 
to a democratically-elected Cuba along the lines of an assistance 
portfolio implemented by the USG in other post-transition settings, 
with the goal of assisting the Cuban people in establishing democracy 
and good governance of key institutions. Key tasks during this Phase 
include: Supporting a democratic Cuban government in establishing good 
governance of key executive institutions, through technical support to 
key ministries; building and consolidating rule of law institutions; 
reforming legislative functions, via adoption of rules of procedure and 
establishing leadership and committee structures; supporting 
transparency and accountability reforms; the institutionalization and 
strengthening of political parties; strengthening of civil society; and 
establishing human rights institutions.
    Additionally, fostering economic growth and opportunity under a 
transitional Cuban government will be critical to reinforcing and 
solidifying a democratic transition on the island. As part of the 
Inter-Agency Economic Working Group (EWG) for Cuba, USAID has been 
heavily involved in scoping out key areas of economic assistance that 
will be crucial in the event of a transition. These areas include 
macroeconomic stabilization and reform, private sector strengthening, 
trade and investment, business sector development, agriculture, and 
infrastructure.

                          SUBCOMMITTEE RECESS

    Senator Leahy. Thank you. The subcommittee will stand in 
recess.
    [Whereupon, at 3:30 p.m., March 4, the subcommittee was 
recessed, to reconvene subject to the call of the Chair.]


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Cochran, Specter, Bond, Gregg, 
Bennett, Brownback, and Alexander.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Madam Secretary, we appreciate you being 
here. This is the last time you're going to be appearing before 
us. I think I heard the sigh of relief all the way up here. But 
I want to take this opportunity to thank you for your service 
to our Nation.
    While we've had some strong disagreements with this 
administration's handling of foreign policy, you've always been 
willing to discuss those differences with the members of this 
committee, and you and your staff have been helpful on issues 
when there is a problem, and you've also brought the added 
weight of your office when it's been helpful to get some of 
these things resolved.
    I want to take this opportunity--it would probably 
embarrass her to be singled out in public--but to express on 
behalf of myself, my staff, and this committee, our gratitude 
to Cindy Chang in your Office of Legislative Affairs. In my 34 
years here I've seen many dedicated, very capable people in 
this position, but Ms. Chang has set a new standard. She's 
absolutely tireless, extraordinarily efficient, totally 
devoted, day and night 7 days a week.
    She has served the State Department, the Congress, the 
American people and people around the world. We've relied on 
her every single day, and I saw her in action when she 
accompanied one of our CODELs to the Middle East. She did an 
outstanding job making sure that we knew what the position of 
the Department was at all points.
    Senator Gregg. That's because she went to the same high 
school with me. We graduated from the same high school.
    Senator Leahy. Senator Gregg says they graduated from the 
same high school. By the time Ms. Chang studied there they had 
electric lights which, of course, I can say this because he's 
younger than I am.
    Senator Gregg. Actually, they had women when I went, 
actually women.
    Senator Leahy. Now, one concern I do have is our 
international reputation. Every time we raise issues of 
democracy or human rights with Iran, or Sudan, or Russia, or 
China, they want to talk about what's occurred and continues at 
prisons such as Guantanamo and Abu Ghraib in Iraq. Each time we 
vote for another U.N. peacekeeping mission, which this 
administration has done many times--I applaud you for it--but 
then when the President's budget comes there's not enough money 
in the budget to pay for it.
    Each time we challenge nations to protect the environment 
or reduce global warming, they ask who are we to lecture them 
when the United States wastes more energy than many countries 
even use.
    The next President is going to inherit two of the most 
vexing foreign policy challenges in half a century in Iraq and 
Afghanistan. Everything--almost everything--predicted in Iraq 
has proven false, and what a terrible price we're paying for 
it.
    In Afghanistan we see the resurgence of the Taliban and Al-
Qaida, and a reconstruction program that suffers from too many 
problems to count. The President, when he came in, said he 
didn't believe in nation-building, which, of course, has always 
been the State Department's job. And when he came in and began 
nation-building, the Department of Defense has taken over more 
and more of the job. I believe it should be the Department of 
State doing that, not the Department of Defense.
    I know the administration sees things differently: that 
progress is being made. Of course, there are examples of 
progress, but I worry that the credibility of enduring 
principles of this country have been and need again to be 
sources of great strength and leadership for the United States. 
I'm deeply concerned that in a few short years we've lost much 
of what our predecessors fought and died for.
    If we were safer as a result, that might be tolerable. I 
don't think we are, and the budget we're here to discuss today 
is a statement of our priorities, and the decisions we make can 
show the world another face of America.
    I note that your fiscal year 2009 budget request has much 
in it that I support and much in it that you and I have worked 
together on for years. There also contains some disturbing 
shortcomings which we need to discuss. I'd like nothing more 
than to pass this bill on schedule. I think you agree with 
that. You're working hard 7 days a week, long hours. I don't 
think you expect to take a break because of an election year, 
nor do we.

                           PREPARED STATEMENT

    I will yield back the rest of my time. Senator Gregg.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Madam Secretary, we appreciate you being here. This is the last 
time you will appear before us and I want to take this opportunity to 
thank you for your service. While we have had some strong disagreements 
with this administration's handling of foreign policy, you have always 
been willing to discuss those differences with us. You and your staff 
have also been helpful on issues when there was a problem and we needed 
the added weight your office brings.
    I also want to take this opportunity--on behalf of myself, my 
staff, and this committee--to express our gratitude to Cindy Chang in 
your office of Legislative Affairs.
    Many dedicated, very capable people have preceded Cindy in this 
position, but Cindy set a new standard. She has been absolutely 
tireless, extraordinarily efficient, and totally devoted, day and 
night, 7 days a week, to her work and to the people she has served--at 
the State Department, in the Congress, the American people, and people 
around the world. My staff has relied on Cindy every day. I saw her in 
action when she accompanied me to the Middle East. She has done an 
outstanding job.
    Madam Secretary, when I think about what the world looked like at 
the beginning of this administration--and our image in the world--and 
compare that to what it looks like today, it does not give me a good 
feeling.
    Our international reputation is a shadow of what it was 7 years 
ago. Each time we raise issues of democracy or human rights--with Iran, 
Sudan, Russia, or China--they want to talk about what has occurred, and 
continues at the United States prison in Guantanamo Bay and the Abu 
Ghraib prison in Iraq.
    Each time we vote for another United Nations peacekeeping mission, 
which this administration has done many times and I applaud you for it, 
we then don't see enough money in the budget to pay for it.
    Each time we challenge nations to protect the environment and 
reduce global warming, they ask who are we to lecture them when the 
United States wastes more energy than entire other countries use.
    The next President will inherit two of the most vexing foreign 
policy challenges in half a century, in Iraq and Afghanistan.
    Virtually everything this administration predicted in Iraq has 
proven false. And what a terrible price the American people are paying 
for it.
    In Afghanistan, we have seen the resurgence of the Taliban and Al 
Qaeda, and a reconstruction program that suffers from too many problems 
to count.
    Throughout this period, the Department of Defense has steadily 
taken over more and more of the job of nation building, which had been 
the State Department's job before the President said he didn't believe 
in it.
    I know the administration sees things differently, that progress is 
being made. There are examples of progress.
    But the credibility, enduring principles, and image of this country 
have been and need again to be sources of great strength and leadership 
for the United States, and I am deeply concerned that in a few short 
years we have lost much of what our predecessors fought and died for.
    That might be tolerable if we were safer for it, but we are not.
    This budget, which we are here to discuss today, is a statement of 
our priorities, and the decisions we make offer tangible opportunities 
to help show the world another face of America.
    Your fiscal year 2009 budget request has much in it that I support. 
It also contains some disturbing shortcomings, which we need to 
discuss. I would like nothing more than to pass our bill on schedule. 
Simply writing this year off because there is an election in November 
would be a mistake, in my view, and I am sure you agree.
    So let us work together these next few months and get as much done 
as we can.

    Senator Gregg. Is this for an opening statement?
    Senator Leahy. Yes.

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. Thank you, Mr. Chairman. It's a pleasure to 
have Secretary Rice here today and to thank her for her 
extraordinary service to this country which goes over a number 
of administrations, but, obviously, in this administration has 
been at the center of a lot of major and important decisions. 
Her leadership and professionalism cannot be questioned and has 
to be admired by all of us--so much so that even the National 
Football League will probably want to take advantage of your 
expertise when you finish.
    It's just been a pleasure to have you as a friend, and 
Kathy sends you her best, also.
    There are a lot of issues, and, obviously, the issue of 
Iraq and Afghanistan are critical in how we proceed, and I'll 
be interested in the Secretary's thoughts on that. But I also 
think the issue of Colombia is important, as is how we deal 
with our Latin American neighbors.
    This administration has made a major effort to try to open 
the door to the Latin American community to participate in the 
American economy and, with the Andes Agreement and now with the 
Free Trade agreements, we have made huge strides. It would be a 
major step backwards, in my humble opinion, in our 
relationships with these Hispanic nations, which are basically 
nations which speak Spanish, to fail to confirm the Free Trade 
Agreement with Colombia.
    Colombia is a democracy. It's lead by an individual who has 
sought to move that country further down the road of democracy, 
who is confronting antagonistic neighbors who are not 
democratic in their views, and we should be standing by him and 
his government and that democracy. So I congratulate this 
administration for sending up the Free Trade Agreement.
    In addition, I know that the leadership of the State 
Department is concerned, as we are or at least I am, and I know 
Senator Leahy is, with some issues such as how we deal with our 
neighbors in Africa. Specifically, the fact that we have this 
bureaucratic snafu, which means that members of the ANC who 
want to come here are confronted with limitations and even 
Nelson Mandela has to go through a clearing process before he 
can come to the United States. I know we need to work on this, 
and I hope that you will give us some directions to how we can 
straighten that out.
    Further, we have the whole issue of PEPFAR, which is an 
excellent program that's done extraordinary things and helped 
millions of people, especially in Africa, the AIDS initiative. 
But the question is, how much of it can we afford to bear and 
how much should nations which we are assisting bear of those 
costs, and should this new authorization which is working its 
way through at a very high level? Should it go through, it may 
crowd out other initiatives that we are concerned about.
    We also have the issue of Tibet and how we deal with Tibet. 
I will be interested to hear the Secretary's thoughts on that.
    Last, our friends and allies in the neighborhood of Iraq 
have been impacted dramatically by the Iraqi situation, and we 
have created problems for them, and our support for countries 
like Jordan is something I hope we can discuss.
    But we can get into all those items in the question and 
answer period. Right now I just simply want to acknowledge your 
extraordinary service to this country and thank you for it.
    Senator Leahy. Thank you. Secretary Rice, the floor is 
yours. We'll put your full statement, of course, in the record. 
Please go ahead so that we could have time to ask questions.

               SUMMARY STATEMENT OF HON. CONDOLEEZZA RICE

    Secretary Rice. Thank you very much, Senator, and Senators, 
members of the committee. I do have a full statement, Mr. 
Chairman, and I would ask that it be put in the record, but I 
will not read it so that we have plenty of time for discussion.
    Senator Leahy. Before you begin----
    Secretary Rice. Yes?
    Senator Leahy. I want to say this only once: We have people 
here that have a right to hear what you're going to say. You 
have a right to say it whether we agree or disagree, and every 
Senator has a right to say what they want and ask questions.
    If anybody is going to block the view or hinder people who 
are here watching they will be removed. Whether they are 
agreeing with me or disagreeing with me is not the point; 
whether they are agreeing or disagreeing with you, Madam 
Secretary, is not the point. We want to hear what you have to 
say. The Senators will be free to agree or disagree, but we 
will have an orderly hearing.
    Please go ahead.
    Secretary Rice. Thank you very much, Mr. Chairman. Let me 
thank the members of this committee for the work that we have 
done together over the last several years. I think that despite 
sometimes differences on policy or on tactics, we have always 
tried to work in the interest of the United States of America, 
and I think that we have agreed that that has meant that 
America needed to represent not just power but also principle.
    We've worked together to put together an agenda, 
compassionate agenda, that we see in evidence in places like 
Africa with the President's Program for AIDS Relief, for the 
Malaria Program that we have. We have been able to quadruple 
development assistance to Africa, to triple it worldwide, and 
to double it for Latin America.
    Without this committee, we would not have been able to meet 
the challenges that we have had in having our diplomats and our 
civilians in some of the most dangerous places in the world, 
and I don't mean Iraq and Afghanistan, although those are 
clearly very dangerous; but also, in many unaccompanied posts 
around the world where our people go without family and work in 
harm's way and work in difficult conditions in some of the most 
remote parts of the world to try and help people build a better 
life, and without your help we would not have been able to 
engage in what we call ``transformational diplomacy,'' trying 
to increase the number of well-governed democratic states that 
can provide for their people and act as responsible citizens in 
the international community.
    With your forebearance, members of the committee, I would 
just like to say one word about our people in Iraq in 
particular right now. It's a difficult time for our Embassy. We 
have had a number of incidents. It's been more difficult 
recently, and I just want to say that we keep them in our 
thoughts, and we appreciate their service. I know that you do, 
too.
    Very often we talk about the honorable service of our men 
and women in uniform, and it is to be honored. We also have a 
lot of civilians on the front lines who take risks daily, and 
so I just like to acknowledge their service.
    I believe that the President's budget request this year for 
State operations and for foreign operations will permit us to 
continue to pursue our efforts at securing our people, building 
reasonable facilities for them. Increasing our efforts at 
public diplomacy and exchanges--something that we all agreed we 
should do at the beginning of my tenure, and I think we have 
done precisely that.
    There is really no better commercial, if you will, for 
American democracy and the strength of America than having our 
people travel abroad and having people travel here. We've 
tried, through public/private partnership more exchanges, more 
visitors, to give people access to the United States.
    We are also requesting in this budget 1,100 new positions 
for the State Department and 300 new ones for USAID. This 
represents a rebuilding, if you will, of our civilian capacity 
to manage programs, to engage in diplomacy.
    I felt that it was important that we first do some 
important reallocation and redeployment of our people to 
demonstrate that we were prepared to make tough choices and by 
moving close to 300 people out of Europe and into places like 
India and the further far reaches of China, I think we've 
demonstrated that we are prepared to do what we can with 
resources that we have.
    But the truth is that the Diplomatic Corps is stretched, 
and the USAID is even more stretched. We went through a period 
in the 1990s of almost 6 years where we didn't hire or didn't 
bring in a single Foreign Service officer. So we do need to 
rebuild.
    It speaks, Senator Leahy, to the point that you've made 
about the role of the State Department and what I'll call 
reconstruction and development, or, if you wish nation-
building, which the Department does want to be at the forefront 
of those efforts. We need an institutional base from which to 
do that, and that is why we've requested funding for what the 
President announced in his State of the Union address last 
year, which is the civilian reserve, or Civilian Response Corps 
which we believe would be a very important way for civilians to 
lead the efforts of stabilization and reconstruction.
    Finally, let me say that we have, I think, used our foreign 
assistance well to support efforts at Middle East peace, at 
consolidation of democratic forces in Latin America. In places 
like Pakistan where it is very difficult, we have nonetheless 
seen Pakistan now move from military rule to civilian rule, to 
have democratic elections for the first time in more than a 
decade. These are processes that I think we've been able to 
support with the assistance and with the efforts of our 
diplomats.
    If I may, just on two other points that were raised on, 
particularly in Latin America, just to underscore what Senator 
Gregg has said about the importance of the Free Trade Agreement 
for Colombia, this is a country that was very near being a 
failed state at the beginning of this decade.
    It was the country where bombings in the capital were 
routine, where the government was unable to control almost 30 
percent of its territory, either because of the FARC or because 
of paramilitaries. It is a country that now has the foreign 
minister who was held 6 years in captivity by the FARC, and so 
it is a country that has come a long way back under President 
Uribe and his Program for Democratic Security.
    He is, as a result, a very popular leader in Colombia, but 
I think that is because he has brought his people security, and 
he is devoted to human rights and to furthering the democratic 
enterprise. I know there are a lot of concerns, but I will just 
say I was in Medellin very recently with a congressional 
delegation, and Medellin which used to be synonymous with Pablo 
Escobar and trouble is now a thriving city in which Colombian 
citizens believe they can be secure.
    Finally, let me just in response to something that Senator 
Gregg said, I really do hope that we can remove these 
restrictions on the ANC. This is a country with which we now 
have excellent relations, South Africa, but it's frankly rather 
embarrassing matters that I still have to waive in my own 
counterpart, the Foreign Minister of South Africa, not to 
mention the great leader Nelson Mandela.
    So we have a lot of work to do. I continue to hope that 
during the remainder of our tenure that we will be able to make 
progress in providing for our people compensation reform, 
security facilities, and new positions. I hope that we'll be 
able to make some progress on the great foreign policy issues 
of our day.

                           PREPARED STATEMENT

    But I have been enormously proud to serve as American 
Secretary of State because George Shultz once told me that it's 
the best job in government. I said, ``George, why is that?''
    He said, ``Because there is no greater honor than 
representing the United States of America as its chief 
diplomat.'' I have found that, and I want to thank you for 
helping me play that role. Thank you very much.
    [The statement follows:]
              Prepared Statement of Hon. Condoleezza Rice
    Chairman Leahy, Senator Gregg, members of the committee: Thank you 
for this opportunity to appear before the committee today in support of 
the President's fiscal year 2009 international affairs budget request, 
and to discuss our Nation's foreign policy priorities. As you know, 
this is the last budget I will present to you in my capacity as 
Secretary of State. I want to take this occasion to thank the 
committee, and especially the Chairman and Ranking Member, for their 
support and cooperation on many of the issues we addressed here in the 
past 3 years, and to let you know that this administration is committed 
to a vigorous foreign policy during our remaining 9 months. We have 
many critical issues before us and we intend to press forward our 
national interests on all fronts. I look forward to working with the 
Committee to do just that.
    I would like to take a moment to ask you to act quickly on the 
balance of funding requested in the fiscal year 2008 Global War on 
Terror Supplemental. These additional resources are critical to the 
Department's continued diplomatic operations in Iraq. The Supplemental 
also addresses critical security and construction requirements in 
Afghanistan, support for international organizations functioning in 
Iraq and Afghanistan, and peacekeeping missions in Darfur as well as 
other urgent humanitarian and foreign assistance efforts. This funding 
is necessary to our on-going diplomatic mission and I ask for your 
support.
               fiscal year 2009 state operations request
    Let me begin by discussing our request for Department of State 
operations. This request funds the platform on which we build our 
foreign policy activities, including diplomacy and foreign assistance, 
around the world.
    The fiscal year 2009 budget for Department of State operations 
totals $11.456 billion. These funds will significantly strengthen the 
core programming, policy, and management capabilities of the Department 
which are necessary to carry out vital U.S. diplomatic and consular 
relations with more than 180 countries. They will also support 
strategic U.S. engagement abroad through public diplomacy and 
multilateral diplomacy.
            diplomatic solutions to national security issues
    The request provides $3.806 billion to increase the capacity of 
American diplomacy to meet challenges to U.S. national security and 
welfare in the international arena where power is defined increasingly 
in economic and financial terms and where transnational threats like 
terrorism, disease, and drug trafficking have become urgent. The 
requested funding will strengthen the global operating platform for the 
U.S. Government and add 1,095 new positions. These new positions will 
allow us to expand training in much-needed skills, including in 
critical foreign languages. The positions will also increase the number 
of Political Advisors to the military combatant commends, enhance 
interagency collaboration, and allow Department employees to take 
advantage of interagency development and training opportunities. 
Increased interagency cooperation is a valuable means to advance our 
diplomacy, but we need sufficient numbers of trained personnel to 
execute complex, coordinated efforts abroad. Building the Department's 
capacity to fill this role is my highest priority and I ask for your 
strong support.
    The request also includes funding, as in previous years, for 
Foreign Service Compensation Reform, which would eliminate the pay 
disincentive caused by the loss of locality pay upon transfer to 
foreign assignments. When the government instituted locality pay in the 
1990s, it did not include Foreign Service employees working abroad. As 
a result, when officers transfer to overseas assignments, they lose the 
locality portion of their pay. With the Washington, D.C. rate now equal 
to approximately over 20 percent of employee compensation, this loss 
severely undermines the salaries of officers assigned abroad. Moreover, 
this sizable and growing disincentive undermines our ability to attract 
talent and reward sacrifice. Diplomacy is a difficult, sometimes 
dangerous business, and the sacrifices made by Foreign Service officers 
and their families are real. In implementing Senior Pay Reform, we were 
able to eliminate this disincentive for our senior members of the 
Foreign Service, but the problem remains--and is more acute--for our 
mid-level and junior officers. I am asking that Congress provide the 
necessary authorization requested by the administration to address this 
problem by enabling a transition to a performance-based pay system and 
a global rate of pay.
             civilian stabilization in post-conflict states
    The request provides $249 million, including funding for 351 
positions, in a new appropriation, the Civilian Stabilization 
Initiative, to build a U.S. Government civilian capacity that can 
assist in reconstruction and stabilization efforts in post-conflict 
states. The requested funding will support, train, equip, and deploy an 
interagency civilian response corps comprised of interagency Active and 
Standby components and a Civilian Reserve of outside experts. This 
effort will provide mission-ready experts in fields such as policing 
and the rule of law, transitional governance, and economic 
stabilization and development. The request will also fund the personnel 
and operating expenses of the Office of the Coordinator that provides 
Washington leadership to whole-of-government strategic planning, 
analysis, policy direction, and coordination of USG reconstruction and 
stabilization activities. The CSI complements our request for 
additional personnel and has the strong support of the Department of 
Defense. This is a high priority and we need to get this accomplished.
                      protecting america's borders
    The fiscal year 2009 budget provides $2.124 billion for the Border 
Security Program. This program helps secure American borders against 
illegal entry by terrorists and others who threaten homeland security. 
At the same time, it facilitates the entry of legitimate foreign 
visitors and students. Revenue from Machine Readable Visa (MRV) fees, 
Enhanced Border Security Program fees, the Western Hemisphere Travel 
Surcharge, and visa fraud prevention fees will fund continuous 
improvements in systems, processes, and programs. The fees will also 
fund 448 additional positions required to address rising passport 
demand associated with the Western Hemisphere Travel Initiative and 
rising visa demand, including increases related to Border Crossing Card 
renewals.
                 providing secure diplomatic facilities
    The request provides $1.163 billion for Worldwide Security 
Protection to increase security for diplomatic personnel, property, and 
information in the face of international terrorism. The funding will 
extend the program to upgrade security equipment and technical support, 
information and systems security, perimeter security, and security 
training. This funding will also support the worldwide local guard 
force protecting diplomatic missions and residences. Funding increases 
will help meet new security demands in all regions and implement the 
Visa and Passport Security Strategic Plan to safeguard the integrity of 
U.S. travel documents. Because people continue to be the single most 
important factor in deterrence and response to terrorist acts, the 
funding will add 200 security professionals.
    The request provides $1.790 billion to continue security-driven 
construction projects and to address the major physical security and 
maintenance needs of U.S. Embassies and consulates. This total includes 
$844 million for the Capital Security Construction Program to replace 
diplomatic facilities at the most vulnerable overseas posts. Fiscal 
year 2009 proposed projects include new Embassy compounds in Santo 
Domingo, Dakar, Maputo, and Malabo. During the fifth year of Capital 
Security Cost Sharing (CSCS), U.S. Government agencies with personnel 
abroad under chief of Mission authority will contribute $455 million to 
CSCS construction. The request also includes $105 million to upgrade 
compound security at high-risk posts and to increase protection for 
soft targets such as schools and recreation facilities. In addition, 
the request includes $841 million for ongoing operations, including 
major rehabilitations. These programs are essential to protect the 
investment in real estate assets which are currently valued at over $14 
billion and to keep more than 15,000 properties in good working order.
          influencing foreign opinion through public diplomacy
    The request provides $395 million in appropriations for public 
diplomacy to influence foreign opinion and win support for U.S. foreign 
policy goals, including through providing 20 new public diplomacy 
positions. In addition to advocating U.S. policies, public diplomacy 
communicates the principles that underpin them and fosters a sense of 
common values and interests. Objectives of the national public 
diplomacy strategy include promoting democracy and good governance, 
marginalizing extremist leaders and organizations, and preventing 
extremist messaging from gaining a foothold with vulnerable 
populations. Through innovative programs we are providing positive 
alternatives for Muslim youths, and helping build networks among 
progressive-minded Muslims, in many cases working in partnership with 
the private sector, civil society and academia. We also place a high 
priority on modernizing our communications architecture to strengthen 
our leadership in the war of ideas and sharpen our messaging to counter 
terrorist propaganda.
Exchange Programs
    The request provides $522 million and 19 positions for educational 
and cultural exchanges to increase mutual understanding and to engage 
the leaders of tomorrow. Aligned with other public diplomacy efforts, 
these people-to-people programs are uniquely able to address difficult 
issues. The request includes increased funding for academic and 
professional programs to reach constituencies vital for America--youth 
and those who influence youth. The programs include English language, 
Fulbright, and other academic initiatives, and Citizens Exchanges, 
within the President's Partnership for Latin American Youth. The 
funding will also continue to support the President's National Security 
Language Initiative, promoting teaching and study of critical foreign 
languages, including the Arabic, Chinese, Korean, and Russian 
languages, and the Indic, Turkic, and Persian language families.
Information Technology
    The request provides $414 million for State's Central Fund, 
including revenue from fees, for Central Fund investments in 
``knowledge management'' and information technology (IT). The ability 
of the Department to support transformational diplomacy, information 
sharing, rightsizing efforts, and E-Government initiatives depends 
increasingly on robust, secure IT. Funding increases in fiscal year 
2009 will help support the State Messaging and Archive Retrieval 
Toolset project, diplomacy through collaboration, and IT infrastructure 
that provides American diplomats with anytime/anywhere computing.
Multilateral Diplomacy
    The request provides $1.529 billion to pay U.S.-assessed 
contributions to 47 international organizations, including the United 
Nations. The request includes payments to address outstanding U.S. 
arrears to international organizations. The request recognizes U.S. 
international obligations and reflects a commitment to maintain the 
financial stability and efficiency of those organizations. Membership 
in international organizations assists in building coalitions and 
gaining support for U.S. policies and interests. Further, multilateral 
diplomacy through such organizations serves key U.S. foreign policy 
goals, including advancing democratic principles and fundamental human 
rights, promoting economic growth through free trade and investment, 
settling disputes peacefully, encouraging non-proliferation and arms 
control, and strengthening international cooperation in environment, 
agriculture, technology, science, education, and health.
International Peacekeeping
    The request provides $1.497 billion to pay the United States share 
of costs for United States peacekeeping missions. This funding will 
help support peacekeeping efforts worldwide, including the activities 
of ongoing missions in Lebanon, Haiti, Liberia, and the Congo. Proposed 
funding increases will also pay United States assessments for new 
missions in Darfur and Chad. These peacekeeping activities further U.S. 
goals by maintaining peace and strengthening regional confidence and 
stability. They also leverage U.S. political, military, and financial 
assets through the participation of other states that provide funds and 
peacekeepers for conflicts around the world.
              fiscal year 2009 foreign operations request
    Let me turn now to our foreign assistance request. The total State 
Department and USAID Foreign Operations request for fiscal year 2009 is 
$22.7 billion. These funds support the strategic purposes of our 
diplomacy: securing peace, supporting democracy, advocating our 
principles and ideals, meeting global challenges, and aiding our 
friends and allies.
War on Terror
    Fighting and winning the war on terror remains the greatest 
challenge to our national security, and it will continue to be the 
focus of our military and diplomatic efforts as long as extremist 
ideologies and their proponents find safety and support in unstable and 
failing states. We have made enormous strides in diplomatic and foreign 
assistance efforts in Iraq and Afghanistan, which are notable for their 
successes even as we recognize the daunting work that remains. We 
credit our progress in these countries to many who have struggled 
there, to our military and our diplomats, to the international 
community, to our counterparts in the military and government in these 
countries, and to the citizens in Iraq and Afghanistan who recognize 
and are fighting for the full benefits of freedom.
Iraq
    Our engagement with Iraq remains a centerpiece of the United 
States' effort in the war on terror.
    The administration's fiscal year 2009 requests of $404 million in 
foreign assistance funding and $65 million in operations funding are 
critical to meet these goals. Of this total, $300 million in Economic 
Support Funds will help consolidate the security gains realized in 2007 
and 2008, and will increase the capacity of local and national Iraqi 
Governments ($75 million) to provide services for their population, 
which in turn will reduce support for extremist elements. The 
administration is also requesting funds to help the non-oil economy 
grow, including the development of the agricultural sector ($50 
million), support for business formation ($25 million), and continued 
support for key Iraqi economic reforms ($62 million), such as reducing 
subsidies. These programs will generate jobs and stimulate economic 
growth. This request also includes funding for the Iraqi-American 
Enterprise Fund ($40 million), which will address a critical lack of 
access to capital and know-how that is preventing Iraqi entrepreneurs 
from forming companies. This request also includes $48 million to 
continue Democracy and Civil Society programs, which will be vital to 
support Iraq's nascent democracy, particularly in working with new 
representatives and/or parties elected in anticipated nationwide 
elections in 2009. Democracy and Civil Society programs also will have 
a direct impact in fostering political reconciliation.
    The administration is also requesting $75 million in funding under 
International Narcotics Control and Law Enforcement (INCLE) to bolster 
Iraq's rule of law, including continuing training and security for 
judges and program support for major crime task forces, which will help 
Iraq combat terrorism and a growing criminal element, and mentoring to 
Iraq's corrections service to ensure criminals are effectively and 
humanely kept off the streets. The administration is also requesting 
$20 million in Nonproliferation, Anti-Terrorism, and Demining (NADR) 
programs, of which $16 million will support expansion of a successful 
humanitarian de-mining program that has allowed hundreds of communities 
to bring agricultural and industrial land back into production, and $4 
million in programs to combat terrorism.
    Taken together, these programs are an integrated approach to build 
on the significant investment we have already made in Iraq's success. 
The fiscal year 2009 programs complement our previous investments in 
infrastructure, security, and capacity building and will hasten the 
ability of the Iraqi people to meet their own needs. Failure to fully 
fund these programs will endanger the progress we have made over the 
last 5 years. In order for us to carry out these programs, we need the 
full $65 million request for operational funding for core Embassy 
functions.
    As a final point on Iraq, I would like to bring some clarity to 
discussions about the agreement that we plan to negotiate with Iraq. 
With the United Nations Security Council mandate due to expire at the 
end of this year, we need an agreement with Iraq that will ensure that 
U.S. forces continue to have the authorities and protections they need 
to operate in Iraq. An agreement with Iraq will not contain a 
``security commitment;''--that is, there will be no binding U.S. 
obligation to act in the common defense in the event of an armed attack 
on Iraq, it will not set troop levels, and it will not provide for 
permanent bases in Iraq. This arrangement will not ``lock in'' specific 
policies, but will leave policy options open for the next President. In 
addition, much as we did in Afghanistan, we expect to negotiate a 
strategic framework arrangement building on the Declaration of 
Principles that will formalize our intentions to cooperate in 
political, economic, cultural, and security fields. We have provided 
briefings and will continue to do so as our discussions with Iraq 
progress.
Afghanistan
    For fiscal year 2009, the President has requested $1.054 billion in 
foreign assistance to help prevent Afghanistan from ever again becoming 
a sanctuary for terrorists. We have achieved many successes in our 
fight against the Taliban and Al-Qaida, but we have not won yet. The 
funds requested are critical to supporting our comprehensive approach 
to defeat the insurgency and return Afghanistan to long-term stability 
based on Afghan national sovereignty, democratic principles, and 
respect for human rights. The Afghan Government enjoys broad support, 
while the Taliban offers no political vision. We are collaborating 
bilaterally, with donors, and through NATO and other multilateral 
organizations to tighten the coherence of security, economic, and 
governance capacity-building efforts. Development and security efforts 
on both sides of the Afghan-Pakistan border aim to prevent the 
deterioration of overall progress.
    Recognizing that counterinsurgency requires more than physical 
security, we have requested $370 million for counter narcotics efforts, 
$248 million for democracy and governance, $109 million for health and 
education, $226 million for economic growth, $74 million to support the 
work of our Provincial Reconstruction Teams, and $12 million in non-
emergency food aid. Development efforts to improve Afghan governance at 
the national and regional and local levels and to achieve prosperity 
for the Afghan people are as crucial to winning the war as security 
assistance to fight insurgent groups, to prevent Afghanistan from 
becoming an illicit narcotics-based economy, and to train the Afghan 
Security Forces. Simultaneously, the efforts of the United States. and 
the international community to work with the government of Afghanistan 
to improve security, build government capacity, protect human rights, 
reconstruct infrastructure, and provide humanitarian assistance 
generate confidence in the Afghan Government and in turn decrease 
support for insurgents. As part of these efforts, we look forward to 
working with Congress on Reconstruction Opportunity Zone (ROZ) 
legislation that would help create employment and sustainable economic 
development in Afghanistan and the border regions of Pakistan.
West Bank/Gaza
    The United States is firmly committed to supporting Israelis and 
Palestinians as they work to realize peace. Working with international 
donors and Quartet Representative Tony Blair, the United States is 
strengthening our support for the Palestinian Authority (PA) Government 
to help achieve this end.
    Our fiscal year 2009 funding request for the West Bank and Gaza is 
$100 million. This includes $25 million for the Palestinian Authority 
Security Sector Reform Program, part of a broader United States and 
international effort to strengthen and transform the Palestinian 
security sector and assist the PA in its efforts to extend law and 
order and meet its Roadmap obligations to dismantle the terrorist 
infrastructure, thereby providing a reliable partner for Israel. 
Establishing the rule of law and effective security in the West Bank 
will support President Mahmoud Abbas and Prime Minister Salam Fayyad by 
demonstrating to the Palestinian people that the PA can reduce 
lawlessness and improve their lives, and by building the capacity of 
the PA to address security threats against Israel. The request includes 
$24 million for democracy projects that will assist the PA Government 
to extend the rule of law and improve governance, including bolstering 
the justice system through training judges and building judicial 
independence, and supporting local municipalities. A further $18 
million will assist the PA to achieve economic growth by focusing on 
activities that increase agricultural productivity, provide support for 
micro-enterprises, create private sector opportunity and increase 
trade. Finally, $33 million will assist the PA Government to provide 
essential health, education, and humanitarian services to the 
Palestinian people.
    U.S. Government assistance in these areas will help the Palestinian 
people directly and support moderates such as President Abbas and Prime 
Minister Fayyad, while also providing tools through security 
improvements, civil society building, and economic growth to combat 
Hamas and its terrorist infrastructure.
Pakistan
    A broad, long-term, and strategic relationship with Pakistan is now 
crucial to global security and regional economic interests. We are 
encouraging formation of a moderate center to complete the transition 
to democracy and underwrite the fight against violent extremism. Our 
programs support transparent elections, democratic institutions, and 
long-term development. We are cooperating closely with the Pakistanis 
to defeat extremist groups and networks. U.S. assistance programs 
support all these goals.
    For fiscal year 2009, the Department of State is requesting $826 
million for Pakistan, to bolster four areas of cooperation: peace and 
security, democracy, economic growth, and health and education.
    To win the war on terror, this request includes $150 million 
specifically to support development in the Federally Administered 
Tribal Areas. This is the second tranche of a 5-year $750 million 
Presidential Commitment initiated in 2007. This will allow the United 
States to help the government of Pakistan recast its relationship with 
the country's Federally Administered Tribal Areas.
    Of the total $826 million, we are requesting $343 million for peace 
and security assistance, including $7.7 million for counterterrorism 
programs and $32 million for border security, law enforcement capacity 
building, and counter-narcotics efforts. This will aid the government 
of Pakistan in countering the terrorist threat, enhancing border 
security, addressing illicit narcotics activities, and establishing the 
means to provide for a peaceful and secure environment.
    Recognizing that the war on terror can not be won solely by 
improving security, our request includes $55 million to strengthen 
democracy and good governance, $119 million to expand economic 
opportunity, and $260 million for health and education.
Lebanon
    Progress in Lebanon remains a critical element of our efforts to 
foster democracy and security in the Middle East. We have joined hands 
with Lebanon's elected government to support their struggle for 
freedom, independence, and security. For fiscal year 2009, the 
Department of State has requested $142 million in foreign assistance 
for Lebanon to support two parallel objectives: countering threats to 
Lebanon's sovereignty and security from armed groups backed by Syria 
and Iran, and helping foster good governance and a vibrant economy.
    Three years ago this week, former Lebanese Prime Minister Rafiq 
Hariri was assassinated. One month later, the Lebanese people demanded 
an end to foreign domination and political violence, taking to the 
streets to call for Syrian withdrawal from Lebanon. The fiscal year 
2009 budget request includes support for the Special Tribunal for 
Lebanon--a concrete demonstration of our unwavering commitment to 
justice, an end to political violence, and the protection of Lebanese 
sovereignty.
    Since then, Lebanon has elected a new parliament and deployed its 
army to the south of the country for the first time in 40 years. 
However, Lebanon remains under siege by a Syrian and Iranian-backed 
opposition working to undermine the nation's stability, sovereignty, 
and state institutions. Meanwhile, political violence continues, 
including a January 15 bombing of an American Embassy vehicle. Our 
vision of a safe, secure, and democratic Middle East cannot survive 
without a sovereign and stable Lebanon.
                          economic assistance
Economic Support Funds
    The fiscal year 2009 request for Economic Support Funds (ESF) is 
$3.15 billion, an increase of $164 million over the fiscal year 2008 
enacted level. ESF remains a reliable assistance mechanism by which we 
advance U.S. interests through programs that help recipient countries 
address short- and long-term political, economic, and security needs. 
ESF also supports major foreign policy initiatives such as working to 
resolve the Israeli-Palestinian conflict and regional economic 
integration in East Asia. ESF funds global and regional programs that 
support specific U.S. foreign policy goals, including assistance to 
states critical in the war on terror.
    The request includes significant increases in some activities over 
the administration's request for fiscal year 2008, such as programs in 
Nepal to address rural poverty and help blunt the appeal of Maoist 
rebels, Lebanon to bolster that country's democratic traditions and 
reduce the ability of Hezbollah to divide the populace, and South and 
Central Asia to improve communications and transportation linkages 
between Afghanistan and its regional neighbors.
    The administration's strategic priorities for fiscal year 2009 ESF 
include funding for our partners in the war on terror to mitigate the 
influence of terrorist and insurgent groups and reduce their potential 
to recruit in regions bereft of political and economic participation; 
countries and regions at risk of civil unrest, to assist in building 
democratic institutions, fight poverty, and provide basic services and 
economic opportunities; states of concern to encourage democratic 
reform and build civil society; and regional and thematic programs like 
the Asia-Pacific Partnership, Middle East Partnership Initiative, and 
promoting implementation of Free Trade Agreements, especially improving 
labor and environmental conditions, and efforts to combat Trafficking 
in Persons.
Millennium Challenge Corporation
    The request of $2.225 billion supports the continuing assistance 
efforts of the Millennium Challenge Corporation (MCC), an important 
contributor to U.S. foreign assistance through the principles of 
promoting growth through good governance, investment in health and 
education, and economic freedom. By early fiscal year 2008, the MCC had 
approved a total of 16 compacts worth over $5.5 billion. An additional 
14 threshold agreements were in place at the end of fiscal year 2007, 
and there is a robust pipeline of compacts under development. MCC 
expects to sign compacts with Tanzania ($698 million) in February 2008, 
and with Burkina Faso ($500-$550 million) and Namibia ($300-325 
million) this summer. MCC is also engaged with Jordan, Moldova, Malawi 
and other countries in the compact development process, and foresees 
sizable compacts with those countries in fiscal year 2009.
    Eight compacts are entering their second or third year of 
implementation, and are achieving tangible results. For example, in 
Georgia, the first phase of gas pipeline repairs is complete, providing 
Georgian citizens and businesses with needed electricity and heat. In 
Honduras and Madagascar, farmers are employing new techniques to 
improve productivity and links to reliable markets, thereby increasing 
their incomes.
    MCC and USAID programs are complementary and mutually reinforcing. 
USAID programs help countries improve policies to qualify for compacts, 
build their capacity to manage funds and administer compact and 
threshold programs, and support overall U.S. efforts to keep MCC 
countries on a transformational development track. MCC programs 
frequently build on existing USAID programs and other USG assistance. 
They do not overlap with them, and USAID adjusts programs to augment 
funding for opportunities created by MCC programs, and to enhance and 
sustain assistance in other areas.
Development Assistance
    The Development Assistance request of $1.639 billion supports 
programs in countries that range from those with very low incomes whose 
governments are sufficiently stable and organized, to those with income 
levels above MCC eligibility that are relatively well-governed. The 
goal of all Development Assistance is to foster an expanded community 
of well-governed states that respond to the needs of their people and 
act responsibly within the international community.
    Countries receiving DA face a range of long-term development 
challenges. Experience shows that the most effective response is to 
provide a well-balanced package that includes sustained support for 
transformational democratic and economic reforms and that is closely 
coordinated with MCC programs and the President's Emergency Plan for 
AIDS Relief (PEPFAR). These assistance programs also must complement 
and reinforce other development-related foreign policy initiatives, 
including our diplomatic efforts to advance freedom and democracy, 
expand international trade opportunities, and address climate change 
and other critical environmental issues. Our strategic priorities for 
DA funding in fiscal year 2009 include: long-term democratic governance 
and economic growth programs in Africa; trade capacity building 
programs in Africa and the Western Hemisphere; capacity building in 
support of the Global Climate Change initiative; strengthened 
democratic governance in the Western Hemisphere; accelerated literacy 
and numeracy programs under the President's International Education 
Initiative, and more broadly in Africa, the Western Hemisphere and the 
Middle East.
    We also recognize that any effort to improve development 
initiatives will require a significantly increased overseas presence of 
USAID, together with expanded technical and stewardship capabilities. 
Therefore, we are requesting $767.2 million in USAID Operating Expenses 
which will allow USAID to increase its overseas workforce. Under the 
Development Leadership Initiative, USAID will hire 300 Foreign Service 
Officers above attrition in fiscal year 2009 to build the capacity to 
implement the National Security Strategy for foreign assistance.
Trade Agreements
    Let me say a word about the trade agreements we have concluded with 
Colombia, Panama, and Korea. Expanding trade opportunities advances 
American economic and national security interests. The Department is 
deeply involved in international trade issues at all levels. I recently 
traveled to Colombia with nine Members of Congress, who saw first-hand 
the impressive results of economic and political reform there. Our 
missions abroad actively support the negotiation and enforcement of our 
trade agreements.
    Through multilateral, regional, and bilateral trade agreements, we 
lower tariff and non-tariff barriers to U.S. businesses, farmers, 
ranchers, and entrepreneurs. The American worker can compete 
successfully with anyone so long as the rules are fair. We help set 
those rules by promoting open markets, as we have done since the end of 
World War II. Our efforts at the World Trade Organization (WTO) 
strengthen these rules and expand opportunities globally. We are at a 
critical juncture in the Doha Round of WTO negotiations, which the 
President has described as a ``once in a generation opportunity'' to 
create economic opportunity, promote development, and alleviate 
poverty. As the President noted in his State of the Union address, the 
United States is committed to the conclusion of a strong Doha Round 
this year, and will provide the leadership necessary to achieve this 
objective.
    With respect to bilateral trade agreements, our free trade 
agreement with Colombia is a prime example of how such agreements can 
strengthen both our economy and national security. The United States 
currently provides duty-free treatment to virtually all Colombian 
products entering the United States under the Andean Trade Preference 
Act. With the U.S.-Colombia Free Trade Agreement, United States GDP 
will grow by an estimated $2.5 billion by expanding opportunities for 
United States exporters as the significant tariffs that are assessed on 
United States exports to Colombia are reduced and eliminated. We urge 
Congress to consider and pass the Colombia FTA to allow our exporters 
to receive the same treatment as is available to Colombian exports to 
the United States.
    The importance of the agreement, however, extends beyond trade. The 
current and previous administrations, as well as the Congress, have 
made a significant commitment to Colombia by providing over $5 billion 
in assistance through Plan Colombia. Security in Colombia is vastly 
improved, the economy has rebounded, and Colombians have real hope for 
the future. The proposed FTA advances our partnership and cements these 
gains. The Colombia FTA reflects the open, democratic, economic, and 
political system which is our vision for Latin America. Colombia is a 
friend of the United States. Its government has taken great risks to 
achieve the successes it has achieved. I urge the Congress to pass this 
agreement for internal security reasons as well.
    Two additional key allies of the United States are also awaiting 
congressional action on free trade agreements: Panama and Korea. The 
U.S.-Panama Free Trade Agreement will build on our already vibrant 
trade relations and support the consolidation of freedom and democracy 
in this important country. The U.S.-Korea Free Trade Agreement is the 
most commercially significant FTA in over 15 years. Korea has been a 
steadfast partner and ally in promoting peace and security in Northeast 
Asia and globally. I urge your action on these agreements as well.
                          security assistance
Foreign Military Financing
    The request of $4.812 billion for Foreign Military Financing (FMF) 
will advance U.S. interests by ensuring that coalition partners, 
allies, and friendly foreign governments have the equipment and 
training necessary for common security goals and burden-sharing in 
joint missions. This request includes $2.55 billion for Israel, the 
first year of a 10-year, $30 billion commitment. FMF promotes our 
national security by strengthening the defense of friendly governments 
and bolstering their abilities to contain transnational threats, 
terrorism, and trafficking in persons, weapons, and narcotics. This 
request provides funding for Egypt to foster a modern, well-trained 
Egyptian military, and support for force modernization, border 
surveillance and counter-terrorism efforts in Jordan. FMF is helping to 
build a Lebanese army capable of implementing United Nation Security 
Council resolutions 1559 and 1701, secure Lebanon's border against 
weapons smuggling, and begin the process of disarming militias in 
Lebanon. The request also finances programs with the Gulf States of 
Bahrain and Oman as part of the Gulf Security Dialogue. FMF will also 
assist ongoing efforts to incorporate into NATO the most recent members 
of the Alliance and to support prospective NATO members and coalition 
partners, as well as partners in Iraq and Afghanistan.
International Military Education and Training
    The International Military Education and Training (IMET) program 
request for fiscal year 2009 is $90.5 million. Through professional and 
technical course curricula and specialized instruction, this key 
component of U.S. security assistance provides valuable education and 
training on U.S. military practices within a context of respect for 
democratic values and internationally recognized standards of human 
rights. IMET programs in Europe advance regional security and force 
integration among NATO and European armed forces, most notably in 
Turkey, Poland, Ukraine, and the Czech Republic. In the Near East, IMET 
provides technical training necessary to maintain United States-origin 
equipment in Jordan, Morocco, Tunisia, Egypt, Iraq, Lebanon, and Oman. 
In Africa, IMET provides training programs for Ethiopia, Kenya, 
Nigeria, Senegal, and South Africa, countries central to long-term 
regional peace and stability. In East Asia, IMET programs with the 
Philippines and Indonesia, for example, focus on professionalizing 
defense forces and developing skills in fighting the war on terror. In 
South Asia, IMET programs improve military interoperability with the 
United States and educate South Asian armies in respect for human 
rights and civilian-military cooperation. In the Western Hemisphere, 
IMET focuses on building capacity to respond to regional security 
challenges, with major programs in El Salvador, Colombia, and Mexico.
    IMET is a critical tool to strengthen important military 
relationships in the global fight against terrorism and to do so in the 
context of support for human rights. IMET helps ensure that future 
leaders of foreign militaries are well trained, exposed to the U.S. 
system of civilian control of the military, and have lasting ties to 
the U.S. defense community.
Nonproliferation, Anti-terrorism, Demining, and Related Programs
    The request for the Nonproliferation, Anti-terrorism, Demining, and 
Related Programs Account is $499 million. With this year's request, 
three separate sub-accounts, Humanitarian Demining, International Trust 
Fund, and Small Arms/Light Weapons, are combined into one line item in 
the budget to address more appropriately our global Conventional 
Weapons Destruction efforts. We are also establishing a proposed new 
sub-account for WMD terrorism to undertake projects that improve 
international capabilities to respond to potential WMD terrorist 
attacks.
    The fiscal year 2009 request includes increases in several 
important areas. We propose continued funding for humanitarian demining 
and increased funding for programs to address the threat to civil and 
military aviation posed by terrorists and insurgents armed with 
MANPADS. We have also proposed increased funding for the 
Nonproliferation and Disarmament Fund to address emergent 
nonproliferation and disarmament requirements including additional 
support for disablement and dismantlement activities in North Korea, as 
they are achieved in the ongoing six-party talks. Increases in the 
Global Threat Reduction program will strengthen biosecurity programs 
and anti-nuclear smuggling programs.
    Under the Anti-Terrorism Assistance (ATA) program, we are expanding 
the TransSahara Counterterrorism Partnership (TSCTP) in the North 
Africa region, and strengthening linkages with the existing TSCTP in 
sub-Saharan Africa to prevent terrorist movement between Mahgreb and 
Sub-Saharan states and to promote greater regional cooperation. 
Increased funding for ATA will also support counterterrorism programs 
in East Africa.
Peacekeeping Operations
    The fiscal year 2009 request for Peacekeeping Operations (PKO) is 
$247.2 million, which is necessary to advance international support for 
voluntary, multi-national stabilization efforts, including support for 
non-U.N. missions and for U.S. conflict-resolution programs. PKO 
funding enhances the ability of states to participate in peacekeeping 
and stability operations and to address counterterrorism threats. In 
the aftermath of conflict, PKO funds help transform foreign military 
establishments into professional military forces guided by the rule of 
law.
    An important element of fiscal year 2009 PKO funding is the 
President's Global Peace Operations Initiative (GPOI), now in its fifth 
year. Fiscal year 2009 funding will train over 15,000 peacekeeping 
troops to reach the initiative's goal of 75,000 peacekeeping troops 
trained worldwide. GPOI includes the African Contingency Operations 
Training and Assistance (ACOTA) program, as well as train-and-equip 
programs outside of Africa. GPOI assists in the deployment of peace 
operations troops, provides logistics and transportation support, and 
assists regional organizations in planning and managing peacekeeping 
operations. PKO funding also helps support TSCTP; Security Sector 
Reform programs in Liberia, Sudan and the Democratic Republic of Congo; 
peacekeeping activities in Somalia; and the Multinational Force and 
Observers peacekeeping mission in the Sinai.
                           global challenges
Democracy and Human Rights
    We will continue to promote democratic development and uphold 
international standards of human and worker rights globally. We are 
requesting $1.745 billion for programs to advance good governance, 
democracy and human rights in support of the President's Freedom 
Agenda, including political competition and consensus building, rule of 
law, and civil society activities in countries around the world. This 
budget will support centrally managed and multilateral efforts that 
provide targeted funding for unforeseen needs and opportunities, 
advance democracy in difficult countries where bilateral programs are 
not feasible and provide technical support to our overseas missions on 
democracy issues and programs.
    Our request includes $60 million in ESF for the Human Rights and 
Democracy Fund to support innovative activities that open political 
space in struggling and nascent democracies and in authoritarian 
regimes as the leading element of the U.S. Government's efforts to 
effect positive and lasting change. HRDF will allow us to support 
pivotal democracy and human rights programming in critical target 
countries such as China, Belarus, Russia, Lebanon, North Korea, 
Thailand, Venezuela, Somalia, Burma, and Pakistan. With HRDF, we will 
continue to support the Global Human Rights Defenders Fund, a program 
that enables us to quickly disburse small grants to human rights 
defenders facing extraordinary needs due to government repression. In 
addition, we will fund innovative approaches to advance labor rights 
abroad by strengthening democratic trade unions and will promote 
corporate social responsibility globally.
International Narcotics and Law Enforcement
    The $1.202 billion request for International Narcotics Control and 
Law Enforcement (INCLE) and $406 million for the Andean Counter drug 
Program (ACP) in fiscal year 2009 supports bilateral and global 
programs to combat transnational crime, illicit narcotics threats, and 
terrorist networks built upon and funded by the illegal drug trade. 
These programs aim to strengthen and professionalize law enforcement 
institutions that are weak or subject to corruption.
    INCLE funds are focused mainly on countries in which serious 
security threats exist, both to host governments and to our national 
interests as well. This includes countries like Afghanistan, Iraq, 
Pakistan, the Democratic Republic of Congo, Haiti, Indonesia, Liberia, 
and Sudan.
    Of particular note this year is the importance and timeliness of 
the Merida Initiative, our new program for security and law enforcement 
cooperation with Mexico and the nations of Central America. The 
President has requested $550 million in fiscal year 2008 and in fiscal 
year 2009, a total of $1.1 billion. The administration believes that we 
must act now to assist our southern neighbors in their fight against 
the criminal organizations that threaten their security and prosperity, 
as well as our own. These nations have demonstrated the political will 
to tackle critical problems and have asked us to cooperate with them as 
partners. I strongly urge Congress to fund this important national 
security initiative both through the fiscal year 2008 supplemental and 
the fiscal year 2009 appropriation.
Migration and Refugees Assistance
    Our commitment to providing humanitarian assistance and protection 
for refugees, conflict victims, and vulnerable migrants remains strong. 
We are requesting $764 million in fiscal year 2009 to fund 
contributions to key international humanitarian and non-governmental 
organizations and for bilateral programs to respond to humanitarian 
needs abroad and identify durable solutions, including resettlement of 
refugees in the United States. These funds provide for basic needs to 
sustain life, protect refugees and conflict victims, assist refugees 
with voluntary repatriation, local integration, or permanent 
resettlement in a third country. They are a humane and effective 
response to pressing needs that reflects the compassion of the American 
people. Humanitarian needs related to Iraq and Afghanistan will be 
subject to a separate fiscal year 2009 Supplemental request. The 
request of $45 million for the President's Emergency Refugee and 
Migration Assistance Fund is critical to meet urgent and unforeseen 
humanitarian requirements.
Global HIV/AIDS Initiative
    The Global HIV/AIDS Initiative account (GHAI) is the largest source 
of funding for the President's Emergency Plan for AIDS Relief (PEPFAR). 
The request of $4.779 billion is a substantial increase over the fiscal 
year 2008 enacted level for the PEPFAR bilateral program, and 
capitalizes on the demonstrated capacity-building and programmatic 
successes in prevention, care, and treatment during the first 5 years 
of the program. Funding will support country-based activities, 
international partners, technical support, and oversight and 
management. The fiscal year 2009 request is the first of a new, 5-year, 
$30 billion Presidential commitment that builds upon and expands our 
initial 5-year, $15 billion commitment.
    The request also proposes the development of a ``Partnership 
Compact'' model, with the goal of strengthening host government 
commitment. In selected countries, compacts will outline reciprocal 
responsibilities, linking our resources to increased host country 
resources for HIV/AIDS and the establishment of policies that foster an 
effective HIV/AIDS response.
Environment
    As President Bush said in his State of the Union address, the 
United States is committed to confronting the challenge of climate 
change. We want an international agreement that will slow, stop, and 
eventually reverse the growth of greenhouse gasses. Achieving that goal 
will require commitments by all major economies, a point we have made 
in the two Major Economies Meetings on Energy Security and Climate 
Change under the initiative launched by the President in support of 
U.N. negotiations.
    In Indonesia this past December, the United States. joined with the 
other parties to the U.N. Framework on Climate Change (UNFCCC) to adopt 
the ``Bali Action Plan.'' This document will guide negotiations of a 
new post 2012 climate change arrangement by 2009. Our fiscal year 2009 
budget request includes $64 million to support our efforts to address 
adaptation and reduce deforestation, major elements of the ``Bali 
Roadmap.''
    Through the Asia-Pacific Partnership on Clean Development and 
Climate (APP), the United States works with China, India, Australia, 
South Korea, Canada, and Japan to accelerate the adoption of clean 
energy technologies. Over 100 APP projects and activities are reducing 
emissions in major sectors such as power generation, cement, steel, 
aluminum, and buildings. Our fiscal year 2009 foreign assistance budget 
request for APP totals $26 million.
    As part of our long-term commitment to protecting the Earth's ozone 
layer we are proposing $19 million for the Montreal Protocol 
Multilateral Fund. Last year, the international community agreed to a 
landmark U.S. proposal to accelerate the phase-out of ozone depleting 
substances. Over the next two decades, this acceleration will provide 
climate system benefits that could exceed those contemplated under the 
Kyoto Protocol.
    Finally, a request of $40 million supports our commitment to labor 
and trade-related environmental initiatives with our Dominican 
Republic-Central American Free Trade Agreement partners. These 
activities will strengthen institutions for more effective 
implementation and enforcement of environmental laws and promote 
biodiversity, market-based conservation, and private-sector 
environmental performance.
                               conclusion
    Chairman Leahy, the fiscal year 2009 International Affairs request 
proposes an increase of 16 percent over the fiscal year 2008 base 
appropriation, and more than 9 percent over all fiscal year 2008 
appropriations enacted to date. I understand that this is a significant 
increase. But the President and I, as well as the officials in all 
departments and agencies which administer the foreign affairs account, 
strongly believe this request is fully justified and critical to the 
national security interests of the United States. We understand that 
these funds are the result of the efforts of hard working American 
taxpayers. You have our commitment that we will manage these funds 
efficiently as stewards of the resources entrusted to us by the 
American people.
    Thank you very much. I would be pleased to respond to questions.

    Senator Leahy. I wonder if George Shultz told you about the 
jet-lag, too.
    We've been joined by the senior Republican on the 
committee, Senator Cochran of Mississippi, and, Senator 
Cochran, I heard you want to make a statement. Please go ahead.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, that's very kind of you, and 
thank you for convening the hearing. I am glad to be here to 
congratulate the Secretary on her outstanding tenure as 
Secretary of State. You have reflected great credit on our 
country, and we appreciate the things that you've done, the 
insights that you have, the energy you've brought to the task 
understanding the importance of the role that our country has 
in the world today. You've made us all very proud. Thank you.
    Secretary Rice. Senator Cochran, thank you.
    Senator Leahy. Madam Secretary, there are 6 months before 
the November election, and I've already discussed the fact that 
neither you nor I want the world to come to an end while we 
wait for that. We have your budget request for 2009.
    Can you tell me what the most urgent challenges your 
successor would face on management and programmatic needs? Are 
those adequately addressed in this budget?
    Secretary Rice. Thank you, Senator. If I could use--rather 
than talking about specific issues, I think we know there are 
multiple issues in this by the turbulent world----
    Senator Leahy. But there are going to be some issues that 
will be sitting on his or her desk----
    Secretary Rice. Yes.
    Senator Leahy [continuing]. On day one.
    Secretary Rice. Yes.
    Senator Leahy. Do we have adequate resources?
    Secretary Rice. Yes. I think, obviously, to try and have a 
sustainable position in Afghanistan, and Iraq is going to be 
very critical, and we will try to use the next 9 months to do 
that. But I think it speaks to a larger issue, which is, in 
fact, covered in our Budget, which is the ability of the State 
Department to exercise its role in what is a fundamentally 
different world now.
    This is not a world now in which diplomats simply report on 
what is going on in the capital, it's not a world in which 
diplomats are mostly engaged in government-to-government 
relations; it's a world in which diplomats are in provincial 
reconstruction teams in Afghanistan and Iraq, literally 
imbedded with our Armed Forces and on the front lines trying to 
help in governance, trying to help in reconstruction.
    It's a world in which our diplomats have to be able to go 
as they did after the earthquake in Pakistan up into the remote 
regions of Pakistan to help with reconstruction and relief. 
It's a world in which they have to go into the villages of 
Guatemala to help with the programs that we're running to help 
farmers with subsistence.
    So, Senator, if I could focus on one thing, it would be 
making sure that we are doing--that we have a large enough 
diplomatic corps, USAID corps, compensated properly, dealing 
with the concerns about family, and I think giving them safe 
and secure facilities in which to engage.
    Senator Leahy. Well, let me talk about that. We have staff 
in trailers in Baghdad, that's the most expensive Embassy ever 
at $1.5 billion just for operating costs. Yet we still have 
staff sitting in trailers and not in a more secure area.
    I do agree with you that we have not kept up the 
appropriate increase in the number of Foreign Service Officers, 
and I worry about what happens.
    You mention Afghanistan. The Taliban and Al-Qaida have 
regrouped there. President Karzai's government effectively 
controls only a small portion of the country. The Marshall Plan 
for Afghanistan that many of us supported never materialized. 
Corruption's a huge problem. The vast bulk of our aid goes in 
the form of huge contracts to U.S. for-profit companies, and I 
would feel far more comfortable if we had our own professionals 
in the State Department and USAID handling it.
    There has been some progress, of course. There are more 
boys and girls in school. The army's being rebuilt, access to 
health care has increased significantly. But when you see the 
Taliban and Al-Qaida regrouping, I worry should we do more? I 
mean, is the best way to give contracts to a half a dozen 
companies worth hundreds of millions of dollars? Or would it be 
a lot better if we had our own people doing that?
    Secretary Rice. Well, I think it's a mix, Senator, as I 
said at the beginning. I do think that, for instance, in the 
1990s when the numbers for USAID have gone over the last couple 
of decades from 5,000 to 1,000, that we've just cut to the 
bone.
    Senator Leahy. In fiscal year 2008, including the 
supplemental funding, we appropriated $429 million for 
international disaster assistance, that was more than what the 
President asked for, but it was still 25 percent less than 
fiscal year 2007. We're told it leaves a shortfall of about 
$200 million. The President's not asking for any additional 
funding. The Office of Foreign Disaster Assistance said it's 
preparing to cut back programs by 25 percent: that's 25 percent 
less for emergency shelter, food, and water, and so on.
    This has always struck me as an area where we show the best 
face of America.
    Secretary Rice. Yes, Senator, there are competing budget 
priorities, but I think that we will--the President will 
submit, both in budget and, I think, ultimately, probably we're 
looking at in supplementals what we need to do in terms of the 
disaster relief and also the food assistance.
    Senator Leahy. But----
    Secretary Rice. We're suffering greatly just from the cost 
of food stock.
    Senator Leahy. But----
    Secretary Rice. May I just----
    Senator Leahy. Oh, go ahead.
    Secretary Rice [continuing]. On the issue of food, one 
thing that would help us enormously in what are now very 
stressed food budgets is if we could purchase locally. This is 
something the President has proposed, and that would be very, 
very helpful.
    Senator Leahy. I agree with you on that. I think that we 
are spending far too much money shipping food. We should be 
doing far more to help raise the food locally.
    You're asking for an additional $822 million for Iraq 
reconstruction programs. That doesn't include an additional 
$1.5 billion you're requesting to pay for operating our huge 
new Embassy, which is already too small for the 1,100 people 
posted there.
    Oil is at an all-time high. We're told that Iraq is taking 
in about $4 billion a month in oil revenues, about $50 billion 
a year, which is more than they have the capacity to spend. 
Shouldn't we start asking them to start paying a larger share 
of rebuilding?
    I told you about the trip I took to Minnesota this weekend 
and looked at the bridge that collapsed there. We don't have 
the money to fix the bridges in America. We don't have money to 
rebuild our infrastructure in America, but you are asking for 
billions more to rebuild infrastructure in Iraq, and yet 
they're getting huge oil profits. Shouldn't they pay more of 
that themselves, and not the American taxpayers?
    Secretary Rice. Senator, the Iraqis do need to spend their 
own money, and Ryan Crocker, I think, yesterday talked about 
the fact that we are largely out of the large-scale 
reconstruction business now. The Iraqis are taking that on.
    We are trying to help them improve their budget execution 
so that in fact the money gets to where it's supposed to be, 
and much of the money that we're spending now is for that kind 
of programming. It's to improve their capacity, to improve 
their ability to execute so that they, in fact, can spend their 
own funding.
    But we are largely getting out of the large-scale 
reconstruction.
    Senator Leahy. Well, you come back and ask for nearly $1 
billion just in the supplemental above what you'd already asked 
for, for reconstruction. Now, that's what troubles me.
    Secretary Rice. Senator, it's a different kind of effort 
that we're making now. What we're trying to do, this is a part 
of a counterinsurgency approach which is that when you go into 
an area--for instance, a provincial reconstruction team goes 
into an area--where we're trying to build capacity outside of 
Baghdad, it's important that they be able to work with the 
governance structures. It's important that we have some 
programs and some funding that we can put into helping those 
people build capacities, helping them do small, smaller quick-
acting projects so that people who have thrown, as is the case, 
for instance, in the Sunni heartland in Al-Anbar, who have 
thrown Al-Qaida out of their communities, can see quick-acting 
results.
    But we've always told the Iraqis that they also have to 
spend their money. They've budgeted in their 2008 budget, which 
they did pass, $49 billion, a significant portion of which is 
reconstruction funding. So I think you will see that they will 
take up reconstruction more and more; they will take up their 
security costs more and more; that our programs will be aimed 
at capacity-building and quick-acting projects that really 
we're better to do.
    Senator Leahy. Well, we may have some disagreements, and I 
see the price will go up, I see them earning the revenues. I 
don't see much being spent.
    Senator Gregg.
    Senator Gregg. I would yield to Senator Cochran, as the 
ranking member of the committee.
    Senator Cochran. Mr. Chairman, thank you. Thank you, 
Senator Gregg.
    Madam Secretary, the President's request is designed, I 
assume, to last for the balance of this fiscal year. Do you 
anticipate any other supplemental requests?
    Secretary Rice. Well, we have to consistently, constantly 
look, Senator, at the operating costs in the wars. We have, 
generally, not wanted to mainline, so to speak, operating costs 
that we hope are going to be coming down. So I can't make that 
commitment, but this is meant in terms of our base budget to 
last us for the year.
    Senator Cochran. Is there any funding being requested for 
additional work to be done on the Embassy in Iraq?
    Secretary Rice. There is a small amount. I believe it's 
about $75 million, is that----
    Senator Cochran. Just for the add-on.
    Secretary Rice. Just for the add-on, right. The Embassy 
building is within the budget that was allocated for it.
    We had a couple of additional things come along after the 
Embassy was designed and almost built: additional temporary 
housing which, because of the environment, has security costs 
that are high, and because General Petraeus and Ambassador 
Crocker want to collocate some of their staff, we've had to 
make some additions in terms of space that can be used by the 
military.
    But the Embassy, itself, remains at roughly $549 million.
    Senator Cochran. Mr. Chairman, I appreciate very much you 
and Senator Gregg conducting the hearing and reviewing the 
budget request. I think it's important for us to move rapidly 
to make the funds available so we give a clear signal that the 
Congress is supporting the administration in helping to 
stabilize the situation and bring peace to that region of the 
world. We're serious about it and determined to succeed.
    Secretary Rice. Thank you, sir.
    Senator Cochran. Thank you.
    Senator Leahy. Thank you, Senator Cochran. Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman. I've got a series 
of issues I'd like to raise just for--to quickly clear the 
table here.
    There is language that we should be able to put in this 
supplemental. You would have no objection to it to try to 
straighten out this issue with the ANC and, certainly, people 
like Nelson Mandela coming into our country?
    Secretary Rice. I would welcome it, sir.
    Senator Gregg. Also, you spoke briefly, about the Colombian 
situation, but maybe you could give us a little more of your 
thoughts there, because it just seems to me that we're at risk 
of stepping backwards four or five steps in an area where we've 
made fairly significant progress, which is opening the doors of 
America to our neighbors in Central and Latin America in the 
areas of commerce. Were the Free Trade Agreement to fail, it 
would seem to me to be a devastating effect on our relationship 
with Latin America and these nations which we're trying to 
bring into our sphere of understanding of what democracy is 
about, so to say.
    Secretary Rice. Yes, Senator. I think this is just a 
critically important Free Trade Agreement for several reasons: 
First of all, it's a good trade agreement, and I think my 
colleague, Susan Schwab, would make the point that almost all 
Colombian goods, some 90 percent of them, are into the American 
market and this, in effect, levels the playing field going the 
other way with American goods going into the Colombian market.
    But quite apart from the economics of it, the fact that 
free trade brings more prosperity and development to these 
countries than any assistance we could ever give I think is 
important to note.
    Finally, on the strategic side, I was with my Mexican and 
Canadian counterparts yesterday to talk about our North 
American partnership, and they were very anxious about what's 
going to happen with this Colombia Free Trade Agreement, 
because they recognize as we do that people talk about the 
growth and alternative, more populist, more, if you will, anti-
American trend in parts of Latin America.
    Well, here we have a strong friend of the United States who 
is trying to do all of the right things for his country: where 
the wages are going up, where people are feeling safer, where 
he's democratically elected, where they're fighting terrorists, 
and where they are fighting outside interference from states 
that are hostile in the region to the United States. If we 
don't pass this Free Trade Agreement, then what kind of message 
are we going to send? That if you're a friend of the United 
States that tries to do all the right things and is under 
pressure from bad forces in your region, then we're not 
prepared to support. That's how it will be seen, and that's why 
I think it's absolutely critical that this Free Trade Agreement 
pass.
    Senator Gregg. Thank you. I couldn't agree with you more.
    Two other questions, if you could answer them in seriatim, 
although they aren't related. The first is, shouldn't we have a 
consulate in Lhasa, Tibet? It just seems to me that with all 
that's going on there, it's reasonable that we should open a 
consulate office there and maybe limit the ability of the 
Chinese Government to open further consulate offices in the 
United States until they gave us the right to put a consulate 
in that part of their country.
    Second, we have really disrupted the economics and the 
culture of some of the neighbors of Iraq, some of whom are 
allies, specifically Jordan. Now, we have a 10-year agreement 
with Israel where we're going to spend over $30 billion.
    We have a 10-year agreement with Egypt where we're going to 
spend over $15 billion. We have no agreement with Jordan, even 
though they're one of our best allies in the region, even 
though they've been extraordinarily supportive, extremely quiet 
about their efforts, and been willing to take on thousands and 
thousands of refugees which have cost them hundreds of millions 
of dollars.
    They have requested that we support them in supporting the 
refugees and their border issues to the extent of $500 million 
this year, and it seems to be an extremely reasonable request. 
I'm just wondering why we've seen nothing from the 
administration that gives this type of support to our allies in 
Jordan. Second, I would hope that there would be no objection 
from the administration were we to put, find $500 million in 
this supplemental to assist Jordan.
    Secretary Rice. Thank you, Senator. On Tibet, we are 
looking at the possibility of a consulate in Tibet. If I may 
just use the opportunity, though, to say that the United States 
has been very active in making the case to the Chinese that 
they are going to be better off to deal with moderate forces on 
Tibet like the Dalai Lama, that they should open dialogue with 
him.
    We pressed for access, consular access, for diplomats into 
Tibet. We got some limited access that, frankly, it wasn't good 
enough. So we've been very active, but we are looking at the 
question of a--it's on the internal list to take a look of when 
we could do it.
    On Jordan, you're right. We have no stronger ally in the 
region in the war on terror and in the Middle East Peace, and 
in taking much of the load on Iraqi refugees. We are providing 
direct support to Iraqi refugees. We're providing support 
through the United Nations to help. I've talked to the 
Jordanians about some of the bureaucratic issues about being 
able to classify people so that they can receive some of that 
help.
    But as to Jordan, as a whole they are an MCC threshold 
country. They have received significant debt relief which the 
United States advocated for and helped them to get. We always 
have to balance questions of resources. We believe we've dealt 
adequately with Jordan in this budget, but, of course, Jordan 
is a very, very good friend of the United States, and we are 
always pleased to see them helped out.
    Senator Gregg. My time is about up, but I really think 
we've given them a short shrift. I mean, when you look at what 
we're doing for Israel and Egypt in comparison to our 
commitment to Jordan, there's essentially nonexistent 
commitment to Jordan. They're bearing much more of the burden 
of Iraq than either Israel or Egypt are bearing.
    So it seems to me we ought to, at the minimum, have at 
least some commitment this year to help them with their refugee 
and border issues of at least a half a billion dollars, which 
is the number that they've asked for.
    Senator Leahy. Half a billion.
    Senator Gregg. $500 million. Compared to the Israeli 
commitment and the Egyptian commitment, that's not dramatic. 
Then we should have a 10-year agreement with them like we do 
with Israel and Egypt.
    Thank you, my time's up. Thank you.
    Senator Leahy. It's interesting Senator Gregg has raised 
that. I read in the paper about these tens of billions of 
dollars that we've agreed to give Egypt and Israel. That's the 
only place I've heard about it. Nobody from the administration 
has talked to me, nor whether we're to cut disaster relief or 
maternal health in the poorest nations in the world, or where 
we find the money to pay for this agreement.
    You've agreed with Senator Gregg on helping Jordan, and I 
happen to agree with that. There's no money in this budget for 
that either.
    I wish, just once, if you're going to be promising to give 
all this money to all these countries, especially 10-year 
agreements, that somebody would take, I don't know, 1 minute, 2 
minutes--we're talking about tens and tens of billions to talk 
to the people that actually have to find the money and 
appropriate it.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and I want 
to commend the Secretary. I agree with the many things you 
outline, and I agree with the comments also made by my 
colleague from New Hampshire. I have a number of items I want 
to cover that are supportive of your position and would like to 
ask you, just briefly, if I'm on the right track.
    First, yesterday we heard from General Petraeus and 
Ambassador Crocker about the military successes in Iraq, and 
the kinetic forces have been successful in moving toward 
security and stability there. But it seems to me that in order 
to take full advantage of these kinetic military successes by 
our brace service men and woman, we need a surge in America's 
nonkinetic, smart power initiatives.
    Now, I believe that Secretary of Defense Gates had said 
that at the very top, and I can tell you down at the 
operational level, my son, who is a Marine Intel officer and a 
Scout Sniper commander in Al-Anbar, said the only way we can 
build on the military successes is to bring economic progress, 
economic success building the infrastructure. He saw that at 
the ground level. Secretary Gates has said it at the top level.
    I would assume--well, as I've travel around the world, I 
have talked to our Embassy personnel, and our Intelligence 
community, and these people who are on the front lines are 
telling me that if we're to succeed in the challenges that 
radical Islam terrorists presented, it's 80 to 90 percent smart 
power, nonkinetic. Is that a sentiment with which you agree?
    Secretary Rice. I do, Senator. I think it has really two 
dimensions, though. One is that in places where countries are 
already stabilized and the like, obviously, it's getting out 
beyond capitals and working with subsistence farmers and 
working with people in AIDS clinics, that kind of work.
    In war areas, the civilians are very well represented, and 
the State Department is very well represented: the provincial 
reconstruction teams that are operating in Anbar, imbedded with 
our military, going out and doing governance, working with 
provincial councils.
    I'll tell you, Senator, I sat with the provincial council 
of Kirkuk, one of the most troubled areas in Iraq. We had two 
diplomats there who were helping them to work through 
governance issues, Arabs and Kurds alike. That's the kind of 
work that we do, and those people are on the front lines.
    Senator Bond. Madam Secretary, I would agree with you. I'm 
very proud that our Missouri National Guard has taken an 
agricultural development team to Nangarhar Province in 
Afghanistan with farm boys as the Guards and with extension 
agents. But I really believe it's a wide range of smart power 
from economic investment, Peace Corps, educational exchanges, 
USAID. I strongly support your comments about the need for free 
trade and the Free Trade Agreements.
    As I've traveled around the Americas, free trade efforts 
are a critically important item in our overall foreign policy 
that people don't represent. Right now, we in Congress are 
faced with the decision of whether to approve the Colombia Free 
Trade Agreement. We can approve the Free Trade Agreement and 
provide support to President Uribe, who, you said, is a 
popularly elected reformist leader of that country. Or, if we 
turn it down, we will be handing over that part of Latin 
America to Hugo Chavez, who is no friend of American, no friend 
of the people in that area.
    But moving on to another area, your request is for a 30 
percent increase in USAID officers. Right now, the Foreign 
Service officers are so limited that USAID has had to rely on 
the crutch of large bureaucratic NGOs, and they are not doing 
the job. So I'm strongly supportive of that, and I also 
believe, from what I have heard from people in other countries, 
we need a significant increase in Peace Corps volunteers, 
hands-on assistance spreading compassion, goodwill, and the 
knowledge of English.
    With over 20 percent of the Peace Corps volunteers serving 
in predominantly Muslim countries, we ought to be building on 
that. They have to provide an alternative to Wahabist barbaric 
ideologies that so many young, impressionable Muslims fall back 
on. I'd ask this committee to increase the Peace Corps budget 
by $30 million to add another 500 volunteers to expand in 
Southeast Asia and those parts of the world.
    But I also believe that we have a significant obligation to 
support the Philippines and Indonesia which need our funds 
because they are potentially a second front on the war on 
terror.
    One particular program that has been instrumental in 
Indonesia's continued path towards a pluralistic stable 
democracy and human rights has been affording international 
military and education training to leaders. Susilo Bambang 
Yudhoyono graduated from the last class before we cut off that 
aid.
    Admiral Timothy Keating, as PACOM commander in September of 
last year, said that Indonesia, which plays an influential role 
in the war on terror, is making great progress in large measure 
due to congressional support for IMET and other things.
    I'd be interested in your view about the importance of IMET 
in providing assistance to make sure that emerging democracies 
have militaries that are under civilian control and understand 
human rights and our modern views of a military.
    Secretary Rice. Senator, I think there may be no better 
program in any ways than for exactly that role than IMET 
because, if you go around the world and you see the number of 
officers who have studied in the United States, who have been 
inculcated, then, with the values of civilian control and of 
democracy, and democracy needing civilian control, it's really 
quite impressive. As you mentioned, President Yudoyono, of 
course, was here. He's very proud of that.
    Indonesia, we've been able to reinstitute some of our 
programs on military education, and I hope we will be able to 
do more. I fully understand the need for accountability for the 
acts that were associated with the Indonesian military over the 
last decades, and I think they understand that, too. It does 
help us to be able to have a way of being engaged with them, 
and we have on some occasions cut out that kind of engagement--
for instance, with Pakistan--and I think we pay for it when 
several years later we return to a place and find that we don't 
have the connections that we once had.
    Senator Bond. Thank you very much, Madam Secretary.
    Mr. Chairman, believe it or not, I did have more to say.
    Senator Bennett. Thank you, Mr. Chairman.
    Madam Secretary, it's already been said, but I want the 
record to show that I agree with the comments that have been 
made by both the chairman and the ranking member, and others as 
to the quality of your service as Secretary of State. I try to 
be something of a student of history, and while George Shultz 
may say it's the best job in Government, historically, it has, 
perhaps, been one of the most turbulent jobs in Government.
    I'm just reading about Thomas Jefferson and some of his 
frustrations with the Barbary Pirates, and the difficulties 
with the military and to get things right and all the rest of 
that. I think you know the world hasn't changed all that much, 
and the challenges of the job. The particulars have changed, 
but the frustrations are probably still the same.
    I add my congratulations to you for the professional and 
cheerful way in which you've discharged your duties. It could 
be easy to get discouraged, I would think, and you always seem 
to have a smile on your face and willingness to go into the 
breach one more time, and I congratulate you on that.
    Also, to recap, the chairman talked about America's 
international reputation around the world. I cannot think of 
any place where our reputation would be more damaged than South 
America if we were to fail to support the Colombia Free Trade 
Agreement. Your statement is one with which I fully agree, that 
if we're going to have friends around the world, we need to 
stand by them; and if we do not stand by President Uribe and 
what he has done in Colombia, it would be a tremendous blow to 
our reputation and our credibility.
    I remember as a new member of this subcommittee with 
discussions about Colombia in past years, and how difficult it 
was to contrast that to the circumstance in Colombia now. This 
is an enormous turnaround. I have been to Medellin, as well, 
and walked the streets of Medellin, watched the commerce going 
on, watched the excitement of bustling activity there in areas 
that there was no commerce, there was no activity because the 
militias rule, and a sense of government control was completely 
foreign.
    Now people feel secure in their homes and secure in their 
businesses, can carry on commerce without worry of extortion or 
robbery, or any of those other kinds of things, and we have to 
be as supportive of that as we possibly can.
    Let me revisit a subject you and I have mentioned before 
just to get an update from you. To me, the reverse canary in 
the mine shaft, if you will, in Iraq is the refugees. If the 
refugees start coming back, that's an indication that I think 
speaks more volumes than all of the statistics we can put in 
briefing books and so on.
    I think the last time I asked you about that, you say they 
have started to come back, but it is a small trickle. It is not 
yet turned into any kind of sustained return.
    Are the refugees still coming back? Is it still a trickle? 
Has it picked up? Has it dropped off? Where are we with respect 
to that?
    Secretary Rice. I think it would be fair to say that it is 
more than a trickle but not yet sustained. There are two 
reasons for that: There are still some places that are pretty 
violent, but even in places that are not the absence of, for 
instance, housing stock for people to return to, and so one of 
the things that we've tried to do with the Iraqi Government is 
to get them to have a more systematic way of reintegrating 
refugees.
    We learned in Afghanistan, when almost 2 million refugees 
just returned suddenly in Afghanistan that that can really 
stress a system that is not very strong to begin with.
    So one thing that the Iraqis have talked about is the 
significant housing-build in places like Ramadi, and they've 
allocated the money for it. I think if we can do that, because 
I suspect that one of the places that people would come back to 
first will be Anbar Province now, given the increasing 
stability there and also given that many of the people who 
left, left from there. But they're going to have to have not 
just infrastructure but actual housing to come back to, and we 
think that is one that the Iraqis can take on and should take 
on themselves.
    Senator Bennett. As long as the flow is back in rather than 
out, that's----
    Secretary Rice. A good signal.
    Senator Bennett [continuing]. A very encouraging sign.
    Let's talk about the issue that everybody in the Middle 
East wants to talk about, which is the Palestinian/Israeli 
situation. One concern that it's impolitic to raise, but I 
raise it nonetheless, is the overall question of corruption. 
And as we talk about the Palestinian Authority, and there's $33 
million in this bill for the Palestinian Authority to provide 
health, education, and humanitarian services, what level of 
confidence do we have that that $33 million will, in fact, go 
to provide health, education, and humanitarian services? How 
serious a problem is corruption?
    I believe, just parenthetically, that corruption is the 
number one problem in developing countries or Third World 
countries. I applaud the effort of Bob Zoellick over at the 
World Bank to try to deal with it, and I get very frustrated 
with people who say we have to tolerate certain levels of 
corruption because, as President Uribe has shown in Colombia, 
you attack the corruption first and a whole bunch of good 
things begin to happen thereabout.
    So to what extent is corruption a problem in the 
Palestinian/Israeli conflict? As I say, what kind of confidence 
can we have that our $33 million will go for what it needs to 
go for instead of ending up in Swiss bank accounts, which is 
where it went when Yassir Arafat was in charge?
    Secretary Rice. Yes. Well, let me start with the bottom 
line, Senator, which is within the bounds of what's possible. 
We have really worked hard to help Salam Fayyad, their Prime 
Minister--former Finance Minister with whom we'd had a lot of 
work--to put in place systems of control.
    I remember sending in first the American accounting firm 
out there to work with him several years ago, and I think we 
have some confidence that his government has tried to put in 
place the proper controls and that he, himself, by doing things 
like even posting the budget on the Internet, is very much 
aware.
    I will have to say that you are right that one of the 
problems that the Palestinian Authority has is that it was 
structured by Yassir Arafat, and it was extremely corrupt. Many 
of the security forces were just jobs programs and patronage 
programs, and it's taking some work to unravel all of that.
    But I have no doubt about the commitment of this government 
of the Palestinians and of Fayyad in particular to trying to do 
this, and we're working with him. I think the Israelis and the 
Europeans also believe that he is someone who is trying to do 
the right thing. So the bottom line is I think we have as many 
controls in place as we can. But, of course, it's a complicated 
place.
    Senator Bennett. Thank you very much.
    Senator Leahy. Thank you. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. Madam 
Secretary, I agree with Senator Bennett. I thank you for your 
service and the way you represent our country in the world.
    If my colleagues will forgive me, I said on the Senate 
floor a moment ago that when Pat Summitt and the university 
basketball team won a championship game last night up here on 
television, it makes me prouder of our State by the way they 
conduct themselves and the way they represent our university. 
You make me feel the same way, as I see you around the world, 
and I thank you for that service.
    Senator Leahy. I have never seen such a clever way to get--
I compliment you, Governor.
    Senator Alexander. Thank you, Mr. Chairman. Usually, we 
Senators like to catch the administration in embarrassing 
mistakes. I want to ask you if you could help us out of an 
embarrassing mistake--at least I believe it was--that we made 
in the complicated congressional appropriations process last 
year, and that's the United States commitment to deal with the 
ITER fusion project in France that is the ultimate in solar 
energy.
    Fusion is a way of creating electricity by, basically, 
replicating on Earth what the sun does. It burns hydrogen and 
turns it into heat and helium, and the heat creates steam, and 
steam turns turbines, and then we have electricity. It's in a 
clean way. Here we are in a situation where the whole world is 
talking about climate change, where we have clean air problems 
in the United States, where the Olympics are causing more 
tension to the clean air problems we have in China where 
they're building two new coal plants every week so we're told.
    India, the same, so we have a problem not just with climate 
change, but we're suffocating from nitrogen and mercury and 
sulfur, not just produced by us--we're making progress--but by 
other countries in the world at a time we have a growing need 
for energy.
    I mean, the Tennessee Valley Authority alone in our region 
says it'll need the equivalent of a new coal plant every year 
or more, or a new nuclear plant every year-and-a-half. Along 
comes this idea of fusion, which is a longer term idea but 
nevertheless we, along with the European Union and China and 
India and Japan and South Korea and Russia, agreed to enter 
into an international project.
    I know you know all this, but I'm saying this so that we 
can get it out all on the record. We've agreed to pay for 9 
percent of the overall cost of the project. Eighty percent of 
our $1.1 billion contribution will be hardware built in the 
United States and shipped over there, so it's friendly to us on 
jobs. The President requested $160 million for this last year 
in his fiscal year 2008 budget which would have kept our 
commitments.
    Well, in the final fiscal year 2008 omnibus appropriations 
bill, that money got dropped. I'm sure it came up against other 
worthy projects, but here's where we're left with: We're left 
with, number one, this embarrassing mistake means, that at a 
time when we're concerned about climate change, clean air here 
and in the world, that we're not doing what we agreed to do in 
order to help the world do this problem.
    I think a lot of Senators on my side of the aisle say, 
well, we shouldn't do more until the rest of the world does 
more. Well, they've agreed to do more here. They're doing their 
part, and what do we do? We say we won't do what we've agreed 
to do, that's the first thing.
    The second thing, the deal we made said that if we don't 
put in our $160 million, we might get charged $750 million. In 
other words, we said as a guarantee that if we back out, if we 
don't live up to the deal, it's going to cost us three-quarters 
of a billion dollars.
    So my question to you, Madam Secretary, is wouldn't it be 
wiser for us to live up to our commitment to clean the air, to 
advance this ultimate solar energy, and to spend $160 million 
this year in support of the International Thermonuclear 
Experimental Reactor, the Fusion Project, rather than back down 
from something we've agreed to do and cost us, potentially, 
$750 million a year?
    Secretary Rice. Thank you, Senator. Let me begin by 
congratulating the Tennessee women, even if it did come at the 
expense of my good friend Tara VanDerveer and the Stanford 
women.
    Senator Alexander. I completely overlooked that angle.
    Secretary Rice. But I think that both teams----
    Senator Alexander. You were the provost at Stanford when 
they had great teams and the same kind of academic 
accomplishment. As long as you brought it back up, every single 
one of the lady volunteers who have played for Coach Pat 
Summitt has graduated in her 34 years of coaching.
    Secretary Rice. Well, I'm a big fan of women's athletics, 
and I think that those young women comported themselves very 
well last night, so congratulations to Tennessee.
    Senator Alexander. Thank you.
    Secretary Rice. Yes, on ITER, Senator, we are very 
supportive of this project. We believe that it is a great 
example of high-level international cooperation on some of the 
more promising scientific potential breakthroughs of our time 
and will have many of the benefits that you talked about.
    The President did request $160 million in 2008. There's a 
DOE request in 2009, and we work very closely with DOE on this 
project, on the diplomacy of this project. But we're very 
supportive, and I hope it will be fully funded.
    Senator Alexander. Thank you, Madam Secretary.
    Mr. Chairman, that's all I have. I appreciate the 
opportunity to bring this to the attention not only of the 
Secretary but to the Chair and ranking member, who I know care 
a lot about clean energy, and I hope this can be worked out 
this year so it doesn't cost us $750 million and so that we 
live up to our agreement to be part of an international effort 
to help create unlimited energy with no environmental 
consequences.
    I ask permission of the Chair to include in the record a 
letter from Senator Corker and from me to Secretary Rice and 
her Department's response of March 14.
    Senator Leahy. Without objection, it will be included----
    Senator Alexander. Thank you.
    Senator Leahy [continuing]. And I'll be happy to work with 
you on the issue you've raised.
    [The information follows:]
                                               U.S. Senate,
                                 Washington, DC, February 22, 2008.
Hon. Condoleezza Rice,
Secretary, Department of State, Washington, DC.
    Dear Secretary Rice: We are writing to request your assessment of 
the impact to our national credibility and diplomatic relationships 
resulting from Congress' failure to fund the President's budget request 
for the U.S. contribution to the International Thermonuclear 
Experimental Reactor (ITER) Project in the Fiscal Year 2008 Omnibus 
appropriations bill. In anticipation of the administration's request 
for supplemental appropriations funding for fiscal year 2008, it is our 
hope that the administration will include funding for the ITER program.
    The United States formally joined the ITER Project in 2007 after 
many years of intensive negotiations. At a time when we need to arrive 
at innovative solutions to increase available sources for abundant, 
clean energy, it is a serious and embarrassing mistake for Congress to 
renege on our commitment to the ITER Project. ITER was built as a model 
of cooperation on large, international science projects--the United 
States should be a leader in encouraging such endeavors rather than 
undermining them. We strongly believe that investing in international 
cooperation in the basic energy sciences will pay important dividends 
to our economy and the environment.
    We have heard reports that Congress' failure to live up to our 
commitment to the ITER Project is already causing trouble for us in 
other areas of international cooperation. It would be helpful to know 
if the State Department is aware of specific difficulties our apparent 
lack of good faith on the ITER Project has caused in the diplomatic 
realm, such as efforts to negotiate or implement other international 
agreements.
    We'd be happy to furnish additional information, or your staff may 
wish to be in touch with Tom Craig with Senator Alexander at (202) 224-
8986 or Ashley Palmer with Senator Corker at (202) 224-3344. Thank you 
for your assistance.
            Sincerely,
                                           Lamar Alexander,
                                             United States Senator.

                                                Bob Corker,
                                             United States Senator.
                                 ______
                                 
                                       Department of State,
                                     Washinton, DC, March 14, 2008.
Hon. Lamar Alexander,
U.S. Senate.
    Dear Senator Alexander: Thank you for your letter of February 22 
concerning the lack of adequate funding in the Consolidated 
Appropriations Act, 2008 (Public Law 110-161) for the ITER project, and 
the impact to U.S. credibility and diplomatic relations.
    The U.S. funding shortfall is serious and will undermine a crucial 
multilateral scientific project at a time when all research regarding 
potential alternative sources of energy and ways to mitigate climate 
change must be explored. The President's request for Department of 
Energy (DOE) funding in both fiscal year 2008 and fiscal year 2009 
reflected the importance of ITER and our support for such large-scale 
multilateral research projects that cannot be undertaken alone and for 
which benefits should be shared. The shortfall could indeed call into 
question our commitment to our international obligations. It would also 
limit our ability to convince other nations to share the costs of other 
large-scale scientific research projects in the future. Furthermore, an 
interruption in U.S. funding will hamper our domestic ITER program, 
undermine our ability to guide the ITER project to best meet our core 
objectives, and prevent the ITER Organization from delivering the 
project on cost and on schedule.
    We appreciate your support and are prepared to work with you to 
restore funding in fiscal year 2008 if possible and to ensure that the 
fiscal year 2009 funding request in the President's budget is realized. 
In addition, the Department of State will continue working closely with 
DOE to reassure our ITER partners and the ITER Organization that the 
United States will maintain its commitment to the project and work to 
mitigate any negative impact on it resulting from the budget 
uncertainties we are addressing.
    We hope this information is useful to you. Please do not hesitate 
to contact us again if we can be of further assistance.
            Sincerely,
                                           Jeffrey Bergner,
                          Assistant Secretary, Legislative Affairs.

    Senator Leahy. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Madam Secretary, I join my colleagues in welcoming you here 
and thank you for your outstanding service.
    I want to visit with you a couple of subjects that you and 
I have talked about, extensively, both on and off the record, 
and that is the Iranian issue and later the Syrian issue. We 
have talked about the initiative of 2003, which has been 
confirmed by a number of people in the administration on Iran's 
effort to initiate bilateral talks with the United States, and 
I have discussed this with you, urging you to do so.
    We all know that among the many pressing problems the 
United States faces, none is more important than our relation 
with Iran and the threat of Iran getting a nuclear weapon. The 
multilateral talks and the sanctions in the United Nations are 
very, very important, but I would again take up and urge 
bilateral talks.
    You were successful on the bilateral talks with North Korea 
in structure and agreement. There had to be multilateral talks 
with China involved, and Japan and South Korea and other 
nations. But, Madam Secretary, in the waning days of the 
administration and in light of the intensity of the problems, 
why not use the approach taken in North Korea and engage Iran 
in bilateral talks to try to find some way of coming together 
with them on the critical issue of their building a nuclear 
weapon?
    Secretary Rice. Senator, I think we've made clear that we 
don't have a problem with the idea of talking to the Iranians. 
I said at one point in a recent speech that we don't have any 
permanent enemies, so we don't----
    Senator Specter. Well, but without--without preconditions.
    Secretary Rice. But I think the problem of doing this, and 
we do talk with North Korea, bilaterally, but, of course, in 
the context of the six-party framework, and we have a six-party 
framework, really, for Iran were Iran willing to engage.
    The reason that the precondition is there--and it's not 
just an American precondition--it is one that the Europeans set 
well before we entered this six-party arrangement some 2 years 
ago. It's to not to allow the Iranians to continue to improve 
their capabilities while using negotiations as a cover.
    They have only one thing to do, which is to suspend their 
enrichment and reprocessing efforts, and then everybody will 
talk to them. I've been clear that we're prepared to talk to 
them about anything, not just their nuclear issue.
    Senator Specter. But, Secretary Rice, they don't need talks 
to have a cover to proceed with whatever it is they're doing; 
they're proceeding with that now.
    I've had some experience. I haven't been Secretary of 
State, and I haven't been in the State Department, but I've 
been on this committee, subcommittee, for 28 years, chaired the 
Intelligence Committee, talked to many foreign leaders, and, 
frankly, I think it's insulting to go to another person or 
another country and say, ``We're not going to talk to you 
unless you agree to something in advance.''
    What we want them to do is to stop enriching uranium. 
That's the object of the talks. How could we insist on their 
agreeing to the object that we want as a precondition to having 
the talks?
    Secretary Rice. Senator, we've not told them that we--the 
talks would be about, in fact, how to get Iran civil nuclear 
energy and a whole host of other trade and political benefits 
by the way, because the package that the six parties have put 
forward is actually very favorable to Iran.
    But they do need to stop, suspend. Until those talks can 
begin and those talks can have some substance, they need to 
stop doing what they're doing, because to allow them to just 
continue to do it, to say, well, we're in negotiations while 
they continue to do it, I think sends the wrong signal to them 
and, frankly, would erode our ability to continue the kind of 
efforts at----
    Senator Specter. Okay.
    Secretary Rice [continuing]. Sanctions that we----
    Senator Specter. Okay, we'll agree to disagree. Let me move 
to another subject, and that is President Putin's proposal to 
have the Russians enrich their uranium.
    Secretary Rice. Yes.
    Senator Specter. That, apparently, would provide an answer.
    Secretary Rice. Yes.
    Senator Specter. To what extent has the Putin proposal 
impressed, in a sense, if we joined with Putin, and they refuse 
what is really a good offer to have somebody else enrich their 
uranium so they have it for peaceful purposes, but there is a 
check on using it for military purposes? Why hasn't that 
worked?
    Secretary Rice. Well, we are fully supportive of it, and 
the President just told President Putin that again in Sochi, 
that he is fully supportive of the Russian proposal. In fact, 
not only did President Putin himself put that proposal to the 
Iranians when he was in Tehran, his foreign minister went back 
within a few days and put the same proposition to the Iranians, 
which makes people suspicious, Senator, that this is not about 
civil nuclear power but rather about the development of the 
capabilities for a nuclear weapon.
    Senator Specter. Well, I think----
    Secretary Rice. Not only--if I may, just one other point--
not only did we support the Russians in making their offer, but 
when the Russians decided to go ahead and ship the fuel for 
Bashar, saying to the Iranians: Now that we've shipped the 
fuel, you certainly have no reason to enrich. We supported that 
effort, too.
    So I think this really speaks to the intentions of the 
Iranians.
    Senator Specter. Well, we agree on that. My suggestion 
would be to try to elevate it. It's been in the media, in the 
press a little, but not very much. So if we could elevate that, 
I think it would really put Iran on the spot that they deserve 
to be on.
    Let me move in the----
    Secretary Rice. That's a very good idea, Senator, we'll try 
to do that.
    Senator Specter [continuing]. Remaining time I have here to 
Syria. Here again, you and I have talked on and off the record 
about my press to do more with Syria on a bilateral basis. If 
we could get them to stop supporting Hezbollah and Hamas and 
destabilizing Lebanon, it would be an enormous achievement. 
Only the Israelis can decide what they want to do about the 
Golan.
    But I think that Israel and Syria have been so close in the 
past there in 1995 and again in the year 2000, the prospects 
are good.
    King Abdullah was in town recently, and I had a chance to 
ask him about the issues as to what could be done to get Syria 
to stop supporting Hamas and Hezbollah and destabilizing 
Lebanon. He said the item which is most on the mind of 
President Bashar Assad is the action of the International 
Tribunal which could lead to his indictment and raised the 
possibility that that might be in the mix.
    If that were to be, it would be the most astounding plea 
bargain of all time. I've had some experience with plea 
bargains, not nearly on that level. Senator Leahy and I have 
done some work in that field, but not to plea bargain with a 
head of state.
    But do you think that is a subject worth exploring?
    Secretary Rice. Senator, I don't think that it would be 
appropriate to suggest that we might be willing to limit the 
scope of the Tribunal on the assassination of Rafiq Hariri, 
just because it might somehow implicate either the regime or 
the Assad family. I know that that has been on their minds, but 
I think that would be a very bad step. I think it would be bad 
for Lebanon and bad for international justice.
    Now, we don't know what the Tribunal will produce, and so 
our effort has been not to focus the Tribunal toward Syria, or 
about Syrian, or about the Assad family, but rather to try and 
ensure the smooth and integrous working of the Tribunal. I 
think that is the appropriate place for us to be.
    After all, the Tribunal was created under a U.N. Security 
Council resolution, and it needs to take place with integrity.
    Senator Specter. Well, I'm inclined to agree with you about 
that. I, on this state of the record, I think the Tribunal has 
to proceed, that it is an International Tribunal, and whatever 
would be done would have to be done with the International--
with the Security Council.
    But the problems we're looking at, I raise it as a 
theoretical possibility, and I think it's worth thinking about, 
but not acting on.
    Secretary Rice. Um-hum.
    Senator Specter. Thank you, Madam Secretary.
    Senator Leahy. Thank you, Senator Specter.
    We've been joined by Senator Brownback. You're next.

                   STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate that. Madam Secretary, welcome. Delighted to have 
you here I guess in the final presentation of a budget. You've 
done a fabulous job. I'm sure you cheered for my Jayhawks the 
other night in the championship game, not to mention something 
of interest to Kansas, but you did cheer for them, or----
    Secretary Rice. Of course, Senator, I was right there.
    Senator Brownback. Thank you. Oh, good, thank you. I just 
told the President, and he said it was, to quote him, directly, 
``The game was too late for an old fart like me.'' So I accused 
him of being a baseball and football guy, myself. But anyway, 
on to other things.
    A couple of things I want to bring to your attention, and I 
know you've got a great interest and focus on this. On Africa, 
you guys have done a great job. The public opinion polling 
numbers impression of the United States is more favorable there 
than any continent in the world. I think that's directly 
related to what you've done on AIDS, malaria, I want to put on 
your radar screen neglected diseases like river blindness, 
sleeping sickness, elephantiasis. We've got a couple of ideas, 
once passed, to get and use this marketplace to develop cures 
for these.
    We've got one of them to pass, and we're working on another 
one. I think we just really ought to follow that track because 
you guys have done a great job. Our approval ratings are great, 
and there's nothing like helping a person live to have them 
like you.
    One I want to put on your radar screen, particularly, is in 
Congo. In Eastern Congo, you continually, continue to have a 
huge amount of death and suffering there. Much of the conflict 
has pulled away for as far as the forces, but the forces 
driving conflict in the area are economic now.
    We had up last week testifying an OB/GYN in this region 
that's seeing 10 women a day that's subject to gang rapes and 
sexual violence, and most of it, he says, you can track where 
the mines are, ``and that's where my patients come from.'' It's 
gangs that want the Coltan Mines, the cobalt, the tin, the gold 
from these areas, and then they use the sexual violence as a 
tool to drive people away, and then they mine the operations.
    So we've got a bill we're putting in, in a week or two. It 
will be a bipartisan bill on conflict commodities, trying to 
track after what took place on the blood diamonds in West 
Africa, and doing this in Congo. I just want to put that on 
your radar screen, because I really think this--we can deal 
with this, but we're going to have to get at the root of the 
economic problem, which is just trying to drive people away 
from these mining operations.
    Congo is such a central entity and has had such a terrible 
past on this. I want to put that on your screen.
    The other one I want to ask you about is on your North 
Korea talks that you've got going on. I've met with Christopher 
Hill, I met with your nominee for Ambassador. I really think we 
need to bounce up the Human Rights Portfolio on these 
negotiations a lot more. I think it would help us in 
negotiating with China, and I think we've got to put some 
``specific ask'' on the table.
    In meeting with your ambassadorial nominee the other day, 
she was saying, ``Look, we're interested in human rights.''
    I said, ``I know you are, but you've got to put a specific 
`ask' or it's--you're not going to sharpen the point of the 
pencil.'' Why not ask the North Koreans that as part of this 
they've got to shut the political gulags down? We've got 
commercial satellite information that's available; we've got 
people that have gotten out of those. They exist, they're going 
on. Why not, as a way of bouncing out the human rights agenda, 
let's put a ``specific ask'' in that negotiation on human 
rights.
    It's my belief that if in these negotiations, when we press 
them about nuclear weapons, you tend to strengthen the host 
government because they can go back to their people and say the 
United States is trying to deny us something. When you go at 
their human rights agenda, whether it's North Korea or Iran, 
you delegitimize the regime, because this is now what they're 
doing to their own people.
    Now, just, I really think we need to up that one in those 
six-party talks in North Korea, and I'd appreciate your thought 
on that.
    Secretary Rice. Thank you, Senator. If I may, just first on 
Eastern Congo, thank you for those comments, and I will ask our 
people to look into the kind of thing that you're talking about 
in terms of the mining. We've been very active in trying to 
help bring some stability there to that area.
    I held a summit-level meeting with the Presidents of 
Rwanda, Burundi, and, in fact, the Congo was represented by 
their foreign minister--Mr. Kabila was not there. But we're 
trying to strengthen the DROC's security forces. We're trying 
to engage, have him engage, in greater peace efforts in that 
area because it's obviously very unstable, and it's also an 
area that has the potential to spill over. The Rwandans, for 
instance, are very concerned about the spillover.
    As to North Korea, thank you for those comments. Yes, the 
human rights situation in North Korea is something that we have 
spoken to, should try to speak to, and we have noticed that the 
South Korean Government, the new South Korean Government, is 
speaking to this issue more now, and so we will look.
    No people on Earth that I think live in more difficult 
circumstances, and so we are trying to see if there is even a 
way to think about greater openness, the way that they might 
get some exposure to the rest of the world, because it's a 
really very desperate situation. While trying to deal with the 
humanitarian situation, we shouldn't lose sight of the problems 
that you have just outlined, and I take the point.
    Senator Brownback. I think we can weave it into our ask and 
pressure on the Chinese on human rights. I mean, obviously, 
that's taking place in Tibet and has for some period of time, 
but then you also have how they are treating or not allowing 
North Korean refugees to flow through China, and this is in 
direct contradiction to their commitments under the U.N. Human 
Rights Commission, what they do to groups like Falon Gong or, 
in some cases, the House Church Movement in China.
    This thing, you know, with the Olympics coming up, and 
obviously everybody's keying off of that, but the Chinese are 
one of the central enablers to human rights abuses around the 
world----
    Secretary Rice. We----
    Senator Brownback [continuing]. Whether it's Sudan, whether 
it's resourcing of commodities in Africa, whether it's North 
Korean refugees, whether it's Tibet, this is an enabler 
country, China is. I just--I think we've got to put a real bead 
on them, given that there's a big public event they're very 
interested in, and they're such a key enabler to bad human 
rights activity in so many places around the world.
    Secretary Rice. Senator, I have said and I agree, we have 
to discuss and press the Chinese on human rights issues before, 
during, and after these upcoming Olympic Games. So we have 
just, we're going to reinstitute our human rights dialogue with 
China. The reason for that is that we'd like to get, in terms 
of internal Chinese human rights issues, we'd like to get to 
some of the more structural concerns.
    It's important to raise individual cases, which we do, but 
when you have laws that can have somebody put in jail for the 
kind of activity that this young blogger was just put inactive 
in jail for, you have a structural problem, and we raise those 
issues.
    But I would add to your list of places that we need the 
Chinese to really help on the human rights side is Burma where 
they probably have more influence than any other country in the 
world. We talk to the Indians, we talk to the Japanese, we talk 
to the Southeast Asians, but they all come back and say: You 
really need to talk to China. So we are pressing those cases.
    Senator Brownback. Thank you, Madam Secretary.
    Mr. Chairman, thank you.
    Senator Leahy. Thank you. I might mention to Senator 
Brownback, I agree with him on neglected diseases. We increased 
funding sevenfold a couple years ago in that area. We increased 
it again for 2008.
    We're talking about elephantiasis and river blindness, and 
those things, and we will keep on putting----
    Secretary Rice. Yes.
    Senator Leahy [continuing]. Money in. I think it's 
extremely important. I know you agree.
    Secretary Rice. Yes, Senator, if I may, I should have 
mentioned, the President, when he was in Africa, did announce 
an initiative on neglected tropical diseases of about $100 
million, if my memory serves correctly. So it is something that 
we also are very concerned about.
    Senator Leahy. But like the initiatives we hear announced 
on Egypt and Israel, and everywhere else, make sure the money 
goes in the Budget, too, because----
    Secretary Rice. I think it's there, Senator, yes.
    Senator Leahy [continuing]. For example, you requested $275 
million in supplemental aid for the estimated 4 million Iraqis 
who are refugees or internally displaced. We've talked about 
that a bit.
    International relief agencies are also involved in this, 
and the needs are far greater; they say our share is more like 
$450 to $500 million. I've written to the President along with 
several others asking them for a budget amendment to address 
this. I think we have a moral obligation to these people.
    Are we going to get a request for the additional money?
    Secretary Rice. Senator, we do have, in supplemental 
funding, requests on Iraqi refugees. We believe that it's 
appropriate to the tasks that we have. We are trying to do 
several things: We're trying to help U.N. relief agencies; 
we're trying to help the countries involved; we even have some 
direct assistance to refugees, and, of course, with the Iraqi 
Government has undertaken some obligations as well.
    I think our biggest problem right now is to try to increase 
our ability to process people. We're trying to tell them how to 
do that.
    Senator Leahy. Do you feel the amount of money requested is 
adequate?
    Secretary Rice. I believe the two, the needs that we see at 
this time, those resources are adequate, but, of course, it's 
something we watch and gauge all the time, and we wouldn't be 
shy to ask for more if we needed it.
    Senator Leahy. It worries me that we process them very, 
very slowly. I raised issues of everything from scholar rescue 
to the large numbers of refugees. I've visited the refugee 
camps in Jordan and elsewhere. I don't know what we're going to 
do with all these people.
    Now, we've spoken about aid to Colombia, and I've met 
President Uribe many times. I have high regard for the efforts 
he's made, and I've told him that. We've met both publicly, and 
we've had private meetings. We have given Colombia over $5 
billion in aid. They are one of our largest aid recipients in 
the world, so it's not as though they have been neglected.
    For the ninth year in a row, the administration's 
requesting hundreds of millions of dollars in military aid for 
Colombia. This is the ninth year for a 5-year program, but we 
have required certifications from you that the Army's 
respecting human rights and perpetrators are being brought to 
justice.
    There are disturbing reports about continuing abuses by the 
Army and that the administration is providing assistance to 
some of units that are involved in abuse. I heard the 4th, 9th, 
10th, 12th, 13th, and 22nd Mobile Brigades, 14th, 18th, and 
30th Brigade have been linked to human rights abuses. Your 
Department has vetted them to receive assistance.
    Of course, U.S. law, in this case the Leahy law, requires 
you to stop funding unless they're taking effective measures to 
bring the individuals responsible to justice.
    So can you provide for us a list of all the units that have 
been vetted since the beginning of Plan Colombia--this is the 
5-year plan that's now in its ninth year--a list of all units 
that have received U.S. assistance since the beginning of Plan 
Colombia; a list of unvetted units from which individual 
members have been cleared to receive training or equipment.
    Secretary Rice. Senator, I'll provide it to you.
    [The information follows:]

    The answers to both questions are represented in the following 
tables, divided into two sections. Section I contains information on 
vetted units in Colombia during 2004-2007. Section II contains 
information from 2000-2003. The information in Section I was derived 
from annual vetted units lists that Embassy Bogota and the State 
Department use to facilitate the vetting process. The annual vetted 
units list is a working document that is revised whenever credible 
information comes to light that could alter a unit's eligibility for to 
receive U.S. assistance. Note that due to programmatic and budgetary 
circumstances, not all units that were vetted actually received 
training or assistance.

------------------------------------------------------------------------
                                                Received
                  Section I                    assistance      Vetted
------------------------------------------------------------------------
                    2007Army:
    Colombian Military Joint Task Force                 X             X
     Omega Headquarters.....................
    Colombian Military Joint Command--One     ............            X
     (Caribe)...............................
    Colombian Joint Special Operations                  X             X
     Command................................
    Colombian Army Special Forces Command...  ............            X
    Colombian Army Lancero Group (also known            X             X
     as Colombian Army Ranger Unit/Battal-
     ion)...................................
    Commando Battalion (Formerly 1st Special            X             X
     Forces Battalion)......................
        Special Forces Anti-Terrorism Urban   ............            X
         Group..............................
    Apiay Military Hospital.................  ............            X
    Mobile Medical Trauma Team..............  ............            X
        1st GATRA...........................  ............            X
        2nd GATRA...........................  ............            X
        3rd GATRA...........................  ............            X
    Joint Intelligence Operations Center....  ............            X
    Colombian Army Intelligence Center......            X             X
    Regional Military Intelligence Center #4            X             X
    Regional Military Intelligence Center #6            X             X
    Regional Military Intelligence Center #7            X             X
    Regional Military Intelligence Center #8  ............            X
    Colombian Army Military Counter-          ............            X
     Intelligence Center....................
    Colombian Technical Intelligence Center.  ............            X
    Colombian Army Logistics Brigade........  ............            X
        Supply Battalion....................            X             X
        Maintenance Battalion...............            X             X
        Quartermaster Battalion.............  ............            X
        Medical Battalion...................  ............            X
        Transportation Battalion............            X             X
        Combat Services and Support           ............            X
         Battalion..........................
        Dispensary Detachment...............  ............            X
    Colombia Army Engineer School...........  ............            X
    Colombia Army Engineer Maintenance        ............            X
     Battalion..............................
    Colombian Army Logistics School.........  ............            X
    Colombian Army Equestrian School........  ............            X
    Colombian Army Civil Military Relations   ............            X
     School.................................
    Colombian Army Aviation School..........  ............            X
    Colombian Army Lancero School...........  ............            X
    Colombian Army Special Forces School....  ............            X
    Colombian Professional Soldier School...  ............            X
    Colombian Army Retraining Center........  ............            X
    First Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group    ............            X
         01.................................
        2nd Engineer Battalion..............            X             X
        6th High Mountain Battalion.........            X             X
    Second Division Headquarters............            X             X
        27th Counter Guerrilla Battalion....            X             X
        Explosive Ordinance Disposal Group    ............            X
         02.................................
    5th Mobile Brigade......................            X             X
        43rd Counter Guerrilla Battalion....            X             X
        44rd Counter Guerrilla Battalion....            X             X
        45th Counter Guerrilla Battalion....            X             X
        47th Counter Guerrilla Battalion....  ............            X
        27th Combat Services Support Company  ............            X
    22nd Mobile Brigade.....................            X             X
        5th Counter Guerrilla Battalion.....            X             X
        14th Counter Guerrilla Battalion....            X             X
        25th Counter Guerrilla Battalion....            X             X
        36th Counter Guerrilla Battalion....            X             X
        35th Service and Support Company....  ............            X
    18th Brigade............................            X             X
        18th Cavalry Battalion..............  ............            X
        1st Engineer Construction Battalion.            X             X
        18th Engineer Battalion (also known             X             X
         as the 18th Military Engineer).....
        24th Counter Guerrilla Battalion....            X             X
        30th Counter Guerrilla Battalion....            X             X
        49th Counter Guerrilla Battalion....            X             X
        1st Infrastructure Protection         ............            X
         Battalion..........................
        18th Support and Services Battalion.  ............            X
    30th Brigade Headquarters...............            X             X
        15th Infantry Battalion.............            X             X
        5th Mechanized Cavalry..............            X             X
        46th Counter Guerrilla Battalion....            X             X
    Third Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group    ............            X
         03.................................
    6th Mobile Brigade......................            X             X
        48th Counter Guerrilla Battalion....            X             X
        50th Counter Guerrilla Battalion....            X             X
        56th Counter Guerrilla Battalion....            X             X
        60th Counter Guerrilla Battalion....            X             X
        28th Combat Service Support Company.  ............            X
    14th Mobile Brigade Headquarters........            X             X
    3rd Engineer Battalion..................            X             X
    8th Engineer Battalion..................            X             X
    9th Infantry Battalion..................            X             X
        4th High Mountain Battalion.........            X             X
    Fourth Division Headquarters............            X             X
        Explosive Ordinance Disposal Group 4  ............            X
    4th Mobile Brigade......................            X             X
        39th Counter Guerrilla Battalion....  ............            X
        40th Counter Guerrilla Battalion....  ............            X
        41st Counter Guerrilla Battalion....  ............            X
        42nd Counter Guerrilla Battalion....  ............            X
        26th Service and Support Company....  ............            X
    7th Mobile Brigade......................            X             X
        61st Counter Guerrilla Battalion....            X             X
        62nd Counter Guerrilla Battalion....  ............            X
        63rd Counter Guerrilla Battalion....            X             X
        64th Counter Guerrilla Battalion....  ............            X
        29th Combat Service-Support           ............            X
         Battalion..........................
    7th Engineer Battalion..................            X             X
    16th Brigade............................  ............            X
        44th Infantry Battalion.............            X             X
        16th Cavalry Group..................            X             X
        23rd Counter Guerrilla Battalion....            X             X
        29th Counter Guerrilla Battalion....            X             X
        65th Counter Guerrilla Battalion....  ............            X
        16th Service Battalion..............  ............            X
    28th Brigade Command Section............  ............            X
        43rd Infantry Battalion.............            X             X
        45th Infantry Battalion (also known             X             X
         as the 45th Motorized Infantry)....
        32nd Counter Guerrilla Battalion....            X             X
        38th Counter Guerrilla Battalion....  ............            X
    Eastern Specified Command...............  ............            X
    Fifth Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group 5  ............            X
    8th Mobile Brigade......................            X             X
        66th Counter Guerrilla Battalion....            X             X
        67th Counter Guerrilla Battalion....            X             X
        68th Counter Guerrilla Battalion....            X             X
        69th Counter Guerrilla Battalion....            X             X
        30th Combat Service Support Company.  ............            X
    10th Mobile Brigade.....................            X             X
        75th Counter Guerrilla Battalion....            X             X
        76th Counter Guerrilla Battalion....            X             X
        77th Counter Guerrilla Battalion....            X             X
        78th Counter Guerrilla Battalion....            X             X
        24th Combat Service Support Company.  ............            X
    1st Brigade--Command and Staff Section              X             X
     Only...................................
    6th Brigade--Command and Staff Section              X             X
     Only...................................
    9th Brigade.............................            X             X
        26th Infantry Battalion.............            X             X
        27th Infantry Battalion.............            X             X
        9th Artillery Battalion.............  ............            X
        9th Counter Guerrilla Battalion.....            X             X
        9th Service Support Battalion.......  ............            X
    13th Engineer Battalion.................  ............            X
    Sixth Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group 6  ............            X
    9th Mobile Brigade......................  ............            X
        70th Counter Guerrilla Battalion....            X             X
        71st Counter Guerrilla Battalion....            X             X
        72nd Counter Guerrilla Battalion....            X             X
        73rd Counter Guerrilla Battalion....            X             X
        31st Combat Service Support Company.  ............            X
    13th Mobile Brigade.....................            X             X
        87th Counter Guerrilla Battalion....            X             X
        88th Counter Guerrilla Battalion....            X             X
        89th Counter Guerrilla Battalion....            X             X
        90th Counter Guerrilla Battalion....            X             X
        36st Combat Service Support Company.  ............            X
    26th Jungle Brigade.....................  ............            X
        50th Infantry/Jungle Battalion......            X             X
        74th Counter Guerrilla Battalion....            X             X
        26th Service & Support Battalion....  ............            X
        Coast Guard Detachment..............  ............            X
        49th Infantry Battalion.............            X             X
        59th Counter Guerrilla Battalion....            X             X
        25th Infantry Battalion.............            X             X
    Seventh Division Headquarters...........            X             X
    Regional Urban Anti-Terrorist Special               X             X
     Forces Group 5.........................
    11th Mobile Brigade.....................            X             X
        79th Counter Guerrilla Battalion....            X             X
        80th Counter Guerrilla Battalion....            X             X
        81st Counter Guerrilla Battalion....            X             X
        82nd Counter Guerrilla Battalion....            X             X
        33rd Combat Service Support Company.  ............            X
    11th Brigade............................            X             X
        31st Infantry Battalion.............            X             X
        33rd Infantry Battalion.............  ............            X
        10th Counter Guerrilla Battalion....            X             X
        11th Counter Guerrilla Battalion....            X             X
        5th Infrastructure Protection Unit..  ............            X
        11th Service Support Battalion......  ............            X
    14th Engineer Battalion.................            X             X
    Rural Special Forces Brigade............  ............            X
        2nd Special Forces Battalion........            X             X
        3rd Special Forces Battalion........            X             X
        4th Special Forces Battalion........            X             X
    Rapid Deployment Forces.................            X             X
    1st Mobile Brigade......................            X             X
        19th Counter Guerrilla Battalion....            X             X
        20th Counter Guerrilla Battalion....            X             X
        21st Counter Guerrilla Battalion....            X             X
        22nd Counter Guerrilla Battalion....  ............            X
        22nd Support and Services Company...  ............            X
    2nd Mobile Brigade......................            X             X
        15th Counter Guerrilla Battalion....            X             X
        16th Counter Guerrilla Battalion....            X             X
        17th Counter Guerrilla Battalion....            X             X
        18th Counter Guerrilla Battalion....  ............            X
        23rd Support and Services Company...  ............            X
    3rd Mobile Brigade......................            X             X
        51st Counter Guerrilla Battalion....  ............            X
        52nd Counter Guerrilla Battalion....            X             X
        53rd Counter Guerrilla Battalion....            X             X
        54th Counter Guerrilla Battalion....            X             X
        25th Support and Services Company...  ............            X
    25th Army Aviation Brigade/Regiment                 X             X
     (also known as the 25th Brigade).......
        Army Aviation Support Battalion 1...  ............            X
        Army Helicopter Battalion (also                 X             X
         known as the Army Helicopter
         Regiment)..........................
        Army Aviation Air Assault Battalion   ............            X
         2..................................
        Cargo and Transport Battalion.......  ............            X
        Army Aviation Reconnaissance and      ............            X
         Escort Battalion 4.................
        Army Aviation Air Movement Battalion  ............            X
         5..................................
        Army Aviation Air Maintenance         ............            X
         Battalion 6........................
        Army Aviation Air ASPC..............  ............            X
        Instruction Battalion Army Aviation   ............            X
         School.............................
    Counter Narcotics/Drug Brigade..........            X             X
        1st Counternarcotics Battalion......            X             X
        2nd Counternarcotics Battalion......            X             X
        3rd Counternarcotics Battalion......            X             X
        Counter Narcotics Support and         ............            X
         Services Battalion.................
Navy:
    Marine Corps Headquarters...............  ............            X
    Mobile Training Group...................            X             X
    Marine Corps Formation and Training                 X             X
     Center.................................
    Marine Corps Anti-Explosives School.....  ............            X
    Riverine Combat School..................  ............            X
    1st Marine Brigade......................            X             X
        Command and Support Battalion 1       ............            X
         (Formerly listed as Combat Service-
         Support and Security Company)......
        1st Infantry Battalion..............            X             X
        2nd Infantry........................            X             X
        3rd Infantry Battalion..............            X             X
        4th Infantry Battalion..............            X             X
        1st Counter Guerrilla Battalion.....            X             X
        2nd Counter Guerrilla Battalion.....            X             X
        Anti-Kidnapping Unit................  ............  ............
    First Marine Riverine Brigade...........            X             X
        Marine Riverine Battalion 20........  ............            X
        Marine Riverine Battalion 30........  ............            X
        Marine Riverine Battalion 40........  ............            X
        Marine Riverine Battalion 50........  ............            X
        Marine Riverine Battalion 60........  ............            X
    Second Marine Riverine Brigade..........            X             X
        Marine Riverine Assault Battalion 1             X             X
         (Renamed from 6th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 3             X             X
         (Renamed from 7th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 4             X             X
         (Renamed from 8th Infantry
         Battalion).........................
        Marine Riverine Battalion 10                    X             X
         (Formerly part of 1st Riverine
         Brigade)...........................
        Marine Riverine Battalion 70                    X             X
         (Renamed from 9th Infantry
         Battalion).........................
        Marine Riverine Battalion 80                    X             X
         (Renamed from 3rd Counter Guerrilla
         Battalion).........................
    Marine Special Forces Battalion No. 1...  ............            X
    Navy Urban Anti-Terrorist Special Forces  ............            X
     Group Unit 1...........................
    Naval Force South.......................  ............            X
        San Andres/Providencia Specific       ............            X
         Command............................
        Caribbean Submarine Fleet...........  ............            X
        Caribbean Airnaval/Naval Air Group..            X             X
        Caribbean Surface Fleet.............  ............            X
        Training Ship ``Gloria''............  ............            X
        Caribbean Coast Guard...............            X             X
    Naval Special Dive Unit.................  ............            X
    Naval Force Pacific.....................            X             X
        Pacific Naval Regional Intelligence   ............            X
         Center.............................
        Pacific Surface Fleet...............  ............            X
        Pacific Naval Air/Airnaval Group....            X             X
        Pacific Coast Guard.................            X             X
        Pacific Training Center.............  ............            X
Air Force:
    2nd Air Combat Command..................            X             X
    3rd Air Combat Command..................            X             X
    4th Air Combat Command..................            X             X
    5th Air Combat Command..................            X             X
    6th Air Combat Command..................            X             X
    Military Air Transport Command..........            X             X
    Air Maintenance Command.................            X             X
    Air Group East..........................            X             X
    Air Group Caribbean.....................            X             X
    Military Aviation School................  ............            X
        Cadets Group Department.............  ............            X
        Academic Group Department...........  ............            X
        Aeronautical Education Department...  ............            X
        Combat Group Department.............  ............            X
        Technical Group Department..........  ............            X
        Support Group Department............  ............            X
        Air Defense Group Department........  ............            X
Colombian National Police
    Carabineros--Group 1....................            X             X
    Anti-Narcotics Police...................            X             X
    Anti-Narcotics Chemical Unit............  ............            X
    Junglas--Elite Squad....................  ............            X
    Special Operations Command..............  ............            X
    Airport Police Unit.....................  ............            X
Municipal Police Units:
    La Victoria Municipal Police............  ............            X
    Pauna Municipal Police Unit.............  ............            X
    Maripi Municipal Police Unit............  ............            X
    Muzo Municipal Police Unit..............  ............            X
    Otanche Municipal Police................  ............            X
    Quipama Municipal Police................  ............            X
    San Pablo de Borbur Municipal Police....  ............            X
    Tunungua Municipal Police...............  ............            X
    Coper Municipal Police..................  ............            X
    La Palma Municipal Police...............  ............            X
    El Penon Municipal Police...............  ............            X
    Pacho Municipal Police..................  ............            X
    Paime Municipal Police..................  ............            X
    Puerto Salgar Municipal Police..........  ............            X
    San Cayetano Municipal Police...........  ............            X
    Topaipi Municipal Police................  ............            X
    Yocapi Municipal Police.................  ............            X
    Albania Municipal Police................  ............            X
    Barbosa Municipal Police................  ............            X
    Bolivar Municipal Police................  ............            X
    Florian Municipal Police................  ............            X
    Jesus Maria Municipal Police............  ............            X
    La Belleza Municipal Police.............  ............            X
    Puente Nacional Municipal Police........  ............            X
    Santa Helena de Opon Municipal Police...  ............            X
    Sucre Municipal Police..................  ............            X                    2006Army:
    Colombian Military Joint Task Force                 X             X
     Omega Headquarters.....................
    Colombian Military Joint Command-One      ............  ............
     (Caribe)...............................
    Colombian Joint Special Operations                  X             X
     Command................................
    Colombian Army Special Forces Command...  ............  ............
    Colombian Army Lancero Group (also known            X             X
     as Colombian Army Ranger Unit/Battal-
     ion)...................................
    Commando Battalion (Formerly 1st Special            X             X
     Forces Battalion)......................
        1st Marine Special Forces Battalion.  ............            X
        Special Forces Anti-Terrorism Urban   ............            X
         Group..............................
    Apiay Military Hospital.................  ............            X
    Mobile Medical Trauma Team..............  ............            X
        1st GATRA...........................  ............            X
        2nd GATRA...........................  ............            X
        3rd GATRA...........................  ............            X
    Joint Intelligence Operations Center....  ............            X
    Colombian Army Intelligence Center......            X             X
    Regional Military Intelligence Center #4            X             X
    Regional Military Intelligence Center #6            X             X
    Regional Military Intelligence Center #7            X             X
    Regional Military Intelligence Center #8  ............            X
    Colombian Army Military Counter-          ............            X
     Intelligence Center....................
    Colombian Technical Intelligence Center.  ............            X
    Colombian Army Logistics Brigade........  ............            X
        Supply Battalion....................  ............            X
        Maintenance Battalion...............            X             X
        Quartermaster Battalion.............  ............            X
        Transportation Battalion............            X             X
        Combat Support and Services           ............            X
         Battalion..........................
        Medical Battalion...................  ............            X
        Dispensary Detachment...............  ............            X
    Colombia Army Engineer School...........  ............            X
    Colombian Army Logistics School.........  ............            X
    Colombian Army Civil Military Relations   ............            X
     School.................................
    Colombian Army Aviation School..........  ............            X
    Colombian Army Lancero School...........  ............            X
    Colombian Army Special Forces School....  ............            X
    Colombian Professional Soldier School...  ............            X
    Colombian Army Retraining Center........  ............            X
    Colombian Army Equestrian School........  ............            X
    First Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group 1            X             X
    2nd Engineer Battalion..................            X             X
    6th High Mountain Battalion.............  ............            X
    Second Division Headquarters............            X             X
        27th Counter Guerrilla Battalion....            X             X
    Explosive Ordinance Disposal Group 2....  ............            X
    5th Mobile Brigade......................            X             X
        43rd Counter Guerrilla Battalion....            X             X
        44rd Counter Guerrilla Battalion....            X             X
        45th Counter Guerrilla Battalion....            X             X
        47th Counter Guerrilla Battalio.....  ............            X
        27th Combat Services Support Company  ............            X
    22nd Mobile Brigade.....................            X             X
        5th Counter Guerrilla Battalion.....            X             X
        14th Counter Guerrilla Battalion....            X             X
        25th Counter Guerrilla Battalion....            X             X
        36th Counter Guerrilla Battalion....            X             X
        35th Service and Support Company....  ............            X
    Eighteenth Brigade......................            X             X
        18th Cavalry Battalion..............  ............            X
        1st Engineer Construction Battalion.            X             X
        18th Engineer Battalion (also known             X             X
         as the 18th Military Engineer).....
        24th Counter Guerrilla Battalion....            X             X
        30th Counter Guerrilla Battalion....            X             X
        49th Counter Guerrilla Battalion....            X             X
        1st PEEV Battalion..................  ............            X
        18th Support and Services Battalion.  ............            X
        46th Counter Guerrilla Battalion....            X             X
    Third Division Headquarters.............            X             X
    Explosive Ordinance Disposal Group 3....  ............            X
    6th Mobile Brigade......................            X             X
        48th Counter Guerrilla Battalion....            X             X
        50th Counter Guerrilla Battalion....            X             X
        56th Counter Guerrilla Battalion....            X             X
        60th Counter Guerrilla Battalion....            X             X
        28th Combat Service Support Company.  ............            X
    3rd Engineer Battalion..................            X             X
    8th Engineer Battalion..................            X             X
    9th Infantry Battalion..................            X             X
    3rd Cavalry Group.......................  ............            X
    4th High Mountain Battalion.............            X             X
    Fourth Division Headquarters............            X             X
        Explosive Ordinance Disposal Group 4  ............            X
    4th Mobile Brigade......................            X             X
        39th Counter Guerrilla Battalion....  ............            X
        40th Counter Guerrilla Battalion....  ............            X
        41st Counter Guerrilla Battalion....  ............            X
        42nd Counter Guerrilla Battalion....  ............            X
        26th Service and Support Company....  ............            X
    7th Mobile Brigade......................            X             X
        61st Counter Guerrilla Battalion....            X             X
        62nd Counter Guerrilla Battalion....  ............            X
        63rd Counter Guerrilla Battalion....            X             X
        64th Counter Guerrilla Battalion....  ............            X
        29th Combat Service-Support           ............            X
         Battalion..........................
    7th Engineer Battalion..................            X             X
    16th Brigade............................  ............            X
        44th Infantry Battalion.............            X             X
        16th Cavalry Group..................            X             X
        23rd Counter Guerrilla Battalion....            X             X
        29th Counter Guerrilla Battalion....            X             X
        65th Counter Guerrilla Battalion....  ............            X
        16th Service Battalion..............  ............            X
    12th Mobile Brigade.....................            X             X
        83rd Counter Guerrilla Battalion....            X             X
        84th Counter Guerrilla Battalion....            X             X
        85th Counter Guerrilla Battalion....            X             X
        86th Counter Guerrilla Battalion....            X             X
        34th Service Battalion..............  ............            X
    Fifth Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group 5  ............            X
    8th Mobile Brigade......................            X             X
        66th Counter Guerrilla Battalion....            X             X
        67th Counter Guerrilla Battalion....            X             X
        68th Counter Guerrilla Battalion....            X             X
        69th Counter Guerrilla Battalion....            X             X
        30th Combat Service Support Company.  ............            X
    10th Mobile Brigade.....................            X             X
        75th Counter Guerrilla Battalion....            X             X
        76th Counter Guerrilla Battalion....            X             X
        77th Counter Guerrilla Battalion....            X             X
        78th Counter Guerrilla Battalion....            X             X
        24th Combat Service Support Company.  ............            X
    1st Brigade--Command and Staff Section              X             X
     Only...................................
    6th Brigade--Command and Staff Section              X             X
     Only...................................
    9th Brigade.............................            X             X
        9th Counter Guerrilla Battalion.....            X             X
        26th Infantry Battalion.............            X             X
        27th Infantry Battalion.............            X             X
        9th Artillery Battalion.............  ............            X
        9th Service Battalion...............  ............            X
    13th Engineer Battalion.................  ............            X
    Sixth Division Headquarters.............            X             X
        Explosive Ordinance Disposal Group 6  ............            X
    9th Mobile Brigade......................  ............            X
        70th Counter Guerrilla Battalion....            X             X
        71st Counter Guerrilla Battalion....            X             X
        72nd Counter Guerrilla Battalion....            X             X
        73rd Counter Guerrilla Battalion....            X             X
        31st Combat Service Support Company.  ............            X
    13th Mobile Brigade.....................            X             X
        87th Counter Guerrilla Battalion....            X             X
        88th Counter Guerrilla Battalion....            X             X
        89th Counter Guerrilla Battalion....            X             X
        90th Counter Guerrilla Battalion....            X             X
        36th Combat Service Support Company.  ............            X
    12th Brigade (BR 12)--Reinstated as of              X             X
     December 19, 2000......................
        12th Counter Guerrilla Battalion....            X             X
        34th Infantry Battalion.............            X             X
        35th Infantry Battalion.............            X             X
        36th Infantry Battalion.............  ............            X
        12th Engineer Battalion.............  ............            X
        12th Support and Services Battalion.  ............            X
    26th Jungle Brigade.....................  ............            X
        50th Infantry/Jungle Battalion......            X             X
        74th Counter Guerrilla Battalion....            X             X
        26th Service & Support Battalion....  ............            X
        Coast Guard Detachment..............  ............            X
    Seventh Division Headquarters...........            X             X
        Regional Urban Anti-Terrorist                   X             X
         Special Forces Group 5.............
    11th Mobile Brigade.....................            X             X
        79th Counter Guerrilla Battalion....            X             X
        80th Counter Guerrilla Battalion....            X             X
        81st Counter Guerrilla Battalion....            X             X
        82nd Counter Guerrilla Battalion....            X             X
        33rd Combat Service Support Company.  ............            X
    Eleventh Brigade........................            X             X
        31st Infantry Battalion.............            X             X
        33rd Infantry Battalion.............  ............            X
        10th Counter Guerrilla Battalion....            X             X
        11th Counter Guerrilla Battalion....            X             X
        5th Infrastructure Protection Unit..  ............            X
        11th Service Support Battalion......  ............            X
    14th Engineer Battalion.................            X             X
    Rural Special Forces Brigade............  ............            X
        2nd Special Forces Battalion........            X             X
        3rd Special Forces Battalion........            X             X
        4th Special Forces Battalion........            X             X
    Rapid Deployment Forces.................            X             X
    1st Mobile Brigade......................            X             X
        19th Counter Guerrilla Battalion....            X             X
        20th Counter Guerrilla Battalion....            X             X
        21st Counter Guerrilla Battalion....            X             X
        22nd Counter Guerrilla Battalion....  ............            X
        22nd Support and Services Company...  ............            X
    2nd Mobile Brigade......................            X             X
        15th Counter Guerrilla Battalion....            X             X
        16th Counter Guerrilla Battalion....            X             X
        17th Counter Guerrilla Battalion....            X             X
        18th Counter Guerrilla Battalion....  ............            X
        23rd Support and Services Company...  ............            X
    3rd Mobile Brigade......................            X             X
        51st Counter Guerrilla Battalion....  ............            X
        52nd Counter Guerrilla Battalion....            X             X
        53rd Counter Guerrilla Battalion....            X             X
        54th Counter Guerrilla Battalion....            X             X
        25th Support and Services Company...  ............            X
    25th Army Aviation Brigade/Regiment                 X             X
     (also known as the 25th Brigade).......
        Army Helicopter Battalion (also                 X             X
         known as the Army Helicopter
         Regiment)..........................
        Cargo and Transport Battalion.......  ............            X
        Instruction Battalion Army Aviation   ............            X
         School.............................
    Counter Narcotics/Drug Brigade..........            X             X
        1st Counternarcotics Battalion......            X             X
        2nd Counternarcotics Battalion......            X             X
        3rd Counternarcotics Battalion......            X             X
        The Counter Narcotics Support and     ............            X
         Services Battalion.................
    Eastern Specified Command...............  ............            X
        45th Infantry Battalion (also known             X             X
         as the 45th Motorized Infantry)....
Navy:
    Marine Corps Headquarters...............  ............            X
    Mobile Training Group...................  ............            X
    Marine Corps Formation and Training       ............            X
     Center.................................
    Marine Corps Anti-Explosives School.....  ............            X
    Riverine Combat School..................  ............            X
    First Marine Brigade....................  ............            X
        Command and Support Battalion 1       ............            X
         (Formerly listed as Combat Service-
         Support and Security Company)......
        1st Infantry Battalion..............  ............            X
        2nd Infantry Battalion..............  ............            X
        3rd Infantry Battalion..............  ............            X
        4th Infantry Battalion..............  ............            X
        1st Counter Guerrilla Battalion.....  ............            X
        2nd Counter Guerrilla Battalion.....  ............            X
        Anti-Kidnapping Unit................  ............            X
    First Marine Riverine Brigade...........            X             X
        Marine Riverine Battalion 20........  ............            X
        Marine Riverine Battalion 30........  ............            X
        Marine Riverine Battalion 40........  ............            X
        Marine Riverine Battalion 50........  ............            X
        Marine Riverine Battalion 60........  ............            X
    Second Marine Riverine Brigade..........            X             X
        Marine Riverine Assault Battalion 1   ............            X
         (Renamed from 6th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 3   ............            X
         (Renamed from 7th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 4   ............            X
         (Renamed from 8th Infantry
         Battalion).........................
        Marine Riverine Battalion 10          ............            X
         (Formerly part of 1st Riverine
         Brigade)...........................
        Marine Riverine Battalion 70          ............            X
         (Renamed from 9th Infantry
         Battalion).........................
        Marine Riverine Battalion 80          ............            X
         (Renamed from 3rd Counter Guerrilla
         Battalion).........................
        Marine Special Forces Battalion No.   ............            X
         1..................................
    Urban Special Forces Unit 2.............  ............            X
    Anti-Kidnapping Unit....................  ............            X
    Naval Urban Anti-Terrorist Special        ............            X
     Forces Group Unit 1....................
    Naval Force South.......................  ............            X
        Caribbean Naval Force/Naval Forces              X             X
         South..............................
        San Andres/Providencia Specific       ............            X
         Command............................
        Caribbean Submarine Fleet...........  ............            X
        Caribbean Airnaval/Naval Air Group..            X             X
        Caribbean Surface Fleet.............  ............            X
        Training Ship ``Gloria''............  ............            X
        Caribbean Coast Guard...............            X             X
    Navy Special Dive Unit..................  ............            X
        Naval Force Pacific.................            X             X
        Pacific Naval Regional Intelligence   ............            X
         Center.............................
        Pacific Surface Fleet...............  ............            X
        Pacific Naval Air/Airnaval Group....            X             X
        Pacific Coast Guard.................            X             X
        Pacific Training Center.............  ............            X
Air Force:
    2nd Air Combat Command..................            X             X
    3rd Air Combat Command..................            X             X
    4th Air Combat Command..................            X             X
    5th Air Combat Command..................            X             X
    6th Air Combat Command..................            X             X
    Military Air Transport Command..........            X             X
    Air Maintenance Command.................            X             X
    Air Group East (GAORI)..................            X             X
    Air Group Caribbean.....................            X             X
    Military Aviation School................  ............            X
        Cadets Group Department.............  ............            X
        Academic Group Department...........  ............            X
        Aeronautical Education Department...  ............            X
        Combat Group Department.............  ............            X
        Technical Group Department..........  ............            X
        Support Group Department............  ............            X
        Air Defense Group Department........  ............            X
Colombian National Police:
    Carabineros--Group 1....................            X             X
    Anti-Narcotics Police...................            X             X
Anti Narcotics Chemical Unit................  ............            X
    Junglas--Elite Squad....................  ............            X
    Special Operations Command..............  ............            X
    Airport Police Unit.....................  ............            X
Municipal Police Units......................  ............            X
    La Victoria Municipal Police............  ............            X
    Pauna Municipal Police..................  ............            X
    Maripi Municipal Police.................  ............            X
    Muzo Municipal Police...................  ............            X
    Otanche Municipal Police................  ............            X
    Quipama Municipal Police................  ............            X
    San Pablo de Borbur Municipal Police....  ............            X
    Tunungua Municipal Police...............  ............            X
    Coper Municipal Police..................  ............            X
    La Palma Municipal Police...............  ............            X
    Paime Municipal Police..................  ............            X
    Puerto Salgar Municipal Police..........  ............            X
    Topaipi Municipal Police................  ............            X
    Yocapi Municipal Police.................  ............            X
    Albania Municipal Police................  ............            X
    Barbosa Municipal Police................  ............            X
    Bolivar Municipal Police................  ............            X
    Florian Municipal Police................  ............            X
    Jesus Maria Municipal Police............  ............            X
    La Belleza Municipal Police.............  ............            X
    Puente Nacional Municipal Police........  ............            X
    Santa Helena de Opon Municipal Police...  ............            X
    Sucre Municipal Police..................  ............            X                    2005Army:
    Colombian Military Joint Task Force                 X             X
     Omega Headquarters.....................
    Eastern Specified Command...............            X             X
        45th Infantry Battalion (also known   ............            X
         as the 45th Motorized Infantry)....
    Army Special Forces Command.............  ............            X
    Colombian Joint Special Operations                  X             X
     Command................................
        1st Marine Special Forces Battalion.  ............            X
        Special Forces Anti-Terrorism Urban   ............            X
         Group..............................
        Colombian Army Lancero Group (also              X             X
         known as Colombian Army Ranger Unit/
         Battal-  ion)......................
        Commando Battalion (Formerly 1st                X             X
         Special Forces Battalion)..........
        Army Special Operations Command.....  ............            X
        Logistics Brigade...................  ............            X
        Transportation Battalion............            X             X
        Supply Battalion....................  ............            X
        Combat Support and Services           ............            X
         Battalion..........................
        Maintenance Battalion...............  ............            X
        Quartermaster Battalion.............  ............            X
        Medical Battalion...................  ............            X
        Dispensary Detachment...............  ............            X
    Rapid Deployment Forces.................            X             X
    1st Mobile Brigade......................            X             X
        19th Counter Guerrilla Battalion....            X             X
        20th Counter Guerrilla Battalion....            X             X
        21st Counter Guerrilla Battalion....            X             X
        22nd Counter Guerrilla Battalion....  ............            X
        22nd Support and Services Company...  ............            X
    2nd Mobile Brigade......................            X             X
        15th Counter Guerrilla Battalion....            X             X
        16th Counter Guerrilla Battalion....            X             X
        17th Counter Guerrilla Battalion....            X             X
        18th Counter Guerrilla Battalion....  ............            X
        23rd Support and Services Company...  ............            X
    3rd Mobile Brigade......................            X             X
        51st Counter Guerrilla Battalion....  ............            X
        52nd Counter Guerrilla Battalion....            X             X
        53rd Counter Guerrilla Battalion....            X             X
        54th Counter Guerrilla Battalion....            X             X
        25th Support and Services Company...  ............            X
    First Division Headquarters.............            X             X
    11th Brigade............................            X             X
        31st Infantry Battalion.............            X             X
        11th Counter Guerrilla Battalion....            X             X
        5th Infrastructure Protection Unit..  ............            X
        11th Service Battalion..............  ............            X
        33rd Infantry Battalion.............  ............            X
        10th Infantry Battalion.............  ............            X
    4th Mobile Brigade......................            X             X
        40th Counter Guerrilla Battalion....  ............            X
        41st Counter Guerrilla Battalion....  ............            X
        42nd Counter Guerrilla Battalion....  ............            X
        58th Counter Guerrilla Battalion....  ............            X
        26th Service and Support Company....  ............            X
    2nd Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    Second Division Headquarters............            X             X
    18th Brigade............................            X             X
        27th Counter Guerrilla Battalion....            X             X
        30th Counter Guerrilla Battalion....            X             X
        46th Counter Guerrilla Battalion....            X             X
        24th Counter Guerrilla Battalion....            X             X
        49th Counter Guerrilla Battalion....            X             X
        1st PEEV Battalion..................  ............            X
        18th Cavalry Battalion..............  ............            X
        18th Engineer Battalion (also known             X             X
         as the 18th Military Engineer).....
        18th Support and Services Battalion.  ............            X
    5th Mobile Brigade......................            X             X
        43rd Counter Guerrilla Battalion....            X             X
        44th Counter Guerrilla Battalion....            X             X
        45th Counter Guerrilla Battalion....            X             X
        47th Counter Guerrilla Battalion....  ............            X
        27th Combat Services Support Company  ............            X
    22nd Mobile Brigade.....................            X             X
        5th Counter Guerrilla Battalion.....            X             X
        14th Counter Guerrilla Battalion....            X             X
        25th Counter Guerrilla Battalion....            X             X
        36th Counter Guerrilla Battalion....            X             X
        9th Service Battalion...............  ............            X
        25th Counter Guerrilla Battalion....  ............            X
        26th Counter Guerrilla Battalion....            X             X
        35th Counter Guerrilla Battalion....            X             X
        35th Service and Support Company....  ............            X
    14th Engineer Battalion.................            X             X
        Service and Support Company.........  ............            X
    Third Division..........................            X             X
    Divisional Command and Staff Section....  ............            X
    6th Mobile Brigade......................            X             X
        48th Counter Guerrilla Battalion....            X             X
        50th Counter Guerrilla Battalion....            X             X
        56th Counter Guerrilla Battalion....            X             X
        60th Counter Guerrilla Battalion....            X             X
        28th Combat Service Support Company.  ............            X
    3rd Cavalry Group.......................  ............            X
    9th Infantry Battalion..................            X             X
    3rd Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    8th Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    Fourth Division Headquarters............            X             X
    16th Brigade............................  ............            X
        44th Infantry Battalion.............            X             X
        16th Cavalry Group..................            X             X
        23rd Counter Guerrilla Battalion....            X             X
        29th Counter Guerrilla Battalion....            X             X
        65th Counter Guerrilla Battalion....  ............            X
        16th Service Battalion..............  ............            X
    7th Mobile Brigade......................            X             X
        39th Counter Guerrilla Battalion....  ............            X
        61st Counter Guerrilla Battalion....            X             X
        62nd Counter Guerrilla Battalion....  ............            X
        63rd Counter Guerrilla Battalion....            X             X
        64th Counter Guerrilla Battalion....  ............            X
        29th Combat Service Support           ............            X
         Battalion..........................
    9th Mobile Brigade......................  ............            X
        70th Counter Guerrilla Battalion....            X             X
        71st Counter Guerrilla Battalion....            X             X
        72nd Counter Guerrilla Battalion....            X             X
        73rd Counter Guerrilla Battalion....            X             X
        31st Combat Service Support Company.  ............            X
    Fifth Division Headquarters.............            X             X
    1st Brigade--Command and Staff Section              X             X
     Only...................................
    6th Brigade--Command and Staff Section              X             X
     Only...................................
    9th Brigade.............................            X             X
        9th Counter Guerrilla Battalion.....            X             X
        26th Infantry Battalion.............            X             X
        27th Infantry Battalion.............            X             X
        9th Artillery Battalion.............  ............            X
        9th Service Battalion...............  ............            X
    8th Mobile Brigade......................            X             X
        66th Counter Guerrilla Battalion....            X             X
        67th Counter Guerrilla Battalion....            X             X
        68th Counter Guerrilla Battalion....            X             X
        69th Counter Guerrilla Battalion....            X             X
        30th Combat Service Support Company.  ............            X
    13th Engineer Battalion.................  ............            X
        Service and Support Company.........  ............            X
    Sixth Division Headquarters.............            X             X
    12th Brigade--suspended as of September             X             X
     25, 2000, reinstated December 19, 2000.
        12th Counter Guerrilla Battalion....            X             X
        34th Infantry Battalion.............            X             X
        35th Infantry Battalion.............            X             X
        36th Infantry Battalion.............  ............            X
        12th Engineer Battalion.............  ............            X
        12th Support and Services Battalion.  ............            X
    26th Jungle Brigade.....................  ............            X
        50th Infantry/Jungle Battalion......            X             X
        74th Counter Guerrilla Battalion....            X             X
        26th Service & Support Battalion....  ............            X
        Coast Guard Detachment..............  ............            X
    10th Mobile Brigade.....................            X             X
        75th Counter Guerrilla Battalion....            X             X
        76th Counter Guerrilla Battalion....            X             X
        77th Counter Guerrilla Battalion....            X             X
        78th Counter Guerrilla Battalion....            X             X
        24th Combat Service Support Company.  ............            X
    11th Mobile Brigade.....................            X             X
        79th Counter Guerrilla Battalion....            X             X
        80th Counter Guerrilla Battalion....            X             X
        81st Counter Guerrilla Battalion....            X             X
        82nd Counter Guerrilla Battalion....            X             X
        33rd Combat Service Support Company.  ............            X
    25th Army Aviation Brigade/Regiment                 X             X
     (also known as the 25th Brigade).......
        Army Helicopter Battalion (also                 X             X
         known as the Army Helicopter
         Regiment)..........................
        Tactical Air Transportation           ............            X
         Battalion..........................
        Instruction Battalion (Army Aviation  ............            X
         School)............................
    Counter Narcotics/Drug Brigade..........            X             X
        1st Counternarcotics Battalion......            X             X
        2nd Counternarcotics Battalion......            X             X
        3rd Counternarcotics Battalion......            X             X
        Counter Narcotics Support and         ............            X
         Services Battalion.................
    Special Forces Brigade..................  ............            X
        2nd Special Forces Battalion........            X             X
        3rd Special Forces Battalion........            X             X
        4th Special Forces Battalion........            X             X
    Colombian Army Explosive Ordinance        ............            X
     Disposal Team..........................
        1st Division Marte--Headquarters....  ............            X
        2nd Division Marte--Headquarters....            X             X
        3rd Division Marte--Headquarters....  ............            X
        4th Division Marte--Headquarters....  ............            X
        5th Division Marte--Headquarters....  ............            X
        6th Division Marte--Headquarters....  ............            X
    Joint Intelligence Operations Center....  ............            X
    Colombian Military Joint Command Caribe.  ............            X
    Colombian Army Intelligence Center......            X             X
    Colombian Technical Intelligence Center.  ............            X
    Regional Military Intelligence Center #4            X             X
    Regional Military Intelligence Center #6            X             X
    Regional Military Intelligence Center #7            X             X
    Regional Military Intelligence Center #8  ............            X
    Mobile Medical Trauma Team..............  ............            X
        1st GATRA...........................  ............            X
        2nd GATRA...........................  ............            X
        3rd GATRA...........................  ............            X
    Apiay Military Hospital.................  ............            X
    Colombian Army Logistics School.........  ............            X
        Directorate.........................  ............            X
        Sub-Directorate.....................  ............            X
        Human Resources Department..........  ............            X
        Operations--Training Department.....  ............            X
        Public Relations Department.........  ............            X
        Course Development Department.......  ............            X
        Security Company....................  ............            X
        Military Intelligence Section.......  ............            X
        Administration and Logistics          ............            X
         Department.........................
        Studies Inspectors Office...........  ............            X
        Administrative Services Unit........  ............            X
        Training Company....................  ............            X
    Colombia Army Engineer School...........  ............            X
        Command and Staff Section...........  ............            X
        Investigation Department............  ............            X
        Instruction Department..............  ............            X
        Administrative Department...........  ............            X
        Mobile Training Team................  ............            X
    Colombian Army Lancero School...........  ............            X
        Ayacucho Company....................  ............            X
        Bolivar Company.....................  ............            X
        Calarca Company.....................  ............            X
        Santander Company...................  ............            X
    Colombian Army Civil Military Relations   ............            X
     School.................................
    Colombian Professional Soldier School...  ............            X
    Rural Special Forces School.............  ............            X
    Colombian Army Rapid Deployment Force Re- ............            X
     Training Center........................
        Command and Staff Section...........  ............            X
        Technical Area Department...........  ............            X
        Tactical Area Department............  ............            X
        Physical Area Department............  ............            X
        Psychological Preparation Department  ............            X
    4th High Mountain Battalion.............  ............            X
Navy:
    Marine Corps Headquarters...............  ............            X
        Mobile Training Group...............  ............            X
    Marine Corps Formation and Training       ............            X
     Center.................................
        Marine Corps Anti-Explosives School.  ............            X
        Riverine Combat School..............  ............            X
    1st Marine Brigade......................  ............            X
        Command and Support Battalion 1       ............            X
         (Formerly listed as Combat Service-
         Support and Security Company)......
        1st Infantry Battalion..............  ............            X
        2nd Infantry Battalion..............  ............            X
        3rd Infantry Battalion..............  ............            X
        4th Infantry Battalion..............  ............            X
        1st Counter Guerrilla Battalion.....  ............            X
        2nd Counter Guerrilla Battalion.....  ............            X
        Anti-Kidnapping Unit................  ............            X
    First Marine Riverine Brigade...........            X             X
        Marine Riverine Battalion 20........  ............            X
        Marine Riverine Battalion 30........  ............            X
        Marine Riverine Battalion 40........  ............            X
        Marine Riverine Battalion 50........  ............            X
        Marine Riverine Battalion 60........  ............            X
    Second Marine Riverine Brigade..........            X             X
        Marine Riverine Assault Battalion 1   ............            X
         (Renamed from 6th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 3   ............            X
         (Renamed from 7th Infantry
         Battalion).........................
        Marine Riverine Assault Battalion 4   ............            X
         (Renamed from 8th Infantry
         Battalion).........................
        Marine Riverine Battalion 10          ............            X
         (Formerly part of 1st Riverine
         Brigade)...........................
        Marine Riverine Battalion 70          ............            X
         (Renamed from 9th Infantry
         Battalion).........................
        Marine Riverine Battalion 80          ............            X
         (Renamed from 3rd Counter Guerrilla
         Battalion).........................
        Urban Special Forces Unit 2.........  ............            X
        Anti-Kidnapping Unit................  ............            X
        Marine Special Forces Battalion No.   ............            X
         1..................................
        Urban Special Forces Unit 1.........  ............            X
    Naval Force South.......................            X             X
        Caribbean Naval Force...............            X             X
        San Andres/Providencia Specific       ............            X
         Command............................
        Caribbean Submarine Fleet...........  ............            X
        Caribbean Airnaval Group............  ............            X
        Caribbean Surface Fleet.............  ............            X
        Training Ship ``Gloria''............  ............            X
        Caribbean Coast Guard...............            X             X
    Naval Force Pacific.....................            X             X
        Pacific Surface Fleet...............  ............            X
        Pacific Airnaval Group..............            X             X
        Pacific Coast Guard.................            X             X
    Navy Special Dive Unit..................  ............            X
Air Force:
    Military Air Transport Command..........            X             X
    Air Group East..........................            X             X
    2nd Air Combat Command..................            X             X
    3rd Air Combat Command..................            X             X
    4th Air Combat Command..................            X             X
    5th Air Combat Command..................            X             X
    6th Air Combat Command..................            X             X
    Air Maintenance Command.................            X             X
    Air Group Caribbean.....................            X             X
    Military Aviation School................  ............            X
        Cadets Group Department.............  ............  ............
        Academic Group Department...........  ............            X
        Aeronautical Education Department...  ............            X
        Combat Group Department.............  ............            X
        Technical Group Department..........  ............            X
        Support Group Department............  ............            X
        Air Defense Group Department........  ............            X
Colombian National Police:
    Carabineros--Group 1....................            X             X
    Anti-Narcotics Police...................            X             X
    Junglas--Elite Squad....................  ............            X
    Special Operations Command..............  ............            X
    Airport Police Unit.....................  ............            X
Municipal Police Units:
    Pauna Municipal Police..................  ............            X
    Maripi Municipal Police.................  ............            X
    Muzo Municipal Police...................  ............            X
    Otanche Municipal Police................  ............            X
    San Pablo de Borbur Municipal Police....  ............            X
    Tunungua Municipal Police...............  ............            X
    Albania Municipal Police................  ............            X
    Puente Nacional Municipal Police........  ............            X
    Bolivar Municipal Police................  ............            XArmy:
    Eastern Specified Command...............  ............            X
        43rd Infantry Battalion.............  ............            X
    25th Army Aviation Brigade/Regiment                 X             X
     (also known as the 25th Brigade).......
        Army Helicopter Battalion (also       ............            X
         known as the Army Helicopter
         Regiment)..........................
        Tactical Air Transportation           ............            X
         Battalion..........................
        Instruction Battalion...............  ............            X
    Special Forces School...................  ............            X
    Special Forces Brigade..................            X             X
        Commando Battalion..................  ............            X
        1st Special Forces Battalion (also    ............            X
         known as the Commando Battalion)...
        2nd Special Forces Battalion........            X             X
        3rd Special Forces Battalion........            X             X
        4th Special Forces Battalion........            X             X
    Joint Task Force South Headquarters (re-  ............            X
     named Sixth Division Headquarters).....
    12th Brigade--suspended as of September             X             X
     25, 2000, reinstated December 19, 2000.
        12th Counter Guerrilla Battalion....            X             X
        34th Infantry Battalion.............            X             X
        35th Infantry Battalion.............            X             X
        36th Infantry Battalion.............  ............            X
        12th Engineer Battalion.............  ............            X
        12th Support and Services Battalion.  ............            X
    Joint Intelligence Center...............  ............            X
    Counter Narcotics/Drug Brigade..........            X             X
        1st Counternarcotics Battalion......            X             X
        2nd Counternarcotics Battalion......            X             X
        3rd Counternarcotics Battalion......            X             X
        Counternarcotics Support and          ............            X
         Services Battalion.................
    Special Forces Anti-Terrorism Urban       ............            X
     Group..................................
    18th Brigade............................            X             X
        1st PEEV Battalion..................  ............            X
        18th Calvary Battalion..............  ............            X
        18th Engineer Battalion (also known   ............            X
         as the 18th Military Engineer).....
        18th Support and Services Battalion.  ............            X
        27th Counter Guerrilla Battalion....            X             X
        30th Counter Guerrilla Battalion....            X             X
        546th Counter Guerrilla Battalion...            X             X
        24th Counter Guerrilla Battalion....  ............            X
        49th Counter Guerrilla Battalion....            X             X
        52nd Counter Guerrilla Battalion....            X             X
    Rapid Deployment Forces.................            X             X
    1st Mobile Brigade......................            X             X
        19th Counter Guerrilla Battalion....            X             X
        20th Counter Guerrilla Battalion....            X             X
        21st Counter Guerrilla Battalion....            X             X
        22nd Counter Guerrilla Battalion....  ............            X
        22nd Support and Services Company...  ............            X
    3rd Mobile Brigade......................            X             X
        51st Counter Guerrilla Battalion....  ............            X
        52nd Counter Guerrilla Battalion....  ............            X
        53rd Counter Guerrilla Battalion....            X             X
        54th Counter Guerrilla Battalion....  ............            X
        25th Support and Services Company...  ............            X
    Logistics Brigade.......................  ............            X
        Transportation Battalion............            X             X
        Supply Battalion....................  ............            X
        Combat Support and Services           ............            X
         Battalion..........................
        Maintenance Battalion...............  ............            X
        Quartermaster Battalion.............  ............            X
        Medical Battalion...................  ............            X
        Dispensary Detachment...............  ............            X
    1st Brigade--includes: Command and Staff            X             X
     Section Only...........................
    6th Brigade--includes: Command and Staff            X             X
     Section Only...........................
    Colombian Army Logistics School.........  ............            X
        Directorate.........................  ............            X
        Sub-Directorate.....................  ............            X
        Human Resources Department..........  ............            X
        Operations--Training Department.....  ............            X
        Public Relations Department.........  ............            X
        Course Development Department.......  ............            X
        Security Company....................  ............            X
        Military Intelligence Section.......  ............            X
        Administration and Logistics          ............            X
         Department.........................
        Studies Inspectors Office...........  ............            X
        Administrative Services Unit........  ............            X
        Training Company....................  ............            X
    Colombia Army Engineer School--Includes:  ............            X
     Command and Staff Section..............
        Investigation Department............  ............            X
        Instruction Department..............  ............            X
        Administrative Department...........  ............            X
        Mobile Training Team................  ............            X
        Explosive Ordinance Disposal Team...  ............            X
    First Division Headquarters.............            X             X
    Second Division Headquarters............            X             X
    Fourth Division Headquarters............            X             X
    Fifth Division Headquarters.............            X             X
    Colombian Army Rapid Deployment Force Re- ............            X
     Training Center--Includes: Command and
     Staff Section..........................
        Technical Area Department...........  ............            X
        Tactical Area Department............  ............            X
        Physical Area Department............  ............            X
        Psychological Preparation Department  ............            X
    Colombian Army Operations Command--       ............            X
     Includes: Command and Staff Section....
    Colombian Army Lancero Group (also known            X             X
     as Colombian Army Ranger Unit/Battal-
     ion)...................................
        Fire Support Company................  ............            X
    3rd Armor Battalion--Includes: Command    ............            X
     and Staff Section......................
    9th Infantry Battalion--Includes:                   X             X
     Command and Staff Section..............
    4th Mobile Brigade......................            X             X
        39th Counter Guerrilla Battalion....  ............  ............
        40th Counter Guerrilla Battalion....  ............            X
        41st Counter Guerrilla Battalion....  ............            X
        42nd Counter Guerrilla Battalion....  ............            X
    5th Mobile Brigade--Includes: Command               X             X
     and Staff Section......................
        44th Counter Guerrilla Battalion....            X             X
        45th Counter Guerrilla Battalion....            X             X
        47th Counter Guerrilla Battalion....  ............            X
        27th Combat Services Support Company  ............            X
    6th Mobile Brigade--Includes: Command               X             X
     and Staff Section......................
        48th Counter Guerrilla Battalion....            X             X
        50th Counter Guerrilla Battalion....            X             X
        56th Counter Guerrilla Battalion....            X             X
        60th Counter Guerrilla Battalion....            X             X
        Combat Service-Support Company......  ............            X
    7th Mobile Brigade--Includes: Command               X             X
     and Staff Section......................
        29th Combat Service-Support           ............            X
         Battalion..........................
        61st Counter Guerrilla Battalion....            X             X
        62nd Counter Guerrilla Battalion....  ............            X
        63rd Counter Guerrilla Battalion....            X             X
        64th Counter Guerrilla Battalion....  ............            X
    8th Mobile Brigade--Includes: Command               X             X
     and Staff Section......................
        66th Counter Guerrilla Battalion....            X             X
        67th Counter Guerrilla Battalion....            X             X
        68th Counter Guerrilla Battalion....            X             X
        69th Counter Guerrilla Battalion....            X             X
        30th Combat Service Support Company.  ............            X
    9th Mobile Brigade......................            X             X
        70th Counter Guerrilla Battalion....            X             X
        71st Counter Guerrilla Battalion....            X             X
        72nd Counter Guerrilla Battalion....            X             X
        73rd Counter Guerrilla Battalion....            X             X
        31st Combat Service Support Company.  ............            X
    2nd Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    3rd Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    8th Engineer Battalion..................            X             X
        Service and Support Company.........  ............            X
    13th Engineer Battalion.................  ............            X
        Service and Support Company.........  ............            X
    14th Engineer Battalion.................            X             X
        Service and Support Company.........  ............            X
    17th Engineer Battalion.................  ............            X
        Service and Support Company.........  ............            X
    Colombian Army Lancero School...........  ............            X
        Ayacucho Company at Tolemaida         ............            X
         Department.........................
        Bolivar Company at Tolemaida          ............            X
         Department.........................
        Calarca Company at Tolemaida          ............            X
         Department.........................
        Santander Company at Tolemaida        ............            X
         Department.........................
    26th Jungle Brigade.....................  ............            X
        50th Infantry/Jungle Battalion......            X             X
        74th Counter Guerrilla Battalion....            X             X
        26th Service & Support Battalion....  ............            X
        Coast Guard Detachment..............  ............            X
    Colombian Military Joint Task Force                 X             X
     Omega Headquarters.....................
    Joint Task Force Headquarters...........  ............            X
    Army Special Forces Command.............  ............            X
Navy:
    Marine Riverine Brigade.................            X             X
        Marine Riverine Battalion No. 10....  ............            X
        Marine Riverine Battalion No. 20....  ............            X
        Marine Riverine Battalion No. 30....  ............            X
        Marine Riverine Battalion No. 40....  ............            X
        Marine Riverine Battalion No. 50      ............            X
         (former Marine Riverine Battalion
         80 which was re-designated as
         Marine Riverine Battalion 50 on May
         2002)..............................
        Marine Riverine Battalion No. 60....  ............            X
        Mobile Training Group...............  ............            X
        Riverine Combat School..............  ............            X
    Marine Special Forces Battalion No. 1...  ............            X
    Naval Force South.......................            X             X
    Navy Urban Anti-Terrorist Special Forces  ............            X
     Unit...................................
    Navy Special Dive Unit..................  ............            X
    Caribbean Naval Force...................            X             X
        San Andres/Providencia Specified      ............  ............
         Command............................
        Caribbean Submarine Fleet...........  ............            X
        Caribbean Airnaval Group............  ............            X
        Caribbean Surface Fleet.............  ............            X
        Training Ship ``Gloria''............  ............            X
        Caribbean Coast Guard...............            X             X
    Pacific Naval Force.....................            X             X
        Pacific Surface Fleet...............  ............            X
        Pacific Airnaval Group..............            X             X
        Pacific Coast Guard.................            X             X
    1st Marine Brigade......................  ............            X
        1st Infantry Battalion..............  ............            X
        2nd Infantry Battalion..............  ............            X
        3rd Infantry Battalion..............  ............            X
        4th Infantry Battalion..............  ............            X
        1st Counter Guerrilla Battalion.....  ............            X
        2nd Counter Guerrilla Battalion.....  ............            X
        Anti-Kidnapping Unit................  ............            X
        Combat Service-support Company......  ............            X
        Security Company....................  ............            X
    2nd Marine Brigade......................  ............            X
        6th Infantry Battalion..............  ............            X
        7th Infantry Battalion..............  ............            X
        8th Infantry Battalion..............  ............            X
        9th Infantry Battalion..............  ............            X
        3rd Counter Guerrilla Battalion.....  ............            X
        4th Counter Guerrilla Battalion.....  ............            X
        Anti-Kidnapping Unit................  ............            X
        Combat Service-support Company......  ............            X
        Security Company....................  ............            X
Air Force:
    Military Air Transport Command..........            X             X
    Air Group East..........................            X             X
    2nd Air Combat Command..................            X             X
    3rd Air Combat Command..................            X             X
    4th Air Combat Command..................            X             X
    5th Air Combat Command..................            X             X
    6th Air Combat Command..................            X             X
    Air Maintenance Command.................            X             X
    Air Group Caribbean.....................            X             X
    Military Aviation School................  ............            X
        Cadets Group Department.............  ............            X
        Academic Group Department...........  ............            X
        Aeronautical Education Department...  ............            X
        Combat Group Department.............  ............            X
        Technical Group Department..........  ............            X
        Support Group Department............  ............            X
        Air Defense Group Department........  ............            X
Colombian National Police:
    Carabineros--Group 1....................            X             X
    Anti-Narcotics Police...................            X             X
------------------------------------------------------------------------

                               section ii
    For 2000-2003, the following information was compiled from End-Use 
Monitoring Agreements (EUM) records related to security assistance and 
training request cables available to the State Department. EUMs and 
training request cables were used during this period to vet specific 
requests for training or assistance to units (vice the annual lists 
referred to in Section I). Furthermore, we were not able to sort the 
information by year, as the procedures during this period did not 
include the use of annual vetted unit lists. This list, therefore, 
includes a list of all vetted units during the period, most of which 
likely received security assistance. Due to record retention 
procedures, we were not able to confirm independently that every unit 
on the list actually received assistance, such as, for example, whether 
the planned training took place.
2000-2003
Army:
    Eastern Specified Command
    Army Aviation Brigade
                Army Helicopter Battalion
                Tactical Air Transportation Battalion
                Instruction Battalion
    Special Forces School
    Special Forces Brigade
                1st Special Forces Battalion (re-named to Commando 
                Battalion)
                2nd Special Forces Battalion
                3rd Special Forces Battalion
                4th Special Forces Battalion
    12th Brigade--suspended as of September 25, 2000, reinstated 
            December 19, 2000
    24th Brigade--suspended as of November 1999, later disbanded
    Joint Task Force South Headquarters (re-named Sixth Division 
        Headquarters)
                1st Counternarcotics Battalion
                2nd Counternarcotics Battalion
                3rd Counternarcotics Battalion
    18th Brigade
                1st PEEV Battalion
                18th Calvary Battalion
                16th Engineer Battalion
                18th Support and Services Battalion
                27th Counter Guerrilla Battalion
                30th Counter Guerrilla Battalion
                46th Counter Guerrilla Battalion
    24th Counter Guerrilla Battalion
    49th Counter Guerrilla Battalion
    52nd Counter Guerrilla Battalion
    12th Counter Guerrilla Battalion
    34th Infantry Battalion
    35th Infantry Battalion
    36th Infantry Battalion
    12th Engineer Battalion
    12th Support and Services Battalion
    Joint Intelligence Center
    Counter Narcotics/Drug Brigade
                Counter Narcotics Support and Services Battalion
    Special Forces Anti-Terrorism Urban Group
    Rapid Deployment Forces
    1st Mobile Brigade
                19th Counter Guerrilla Battalion
                20th Counter Guerrilla Battalion
                21st Counter Guerrilla Battalion
                22nd Counter Guerrilla Battalion
                22nd Support and Services Company
    3rd Mobile Brigade
                51st Counter Guerrilla Battalion
                52nd Counter Guerrilla Battalion
                53rd Counter Guerrilla Battalion
                24th Counter Guerrilla Battalion
                25th Counter Guerrilla Battalion
    Logistics Brigade
                Transportation Battalion
                Supply Battalion
                Combat Support and Services Battalion
                Maintenance Battalion
                Quartermaster Battalion
                Medical Battalion
                Dispensary Detachment
    1st Brigade--Includes: Command and Staff Section Only
    6th Brigade--Includes: Command and Staff Section Only
    The Army Logistics School
                Directorate
                Sub-Directorate
                Human Resources Department
                Operations--Training Department
                Public Relations Department
                Course Development Department
                Security Company
                Military Intelligence Section
                Administration and Logistics Department
                Studies Inspectors Office
                Administrative Services Unit
                Training Company
    Colombia Army Engineer School--Includes: Command and Staff Section
                Investigation Department
                Instruction Department
                Administrative Department
                Mobile Training Team
    Explosive Ordinance Disposal Team
    Second Division Headquarters--Includes: Command and Staff Section 
        Only
    Fourth Division Headquarters--Includes: Command and Staff Section 
        Only
    Fifth Division--Includes: Command and Staff Section Only
    Colombian Army Rapid Deployment Force Re-Training Center--Includes: 
        Command and Staff Section
                Technical Area Department
                Tactical Area Department
                Physical Area Department
                Psychological Preparation Department
    Colombian Army Operations Command Includes: Command and Staff 
            Section
    Colombian Army Ranger Unit
                Fire Support Company
                Commando Battalion
    3rd Armor Battalion--Includes: Command and Staff Section
    9th Infantry Battalion--Includes: Command and Staff Section
    4th Mobile Brigade
                39th Counter Guerrilla Battalion
                40th Counter Guerrilla Battalion
                41st Counter Guerrilla Battalion
                42nd Counter Guerrilla Battalion
    5th Mobile Brigade--Includes: Command and Staff Section
                43rd Counter Guerrilla Battalion
                44th Counter Guerrilla Battalion
                45th Counter Guerrilla Battalion
                47th Counter Guerrilla Battalion
                27th Counter Guerrilla Battalion
    6th Mobile Brigade--Includes: Command and Staff Section
                48th Counter Guerrilla Battalion
                50th Counter Guerrilla Battalion
                56th Counter Guerrilla Battalion
                60th Counter Guerrilla Battalion
                Combat Service-Support Company
    7th Mobile Brigade--Includes: Command and Staff Section
                29th Combat Service-Support Battalion
                61st Counter Guerrilla Battalion
                62nd Counter Guerrilla Battalion
                63rd Counter Guerrilla Battalion
                64th Counter Guerrilla Battalion
    8th Mobile Brigade--Includes: Command and Staff Section
                66th Counter Guerrilla Battalion
                67th Counter Guerrilla Battalion
                68th Counter Guerrilla Battalion
                69th Counter Guerrilla Battalion
                30th Combat Service Support Company
    9th Mobile Brigade
                70th Counter Guerrilla Battalion
                71st Counter Guerrilla Battalion
                72nd Counter Guerrilla Battalion
                73rd Counter Guerrilla Battalion
                31st Combat Service Support Company
    2nd Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
    3rd Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
    8th Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
    13th Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
    14th Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
    17th Engineer Battalion
                Instruction Replacement Company
                Service and Support Company
Navy:
    17th River Combat Element
    5th River Combat Element
    3rd River Combat Element
    9th River Combat Element
    4th River Combat Element
    12th River Combat Element
    13th River Combat Element
    2nd River Combat Element
    10th River Combat Element
    11th River Combat Element
    14th River Combat Element
    Naval Force South
    Pacific Airnaval Group
    Atlantic Airnaval Group
    Marine Infantry Riverine Brigade (River Battalions 50, 60, 70, 80 
        and 90)
    Marine Infantry Riverine Brigade (River Battalions 20, 30 and 40)
    Marine Special Forces Battalion No. 1
    Marine Riverine Brigade
                Riverine Combat Element 10-1
                Riverine Combat Element 10-2
                Riverine Combat Element 10-3
                Riverine Combat Element 10-4
                Marine Riverine Battalion No. 30
                Marine Riverine Battalion No. 40
    Marine Riverine Battalion No. 50 (former Marine Riverine Battalion 
            80 which was re-designated as Marine Riverine Battalion 50 
            on May 2002)
                Marine Riverine Battalion No. 60
                Mobile Training Group
                Submarine Command
                Riverine Combat School
    Army Special Forces Command
    Navy Urban Anti-Terrorist Special Forces Unit
    Navy Special Dive Unit
    Caribbean Naval Force
                San Andres/Providencia Specified Command
                Caribbean Submarine Fleet
                Caribbean Surface Fleet
                Training Ship ``Gloria''
    Pacific Naval Force
    Pacific Surface Fleet
    Pacific Training Center
    Pacific Coast Guard
    1st Marine Brigade
                1st Infantry Battalion
                2nd Infantry Battalion
                3rd Infantry Battalion
                4th Infantry Battalion
                1st Counter Guerrilla Battalion
                2nd Counter Guerrilla Battalion
                Anti-Kidnapping Unit
                Combat Service-support Company
                Security Company
    2nd Marine Brigade
                6th Infantry Battalion
                7th Infantry Battalion
                8th Infantry Battalion
                9th Infantry Battalion
                3rd Counter Guerrilla Battalion
                4th Counter Guerrilla Battalion
                Anti-Kidnapping Unit
                Combat Service-support Company
                Security Company
Air Force:
    Military Air Transport Command
    1st Tactical Air Support Command
    2nd Tactical Air Support Command
    Air Group South
    Air Group East
    1st Air Combat Command
    2nd Air Combat Command
    3rd Air Combat Command
    4th Air Combat Command
    5th Air Combat Command
    6th Air Combat Command
    Air Maintenance Command
    Air Group Caribbean
    Coast Guard Cartagena
    Military Aviation School
                Cadets Group Department
                Academic Group Department
                Aeronautical Education Department
                Combat Group Department
                Technical Group Department
                Support Group Department
                Air Defense Group Department
Colombian National Police:
    Carabineros--Group 1

    The list below includes un-vetted units from which individuals 
received either United States training or assistance during 2000-2007. 
The individuals from these units who received individual training were 
vetted and the Department did not have any credible evidence of the 
individuals being involved in gross human rights violations.

General Command of the Armed Forces:
    Center of Medicine
    General Command of the Military Forces
    Military Club
    Cooperative Command of the Caribbean
    Office of Arial Installations
    Office of Logistical Processes
    Management Services
    Office of Information Technology
    Medical Clinic of the General Command of The Military Forces
    School of War
    School of Military Penal Justice
    Anti-Explosives Group
    National Hospital
    National Military Hospital
    Military Industries
    Intelligence
    Logistic Support Headquarters
    Quality Control Headquarters
    Legal Office of the General Command of the Military Forces
    Logistical Information System
    Army Operations Headquarters
    Office of the General Command Operations of the Armed Forces
Army:
    National Army of Colombia
    Office of Army Health
    Army Command
    Office of Army Personnel
    Department of Data Communications
    Department of D-3
    Superior War School
    Magistrates Army
    Army Reserves
    Commander of the Assistant General of the Army
    Commander of the Inspector General of The Army
    Command Department of Military Penal Justice
    Center of Military Education
    National Training Center
    Battalion of Support Engineers #21 ``General Jose Ramon De Leiva''
    Ranger School
    School of Professional Soldiers
    Office of Intelligence
    Center of Military Counterintelligence
    Regional Counter Military Intelligence Operations #1
    Military Intelligence Center
    Regional Military Intelligence #01
    Regional Military Intelligence #03
    Regional Military Intelligence #05
    Center of Technical Army Intelligence
    School of Intelligence And Counterintelligence
    Head of Coordination
    Department E-4
    Special Head
    Office of Information
    Office of Integral Action
    Education And Doctrine Headquarters
    Army Logistics Headquarters
    Office of Training And Instruction
    Military Education Battalion
    Center For Military Education
    Advanced Marksmanship Company
    General Carlos Julio Gil Colorado School of Artillery
    School of Weapons And Service
    Cavalry School
    Infantry School
    Military Police School
    National Training Support And Services Battalion
    National Training Center
    Military Parachuting School
    Military School of Sub officials
    Combat Support And Services Battalion
    Military Cadet School
    ``Second Lieutenant Jose Maria Hernandez'' Health Battalion
    Transport Battalion Tarapaca
    Commissariat General Jelog
    Office of Artillery
    Office of Armor
    Office of Exterior Commerce
    Office of Communications
    Financial Office
    Office of Transportation
    Second Command
    Army Operations Headquarters
    Military Intelligence Support And Services Regiment
Army--First Division:
    Task Force Centaurio
    Counter Guerilla Battalion
    2nd Brigade
    Combat Support And Services Battalion #2
    Counter Guerilla Battalion #2
    ``General Jose Maria Cordova'' Mechanical Infantry Battalion
    ``General Antonio Narino'' Mechanical Infantry Battalion
    ``General Francisco Vergara Y Velasco'' Military Engineers
    Military Police Battalion #2
    2nd Command Brigade
    Atlantic Unified Action Group for Personal Freedom
    Magdalena Unified Action Group for Personal Freedom
    10th Brigade
    High Mountain Battalion #7
    Artillery Battalion #2 La Popa
    Combat Support And Service Battalion #10
    Company Artillery Battalion #10 Santa Barbara
    Mechanical Infantry Battalion #6 Cartagena
    Cesar Unified Action Group for Personal Freedom
    Guajira Unified Action Group for Personal Freedom
    Armored Cavalry Group Matamoros D'costa
    Cavalry Group #2 Cr. Juan Jose Rondon
    Special Battalion for Energy And Roads #2
    Special Battalion for Energy And Roads #3
Army--Second Division:
    Urban Anti-Terrorist Special Forces Unit #7
    5th Brigade
    Artillery Battalion #5 ``Ct. Jose Antonio Galan''
    Combat Support And Service Battalion #5
    Military Engineers Battalion #5 ``Cr. Francisco Jose De Caldas''
    Infantry Battalion #40 ``Cr. Luciano D'elhuyer''
    Infantry Battalion #41 ``Gr Rafael Reyes''
    Infantry Battalion #14 ``Ct. Antonio Ricaurte''
    5th Command Brigade
    Santander Unified Action Group for Personal Freedom
    Special Battalion For Energy And Roads #7
    Counter Guerilla Battalion #30
    Center of Training And Instruction 18
    30th Brigade
    Combat Support And Service Battalion #30
    Infantry Battalion #13 ``Gr. Custodio Garcia Rovira''
    Infantry Battalion #15 Gr. ``Francisco De Paula Santander''
    Mechanical Cavalry Unit #5 ``Gr. Hermogenes Maza''
    Special Battalion of Energy And Roads #10
    Counter Guerilla Battalion #44
    15th Mobile Brigade
    Counter Guerilla Battalion #95
    Counter Guerilla Battalion #96
    Mobile Brigade #22
    Counter Guerilla Battalion #36
    Office of Intelligence
    Regional Intelligence #2
    Antiaircraft Artillery Battalion #2 Nueva Granada
Army--3rd Division:
    Command Division 3
    Urban Anti-Terrorist Special Forces Unit #9
    Task Force ``Orion''
    3rd Brigade
    High Mountain Battalion #3 ``Rodrigo Lloreda Caicedo''
    Artillery Battalion #3 ``Batala De Palace''
    Combat Support And Service Battalion #03
    Counter Guerilla Battalion #3
    Military Engineers Battalion #3 ``Cr. Augustin Codazzi''
    Infantry Battalion #8 ``Batalla De Bichincha''
    Infantry Battalion #23 ``Vencedores''
    Military Police Battalion #3
    3rd Command Brigade
    Valle Unified Action Group for Personal Freedom
    8th Brigade
    High Mountain Battalion #5 ``Gr. Urbano Castellanos Castillo''
    Combat Support And Services Battalion #8
    Artillery Battalion #8 ``San Mateo''
    Infantry Battalion #22 ``Ayacucho''
    Military Engineers Battalion #8 ``Francisco Javier Cisneros''
    8th Command Brigade
    Risaralda Unified Action Group for Personal Freedom
    29th Brigade
    29th Command Brigade
    Counter Guerilla Battalion #37
    Counter Guerilla Battalion #57
    Infantry Battalion #9 Boyaca
    Infantry Battalion #7 ``Gr. Jose Hilario Lopez''
    Cavalry Unit #3 ``Gr. Jose Maria Cabal''
    Mobile Brigade #14
    Mobile Command Brigade #14
    Counter Guerilla Battalion #91
    Counter Guerilla Battalion #92
    Counter Guerilla Battalion #94
    Company For Combat Services And Support #37
    Mobile Brigade #19
    Counter Guerilla Battalion #114
    8th Brigade
    Counter Guerilla Battalion #93
Army--4th Division:
    Urban Anti-Terrorist Special Forces Unit #10
    Urban Anti-Terrorist Special Forces Unit #11
    Infantry Battalion #29 ``Tc German Campo Herrera''
    7th Brigade
    Combat Services And Support Battalion #7
    Counter Guerilla Battalion #7
    Military Engineers Battalion #7 ``Gr. Carlos Alban''
    Aerial Transport Infantry Battalion #19 ``Gr. Joaquin Paris''
    Aerial Transport Infantry Battalion #20 ``Gr. Manuel Roergas 
        Serviez''
    Infantry Battalion #21 ``Pantano De Vargas''
    7th Command Brigade
    Meta Unified Action Group for Personal Freedom
    Casanare Unified Action Group for Personal Freedom
    Cavalry Unit #16 ``Guias De Casanare''
    28th Brigade
    Counter Guerilla Battalion #32
    Counter Guerilla Battalion #38
    Counter Guerilla Battalion #58
Army--5th Division:
    5th Command Division
    Urban Anti-Terrorist Special Forces Unit #3
    Urban Anti-Terrorist Special Forces Unit #4
    Counter Guerilla Battalion #28
    Counter Guerilla Battalion #34
    1st Brigade
    High Mountain Battalion #02 ``Gr. Santos Gutierrez Prieto''
    Combat Services And Support Battalion #1
    Artillery Battalion #1 Tarqui
    Special Battalion of Energy And Roads #06
    Infantry Battalion #1 ``Gr. Simon Bolivar''
    Infantry Battalion #2 ``Mariscal Antonio Jose De Sucre''
    Training And Instruction Center #01
    Boyaca Unified Action Group for Personal Freedom
    Cavalry Unit #1 ``Gr. Miguel Silva Plazas''
    6th Brigade
    Combat Support And Services Battalion #6
    Counter Guerilla Battalion #6
    Infantry Battalion #17 ``Gr. Domningo Caicedo''
    Infantry Battalion #16 ``Patriotas''
    Infantry Battalion #18 ``Cr. Jaime Rooke''
    Tolima Unified Action Group for Personal Freedom
    Artillery Battalion #9 Tenerife
    Infantry Battalion #27 Magdalena
    Infantry Battalion #26 Acaique Pigoanza
    Huila Unified Action Group for Personal Freedom
    13th Brigade
    13th Command Brigade
    Communications Battalion #1
    Artillery Battalion #13 ``Gr. Fernando Landazabal Reyes''
    Combat Support And Services Battalion #13
    Counter Guerrilla Battalion #13
    Military Engineers Battalion #13 ``Gr. Antonio Baraya''
    Infantry Battalion #37 ``Presidential Guard''
    Infantry Battalion #38 ``Miguel Antonio Caro''
    Infantry Battalion #39 ``Sumapaz''
    Military Police Battalion #13
    Military Police Battalion #15 ``Bacata''
    Cundinamarca Unified Action Group for Personal Freedom
    Cavalry Unit #13 ``Gr. Ramon Arturo Rincon Quinonez''
    Cavalry Unit #10 ``Tequendama''
    Counter Guerilla Battalion #1
    13th Brigade
    Action Sumapaz Definitive Action Operational Command
    High Mountain Battalion #1 ``Antonio Arredondo''
    Sixth Division
    Urban Anti-Terrorist Special Forces Unit #12
    Counter Guerilla Battalion #12
    Infantry Battalion #36 ``Hunters''
    Caqueta Unified Action Group for Personal Freedom
    Combat Support And Services Battalion
    Counter Guerilla Battalion #59
    Special Battalion of Energy And Roads #11
    Special Battalion of Energy And Roads #9
    Infantry Battalion #25 ``Gr. Roberto Domingo Rico Diaz''
    Infantry Battalion #49 ``Sl Juan Bautista Solarte Obando''
    Counter Guerilla Battalion #99
Army--7th Division:
    Explosive Ordinance Disposal Group
    Special Psychological Operations Division
    4th Brigade
    Artillery Battalion #4 ``Cr. Jorge E. Sanchez Rodriguez''
    Combat Support And Services Battalion #4
    Counter Guerilla Battalion #4
    Special Battalion of Energy And Roads #4
    Infantry Battalion #12 ``Bg. Alfonso Monsalva Florez''
    Task Force ``Atratos''
    Infantry Battalion #10 ``Cr. Atanasio Giradot''
    Infantry Battalion #11 ``Caciquw Nutibara''
    Military Engineers Battalion #04 ``Gr. Pedro Ne Ospina''
    Infantry Battalion #32 ``Gr. Pedro Justo Berrio''
    4th Command Brigade
    Antioquia Unified Action Group for Personal Freedom
    Rio Negro Unified Action Group for Personal Freedom
    Cavalry Group #4 ``Juan Del Corral''
    Combat Support And Services Battalion #11
    Counter Guerilla Battalion #11
    Special Battalion of Energy And Roads #5
    Infantry Battalion #33 ``Junin''
    Cordoba Unified Action Group for Personal Freedom
    14th Brigade
    Combat Support And Services Battalion #14
    Special Battalion of Energy And Roads #08
    Infantry Battalion #03 ``Barbula''
    Infantry Battalion #42 ``Bombona''
    14th Command Brigade
    15th Brigade
    15th Command Brigade
    17th Brigade
    Combat Support And Services Battalion #17
    Counter Guerilla Battalion #33
    Infantry Battalion #47 ``Gr. Francisco De Paula Velez''
    Infantry Battalion #46 ``Voltigeros''
    17th Command Brigade
    Special Army Command
    Joint Task Force Omega
    Divisionary Reaction Force
    Army Troops
    Colombia Aerial Transportation Infantry #28
    Joint Task Force Command
    Counter Guerilla Battalion #15
    Counter Guerilla Battalion #62
    16th Mobile Brigade
    Counter Guerilla Battalion #99
    Counter Guerilla Battalion#106
    Counter Guerilla Battalion #112
    19th Mobile Brigade
    Counter Guerilla Battalion #108
    Counter Guerilla Battalion #109
    Counter Guerilla Battalion #103
    Counter Guerilla Battalion #104
    Counter Guerilla Battalion #105
    Special Operations Joint Command
    Army Special Operations Command
Navy:
    Coast Guard Pacific Command
    Coast Guard Atlantic Command
    Coast Guard Caribbean Command
    Coast Guard Command
    Coast Guard Station of Cartagena
    Second Naval Command
    Colombian Navy
    Assistant General of The Navy
    Chief of Naval Intelligence Adjutants office
    Naval Base Bolivar
    Naval Base Malaga
    Naval Base Leguizamo
    Naval Base San Andres
    Naval Military Attache
    Naval Aviation Command
    Naval Command Force of The Caribbean
    Naval Command Force of The Atlantic
    United Command of Submarines
    Marine Infantry Command
    Center of Oceanographic Information
    Colombian Naval Command
    Colnav School
    Corporation of Science And Technology for the Development of Naval, 
            Maritime And Riverine Industries
    Office of Integral Action
    Supply Depot
    Office of Naval Weapons And Electronics
    Office of Aerial Armament
    Office of Naval Weapons
    Office of Social Wellbeing
    Office of Material Control
    Office of Counterintelligence
    Office of Communications
    Office of Aerial Communications
    Office of Science, Technology and Investigation
    Office of Economics and Finance
    Office of Support
    Office of General Maritime
    Office of Exterior Maritime Intelligence
    Office of Naval Engineering
    Office of Information
    Office of Internal Intelligence
    Office of Chief Naval Operations
    Office of Recruitment And Naval Reserve Control
    Office of Naval Health
    Office of General Services
    Office of Information Systems
    School of Dive And Rescue
    Almirante Padilla School of Naval Cadets
    School of Naval Sub officials In Barranquilla
    School of Naval Intelligence
    School of Surface Warfare
    Naval Force of The Atlantic
    Arc-Fsubca
    Naval Air Force Group of The Atlantic
    Permanent Advisor Group of The Navy
    Naval Air Transport And Riverine Support Group
    Naval Hospital of Cartagena
    Naval General Inspection
    Headquarters of Human Development
    Headquarters of The Naval Chief of Human Development
    Headquarters of The Naval Chief of Human Development
    Headquarters of The Chief of Naval Intelligence
    Headquarters of The Chief of Naval Logistical Operations
    Headquarters of The Chief of Naval Operations
    Classification Committee
    Office of International Affairs
    Office of Institutional Planning And Development
    Office of Logistical Planning
    Office of Material Planning
    Office of Personal Planning
    Intelligence Network for the Caribbean
    Second Naval Command
    Marine Infantry Security Battalion #9
    Marine Infantry Special Forces Battalion #1
    Office of The Preservation of Integrity and Security
    Office of Recruitment and Reserve Control
    Office of Wellbeing and Discipline
    Pacific Naval Aerial Station
    Buenaventura Unified Action Group for Personal Freedom
    Riverine Brigade of Marine Infantry 1
    School of Riverine Combat
    Riverine Battalion of Marine Infantry #10
    Advanced Riverine Post #52
    Riverine Tactical Unit
    Riverine Brigade of Marine Infantry 2
    Marine Infantry Command And Support Battalion #3
    Riverine Assault Battalion #2
    Riverine Assault Battalion #3
    Marine Infantry Brigade #1
    Marine Infantry Counter Guerilla Battalion #2
    Marine Infantry Riflemen Battalion #2
    Marine Infantry Riflemen Battalion #3
    Marine Infantry Riflemen Battalion #4
    Marine Infantry Brigade #2
    Counter Guerilla Battalion #3
    Marine Infantry Riflemen Battalion #6
    Marine Infantry Instruction And Entto Brigade
    Marine Infantry Command And Support Battalion #2
    Marine Infantry Riflemen Battalion #5
    Marine Infantry Instruction Battalion #1
    Marine Infantry Instruction Battalion #2
    Marine Infantry Instruction Battalion #3
    Marine Infantry School of Information
    Marine Infantry Logistical Support Command
    Headquarters of Incorporation and Naval Education
Air Force:
    Colombian Air Force Command
    Office of Health--Colombian Air Force
    Military Aviation School
    Sub-Officials School
    Operational Logistics Headquarters
    National Air Transportation Service
    Planning Section
Colombian National Police:
    National Police of Colombia (CNP)
    CNP--Administration
    CNP--U.S. Embassy
    CNP--High Councilor
    CNP--Presidency
    CNP--Vice Presidency
    Office of Administration And Finance
    Office of Anti-Kidnapping And Extortion
    National Schools Office
    Office of CNP Security
    Office of CNP Health
    National Planning Office
    Canine Police School
    Gabriel Gonzalez School
    School of Judicial Police
    PNC Central Hospital
    Audiovisual Environment
    Hydrocarbons Elite Squad
    Special Operations Command
    Rural Operations Command
    Rifle Police
    Office of Judicial Police And Investigation
    Anti Explosives
    Office of National Police Intelligence
    Anti Narcotics Office
    Anti Narcotics Office Chemical SIU (Special Investigative Unit)
    Elite Jungle Group
    Police Department of Amazonas
    Police Department of Anioquia
    Police Department of Arauca
    Police Department of Atlantico
    Police Department of Bolivar
    Police Department of Boyaca
    Police Department of Caldes
    Police Department of Caqueta
    Police Department of Casanare
    Police Department of Cauca
    Police Department of Cesar
    Police Department of Choco
    Police Department of Cordoba
    Police Department of Cundinamarca
    Police Department of Guajira
    Police Department of Guainia
    Police Department of Guaviare
    Police Department of Huila
    Police Department of Magdalena
    Police Department of Meta
    Police Department of Narino
    Police Department of Norte De Santander
    Police Department of Putumayo
    Police Department of Quindio
    Police Department of Risaralda
    Police Department of Santander
    Police Department of San Andres
    Police Department of San Andres And Providencia
    Police Department of Sucre
    Police Department of Tolima
    Police Department of Valle
    Police Department of Vichada
    ``Carabineros'' Mobile Squadron
    Atlantic Police Department ``Antidisturbios'' Mobile Squadron
    Risaralds Police Department ``Antidisturbios'' Mobile Squadron
    Santander Police Department ``Antidisturbios'' Mobile Squadron
    Bogota Metropolitan Police Department ``Antidisturbios'' Mobile 
        Squadron
    Police Department ``Antidisturbios'' Mobile Squadron
    Aguachica Unified Action Group for Personal Freedom
    Barranquilla Unified Action Group for Personal Freedom
    Bogota Unified Action Group for Personal Freedom
    Bucaramanga Unified Action Group for Personal Freedom
    Cali Unified Action Group for Personal Freedom
    Cartagena Unified Action Group for Personal Freedom
    Cucuta Unified Action Group for Personal Freedom
    Cundinamarca Unified Action Group for Personal Freedom
    Fusagasuga Unified Action Group for Personal Freedom
    Ibague Unified Action Group for Personal Freedom
    Neiva Unified Action Group for Personal Freedom
    Pasto Unified Action Group for Personal Freedom
    Unified Action Group for Personal Freedom
    Manizales Unified Action Group for Personal Freedom
    Medellin Unified Action Group for Personal Freedom
    Pereira Unified Action Group for Personal Freedom
    Sogomoso Unified Action Group for Personal Freedom
    Sucre Unified Action Group for Personal Freedom
    Valledupar Unified Action Group for Personal Freedom
    Unified Action Group for Personal Freedom Police
    Penitentiary Institute
    CNP Metropolitan Bogota
    CNP Metropolitan Cali
    Armenia Municipal Police
    Barancabermeja Municipal Police
    Barranquilla Municipal Police
    Bolivar (Santander) Municipal Police
    Bucaramanga Municipal Police
    Buenaventura Municipal Police
    Buga Municipal Police
    Cartagena Municipal Police
    Cartago Municipal Police
    Chaparral Municipal Police
    Chitaraque Municipal Police
    Choconta Municipal Police
    Cucuta Municipal Police
    Florencia Municipal Police
    Fusagasuga Municipal Police
    Giradot Municipal Police
    Ibague Municipal Police
    La Victoria Municipal Police
    Manizales Municipal Police
    Mariquita Municipal Police
    Melgar Municipal Police
    Monteria Municipal Police
    Muzo Boyaca Municipal Police
    Neiva Municipal Police
    Palmira Municipal Police
    Pamplona Municipal Police
    Pereira Municipal Police
    Pitalito Municipal Police
    Rio Negro Municipal Police
    Santa Marta Municipal Police
    Tocaima Municipal Police
    Tulua Municipal Police
    Tunja Municipal Police
    Turbo Municipal Police
    Ubate Municipal Police
    Villavicencio Municipal Police
    Valle De Aburra Municipal Police
    Valledupar Municipal Police
    Villeta Municipal Police
    Zipaquira Municipal Police
    Anti-narcotics Police Aviation unit
    Bogota Metropolitan Police Department
    Medellin Metropolitan Police Department
    Finance And Customs Police
    Judicial Police and Investigation Section
    Judicial Police and Investigation Anti Explosives Section
    Antioquia Judicial Police and Investigation Section
    Bolivar Judicial Police and Investigation Section
    Cordoba Judicial Police and Investigation Section
    Narino Judicial Police and Investigation Section
    Valle Judicial Police and Investigation Section
    Metropolitan Cali Judicial Police and Investigation Section
    Intelligence Service of the National Police

    We do not believe that the Department has provided assistance to 
units that have committed gross human rights violations. Should we find 
that a unit has committed such violations, we deny assistance to that 
unit until effective measures are taken to bring the alleged 
perpetrators to justice. Since the vetting process began in Colombia, 
the Department has performed more than 150,000 checks on the human 
rights performance of units and individuals throughout the Colombian 
Armed Forces. This is a serious and comprehensive process, and the 
Department of State values it as a means to protect and promote human 
rights in Colombia. Through this process, we believe this system is 
achieving our shared goal of denying U.S. assistance to gross violators 
of human rights
    When making a determination on vetting, the Department explores all 
sources of information that are available to it. This includes 
resources at the U.S. Embassy, bureaus within the Department, and 
information from NGOs and civil society groups. In evaluating 
information from these sources, including that provided by NGOs and 
civil society groups, the Department must make a case-by-case 
determination regarding the credibility of the information provided and 
the nature of allegations of wrongdoing, if any. This determination 
obviously is based in part upon whether information can be corroborated 
with other available information
    There are cases in which allegations are presented for which there 
is merely a single source of information. In these cases, we rely on 
the expertise of the Department's vetting personnel to make the best 
decision regarding the provision or denial of U.S. assistance to the 
unit or individual in question, based on the information at hand.

    Secretary Rice. If I may just say a word about the 
commitment of the Colombian Government to justice against those 
who engage in human rights abuses, I don't think you'll find a 
stronger one in Latin America.
    We have to remember that this is a country that's come out 
of a civil war. They have demobilized 40,000 terrorists, 
including 32,000 paramilitaries. They are trying to reintegrate 
those who can be reintegrated into society. They have increased 
the budget for the Prosecutor General's Office by $40 million 
allowing new investigations.
    I was talking with their Attorney General, who told me that 
they sat with the labor leaders, and they actually went through 
and they said, ``What are the most important cases that we 
should be talking on first?'' They're trying to prioritize 
those cases.
    Yes, this is a very tough place, and it's----
    Senator Leahy. I know it is, and what I'm trying to----
    Secretary Rice. But I just think we have to speak to the 
commitment of this Government to deal with the difficult 
circumstances, and I think their commitment is extraordinary.
    Senator Leahy. One of the reasons I've supported money way 
beyond the 5-year plan, is that I believe that the President is 
trying to make these changes. But your own Bureau of Democracy, 
and Human Rights, and Labor says impunity is the biggest 
problem here. There still are people given impunity. They have 
demobilized a number that then went and got new weapons and 
went right back.
    In some ways this helps the President, if we're doing the 
good-cop/bad-cop routine. That's why I have not released some 
of the money under the Leahy law. We should discuss this 
further.
    Now, we've talked about U.N. peacekeeping. I mentioned that 
the administration votes for these missions, and I agree I'd 
much rather use U.N. peacekeepers than be sending our troops 
all over the world.
    Your budget, though, assumes that each and every one of the 
peacekeeping missions is going to shrink in fiscal year 2009. 
That won't happen. The picture before us in fiscal year 2008 
leaves us short by $266 million, and if projections hold for 
fiscal year 2009, you're between $400 and $600 million short.
    Have we got ourselves in a catch 22?
    Secretary Rice. Senator, I think the point that I would 
underscore is that we're able to meet our commitment to these 
peacekeeping missions. Some of this cash flow, frankly--the 
funding is not required until a specific time. Sometimes the 
missions, unfortunately, don't come into full fruition, which 
has been, for instance, the case in the Somalia mission where 
we want to be able to fund it, but we don't have troops to fund 
because they haven't been able to raise the troops.
    Sometimes we fund through supplemental appropriations, 
which has been the case with Sudan and had been the case with 
Lebanon, and so I believe that we are. Were we not, I would be 
concerned because I think that peacekeeping is extremely 
important for us to be able to support these missions. But we 
have been able to meet our obligations and will continue to 
meet our obligations.
    Senator Leahy. We have Uighurs--I believe I pronounced that 
right, in lock-up?
    Secretary Rice. Uighurs, yes.
    Senator Leahy. In Guantanamo. They were people who were 
sold to U.S. forces by Pakistani bounty hunters for $5,000 each 
in our war against terror about 5 years ago. Now you have 
determined they were not enemy combatants.
    Some have been released and they're in Albania, but, of 
course, they don't speak the language, don't know the customs 
and so forth. The rest are still being imprisoned. Are you just 
going to keep them locked up. We bought them from the bounty 
hunters. It turns out that they had not done anything against 
the United States.
    Is this the face we want to show the rest of the world?
    Secretary Rice. Well, Senator, I'm not sure of the 
circumstances of each and every one, but I do know that our 
concern is to get the Uighurs to places where we didn't feel 
that there would be subject to any kind of repression or abuse. 
And, frankly, that's why they haven't been returned to China.
    Senator Leahy. How about the United States?
    Secretary Rice. That's why they have not been returned to 
East Turkistan.
    Senator Leahy. Sure, but how about bringing them into the 
United States?
    Secretary Rice. Senator, we have some concerns, and you 
know that I also have a partner in DHS and law enforcement that 
has concerns about the admittance of certain people with 
certain kinds of records to the United States, given the 
circumstances that we face on terrorism.
    We've not done this as a group. We've tried to get people 
to places that we think they might be able to survive, but we 
do have to be careful in who we release into the United States.
    Senator Leahy. It's okay to send them to Albania, though.
    Secretary Rice. Well, we believe that there are reasons 
that there might be less difficulty in Albania than here. But 
the main thing is to get them to places where they're not going 
to be subject to repression, and we think that sending them 
back to China would not be a good idea.
    Senator Leahy. These people do not pose a threat to 
anybody.
    Secretary Rice. But not every case of the Uighurs is like 
that.
    Senator Leahy. They're locked up simply because somebody 
sold them to us.
    Senator Gregg.
    Senator Gregg [presiding]. Let me just, in two issues, 
further, the PEPFAR Program. Obviously, at its core it's an 
excellent program which has really helped a lot of people, 
millions of people. But it seems to me that now that it's 
gotten fairly mature, there are some issues that we need to 
revisit.
    The first is it's size, and the fact that once you begin 
this program in a country you are committed for years, and it's 
an expanding number. It doesn't ever shrink in the foreseeable 
future from a budget standpoint because once you start these 
treatments and you start to address these populations, the 
numbers go up. It seems to me it's going to end up being the 
program that eats the rest of the programs around it because 
the ability to fund this program is going to far exceed our 
capacity, if we have to absorb all the effort.
    Which leads me to the second point, which is we're doing 
this in a number of countries where they actually have 
significant reserves. Nigeria has $54 billion of reserves. 
South Africa has $15 billion, I think, of reserves, fairly 
significant reserves, and yet they're bearing almost no 
responsibility for these programs.
    It seems that as we choose countries and we decide to 
expand this program, we should be choosing countries by under 
the nature of the nation's capacity to take on the program. If 
a country can afford to do it themselves, we should ask them 
to, and the culture of the government of that country which is 
whether or not they're willing to pursue it, in which it's an 
issue in South Africa and to some degree an issue in Nigeria.
    So I'm just concerned that we need to revisit this. We've 
got an authorization coming through. If this HIV/AIDS 
authorization is set at $50 billion, it isn't going to be like 
typical authorizations. When this is set at $50 billion, we're 
probably going to have to appropriate the $50 billion because 
that's the nature of the support for this program. That's going 
to take--that's going to basically eliminate large amounts of 
efforts that would occur in other functions of the State 
Department and USAID because the money will have to come from 
somewhere.
    So I do hope that before this administration leaves, 
because it's your initiative, you've done a great job getting 
this up and off the ground. I congratulate you for it, I think 
it's had great progress. I hope you'll sit down and convene a 
think tank, a symposium, about how this program should be left 
for the next administration. Give us your thoughts on that.
    Secretary Rice. We'll do that.
    Senator Gregg. It would be nice if it could be done before 
we have to do this authorization.
    [The information follows:]

    I appreciate your suggestion and agree it will be valuable to 
disseminate the lessons we are learning through PEPFAR. There has been 
an ongoing effort to capture and disseminate these lessons, not only 
for the benefit of our HIV/AIDS initiative but for our other 
international development activities, and indeed for the activities of 
other international partners in development. Now that we are at the end 
of the program's initial 5-year authorization and with a new 
administration coming in, it would be particularly helpful to undertake 
this in a focused way. We are exploring options for a public forum that 
would serve this purpose. In my view, some of the things we would hope 
to cover in this effort are the key development principles that 
undergird PEPFAR, the reasons for the successes we have been able to 
achieve, areas that need to be maintained and expanded, and areas that 
require improvement--both in terms of programs and in terms of 
management and administration. In addition, we will also undertake 
efforts to ensure a smooth transition of the new administration, 
including preparation of transition papers that reflect key lessons 
learned. We have also begun planning for next year's HIV/AIDS 
Implementers' Meeting, which has developed into a key forum for 
dissemination of programmatic best practices to a worldwide audience.

    Senator Gregg. Second, I had the good fortune to develop 
legislation for the State Department to oversee and provide 
funding for Embassies back when I had Commerce, State, Justice 
in the Clinton administration. We pursued a very aggressive 
buildup program for Embassies.
    Secretary Rice. I'm sorry, for?
    Senator Gregg. For Embassies.
    Secretary Rice. Embassies, um-hmm.
    Senator Gregg. That's continued. But we really put a huge 
amount of money in very quickly into that, and it seems to me 
we made some big mistakes. The biggest mistake is that, as I 
wander around looking at these Embassies I say to myself, is 
this America? I mean we've set these fortresses out there, 
these bunkers.
    That has got to be a--obviously, there isn't a middle 
ground because we have to protect our personnel, but there has 
to be some way to make these Embassies more consumer-friendly, 
more country-friendly, more visually-friendly than what we're 
doing. I would hope that you might convene another symposium of 
good things down at the State Department and come up with a 
proposal on that before you folks depart.
    [The information follows:]

    OBO has had the same concerns and goals with regards to the need 
for design excellence and acceptability for the local cultural 
environment. The program has reached an experience level that now 
allows us to focus on further design excellence. OBO has already raised 
this issue with our colleagues at the Industry Advisory Panel, which 
engendered a lengthy discussion about the use of local architects, 
incorporation of local materials, having designs/facades that blended 
more with the locality etc. Also, we have looked at a similar design 
excellence program administered by the General Services Administration. 
In another outreach effort, OBO is meeting this month with the American 
Institute of Architects to advance our goal to have more design 
excellence incorporated into our program. Historically, OBO has used 
limited design competitions as a method of achieving design excellence 
(exempli grati, Berlin and Beijing) and we are re-establishing limited 
competitions for unique locations requiring especially sensitive 
architectural solutions. Another on-going design excellence element is 
our Sustainability Program which also focuses on creating designs 
responsive to the environment and energy efficiency in local 
conditions.
    Finally, with regards to the ``fortress'' aspects we are in the 
process, with Diplomatic Security, of revalidating security 
requirements in a very substantive and systematic manner, with a 
working group established in February of this year. The working group 
is co-chaired by Diplomatic Security and OBO. This working group 
according to its mission statement will review all fundamental elements 
of the Standard Embassy Design (SED) including basic space standards; 
the need for and sizes of each building; the amount of land required 
and how it is acquired; the acquisition and construction phasing 
methods; labor constraints; and the ``bricks and mortar'' requirements; 
and revalidate them in light of cost-benefit and risk management 
analysis, evolving physical and technical threats and new 
countermeasure methods and technologies. As an evolution of the SED, 
OBO is also developing a Vertical SED requirements concept that might 
be used for more urban areas that must adapt to smaller sites. These 
efforts will assist in making our Embassies more consumer and country 
friendly and more visually inviting while factoring in appropriate 
security measures.

    Senator Gregg. So those are my two concerns. I don't expect 
the answers here. I just raise those as very significant--the 
first one is a very significant red flag for the Department. 
The second one I think is, regrettably, a red flag for our 
image as a Nation around the world.
    Secretary Rice. I will not try to give you a full answer to 
either, Senator Gregg, but just to say, on PEPFAR, you know 
what the President's request was on this. We believe that it's 
the appropriate request, but we are trying to work with 
countries that they take over more of the cost, for instance, 
for the heath care systems that have to support these programs.
    Some of this had to get up and running, but we hope that 
over time that those are going to affect the infrastructure 
or--cost, but then the kind of marginal cost of treating a 
patient will not be the same as the cost of treating the first 
set of patients.
    But in some places the programs are, where there is 
capacity, the programs are very, very small. I was just 
visiting in Ukraine with the President. We were with some kids. 
The amount of American money going into that program is very, 
very small, but it's a nice program for us to put a good face 
of America forward. So there's a range of what we do to support 
these programs.
    But I don't disagree with you that we should look at the 
long-term sustainability, and we'll try to do that.
    On the Embassies, we've tried to make them as user-friendly 
as we can. They are strong security standards. We've done 
things, for instance, in China by separating out the consular 
function so that it's more readily accessible to people.
    Also, I think we can't just be confined to the Embassies. 
We are trying to find ways for people to get out and around. 
We're trying to find ways to use virtual diplomacy and to have, 
even in some places where it's safe to have American presence 
posts, which just might be a single Ambassador, or a single 
official who travels on behalf of the United States.
    But I'm aware of the problem that you raise, and we'll try 
to get back to you.
    Senator Gregg. Well, maybe we need an Inman II, you know. I 
mean, let's go back. I mean, there's no reason we should be 
locked down to a securities regime that was put in place 10 
years ago. Maybe it's working well in a number of areas, maybe 
it's not working so well in a number of areas. So why not take 
another look at this in a very substantive, systematic way as 
versus just an anecdotal way? That's my suggestion.
    Senator Leahy [presiding]. I have to agree with Senator 
Gregg on this. It is the face that we give. Sometimes there are 
things long harmed before you wherein there were--you look at 
me, you wonder what were they thinking? The Eagle in London, 
you know, there's beautiful around, and this monstrosity that 
we place in the middle of--was it Grosvenor Square, or 
something?
    Senator Gregg. It doesn't have anything to do with 
security.
    Senator Leahy. It doesn't have anything to do with 
security, but it's ugly as heck when you compare that with 
the--I mean, it's--it goes----
    Senator Gregg. It would be a gift to the English people if 
we tore that down.
    Senator Leahy. Would it ever. I'd vote for that in a 
nanosecond, but they--then you look at the beautiful one we 
built in Ottawa, the U.S. Embassy, the Canadians gave us a 
perfect spot as we did them on Pennsylvania Avenue here. It's 
an absolutely beautiful place, and very open. Yet with all the 
various security things built in.
    I remember being in New Zealand once years ago, and they 
just built a new Embassy there. I don't remember who was 
president at the time, but just massive fortifications around 
it as though somehow there's going to be bands of crazed New 
Zealanders marching on our Embassy in probably the most low-key 
country you could be in.
    I would hope that we would work on it because it's bad 
enough that foreigners come to this country, and so often at 
the point of entry they're treated like they're criminals until 
they prove themselves innocent. I mean I've seen some of the 
very, very rude way they're treated at the port of entry and 
going through immigration and so on. It's especially true if a 
foreign accent is heard.
    These are the same people when they get a few hundred yards 
beyond the airport or wherever it is, they find the American 
people to be very, very friendly, and they have a very good 
time here.
    Incidentally, I wrote and we passed legislation that bans 
the export of clustered munitions that are going to be used by 
any country against civilian targets and those that have a 1 
percent or more failure rate, which could pretty well preclude 
most of the cluster munitions being exported from this country.
    We saw Israel use hundreds of thousands of these bomblets 
in Lebanon, many supplied by the United States. Innocent 
civilians were killed. There were also indiscriminate attacks 
against Israel, but then, as this escalated, cluster munitions 
were used in civilian areas in a manner that violated the 
export agreement on them.
    Am I correct in that? Was the agreement violated?
    Secretary Rice. Senator, I should probably get an answer to 
you.
    [The information follows:]

    The State Department has had an ongoing dialogue with the 
government of Israel regarding its use of cluster munitions in the 
Summer of 2006 in response to the unprovoked attack on Israel by 
Hezbollah. Israel undertook to investigate the entirety of its campaign 
in the 2006 war, including its use of cluster munitions. The findings 
of Israel's investigation were released in the Winograd Report in 
January 2008. Where there have been incidents of concern, Israel has 
made policy changes. We know from our discussions that the Israeli 
Government continues to take this issue seriously.
    The Arms Export Control Act, as amended (AECA) requires that we 
notify Congress if there has been a possible unauthorized diversion, 
misuse, or failure to secure U.S.-provided defense articles or defense 
services. In a letter dated January 29, 2007, the Department notified 
Congress pursuant to section 3(c) of AECA of the use of cluster 
munitions by the government of Israel. The Department has consulted 
closely with Congress regarding Israel's use of cluster munitions, 
including most recently with the Senate Foreign Relations Committee 
staff in May of this year. If you or your staff would like a more 
detailed, classified briefing on this subject, we would be happy to 
arrange one.

    Secretary Rice. I remember that we investigated this 
matter. We talked to the Israelis about it, but I will need to 
get back to you on the conclusion.
    Senator Leahy. I understand the Department issued a 
finding. It may have occurred they were looking at it further.
    Secretary Rice. That's right, they may have, but I don't 
know where it is, and I will get to you as to where we are in 
those discussions.
    Senator Leahy. Is this one of these things that may have a 
way of falling into the wastebasket and, ``I'll get back to 
you, the check's in the mail?''
    Secretary Rice. No, we actually continue to have 
discussions with the Israelis about this, and I know they've 
done a number of internal looks and investigations. I just 
don't know where it is, what the status is, so I'll get back to 
you about it.
    Senator Leahy. All right. Senator Cochran?
    Senator Cochran. Yes. I have nothing.
    Senator Leahy. Senator Gregg.
    Senator Gregg. We thank the Secretary for her extraordinary 
service to this country.
    Secretary Rice. Thank you very much.

                          PREPARED STATEMENTS

    Senator Leahy. We have received statements from the 
Alliance for International Educational and Cultural Exchange 
and the Asia Foundation that will be made part of the hearing 
record.
    [The statements follow:]
 Prepared Statement of the Alliance for International Educational and 
                           Cultural Exchange
    As Chair of the Board of the Alliance for International Educational 
and Cultural Exchange, I appreciate the opportunity to submit testimony 
in strong support of the budget request of $522.444 million for the 
educational and cultural exchange programs administered by the 
Department of State's Bureau of Educational and Cultural Affairs (ECA) 
in fiscal year 2009. If additional funds are available, the Alliance 
urges an increase to $600 million in order to deepen the public 
diplomacy impact of existing activities and to develop new and 
innovative programs. The Alliance also strongly supports the 
President's request for consular resources.
    The Alliance comprises 77 nongovernmental organizations, with 
nearly 8,000 staff and 1.25 million volunteers throughout the United 
States. Through its members, the Alliance supports the international 
interests of 3,300 American institutions of higher education. The 
Alliance is the leading policy voice of the U.S. exchange community. We 
look forward to continuing our productive working relationship with the 
subcommittee, and appreciate the opportunity to offer this testimony.
    U.S. Ambassadors consistently rank exchange programs among the most 
useful catalysts for long-term political change and mutual 
understanding, and as our experiences since September 11, 2001, 
demonstrate clearly, we need public diplomacy and exchanges more now 
than ever. Poll after poll continues to indicate rising anti-
Americanism, even in nations we count among our closest allies. We must 
work to build trust and understanding for our people and our policy 
goals not just in the Muslim world--an effort of critical importance--
but around the globe. To defeat terrorism and address other priority 
global issues, we will need the help of our friends and allies in every 
region of the world.
    The Alliance therefore urges the subcommittee to fund the 
Department of State's exchange budget at $522.444 million in fiscal 
year 2009. If additional funds are available, we urge you to increase 
the allocation to $600 million in order to deepen the public diplomacy 
impact of existing programs while continuing to develop new and 
innovative programs. A $600 million level of spending will allow robust 
funding for targeted, meaningful growth in every region of the world 
for the State Department's existing exchange programs, provide 
additional resources for Islamic exchange, sustain funding for Eurasia, 
Central Asia, and Eastern Europe, fund the administration's request for 
the Partnership for Latin American Youth, and encourage the development 
of new and innovative programs worldwide.
                         core exchange programs
    The following data define the context for increased exchange 
program funding:
  --A June 2007 Pew poll shows that since 2002, the image of the United 
        States has declined in most parts of the world. Favorable 
        ratings of America are lower in 26 of the 33 countries for 
        which trends are available. (Note.--Pew Global Attitudes 
        survey, ``Global Unease with Major World Powers and Leaders'', 
        June 27, 2007)
  --A Congressional Research Service review of 29 reports on public 
        diplomacy revealed that the most common recommendation was to 
        increase exchange funding.
  --State Department evaluations repeatedly show that foreign exchange 
        participants complete their programs in the United States with 
        enhanced positive impressions of the United States, its people, 
        and its values.
    An increase in funding for fiscal year 2009, particularly if the 
subcommittee is able to increase the budget beyond the President's 
request, will allow for meaningful growth in the State Department's 
time-tested exchange programs that remain at the core of our efforts to 
build mutual understanding and respect between the United States and 
critical nations around the world. These well-established programs--
Fulbright, Muskie, and other academic programs, the International 
Visitor Leadership Program, and citizen exchanges--continue to 
demonstrate their relevance and effectiveness in a rapidly evolving 
world.
    The Fulbright Program has unique value in deepening mutual 
understanding between the United States and 150 countries. Visiting 
Fulbright students report the program's deep impact: 99 percent say the 
program increased their knowledge and understanding of the United 
States and its culture; 96 percent shared their Fulbright experiences 
in their home country through media or community activities; 89 percent 
report that their Fulbright experiences allowed them to assume 
leadership roles after their programs. U.S. Fulbright students strongly 
agree (97 percent) that the program strengthens bilateral 
relationships, and deepened their understanding of their host country 
(100 percent). By several indices, American Fulbright students say the 
program enhanced their leadership skills. Upon returning, U.S. 
Fulbright scholars make their campuses and communities more 
international: 73 percent have incorporated aspects of their Fulbright 
experience into courses and teaching methods. Visiting Fulbright 
scholars are also likely to incorporate their experiences in America 
into their professional lives at home: nearly two-thirds of those 
surveyed said that they ``broadened the international aspects of their 
teaching and research in general'' and ``became . . . a resource for 
their colleagues with regard to knowledge and skills learned.''
    Approximately 286,500 United States and foreign nationals have 
participated in the Fulbright Program since its inception over 50 years 
ago. The Fulbright Program awards approximately 8,000 new grants 
annually. In 2007, nearly 7,000 U.S. students and young professionals 
applied for 1,500 available Fulbright grants. One hundred and fifty 
U.S. students will receive on-the-ground training in critical languages 
in advance of their research grants. Of over 2,000 incoming foreign 
students from 135 countries, 400 are teaching their native languages at 
U.S. colleges and universities. Other recent program changes include: 
the cutting-edge research conducted by New Century Scholars, which 
provides deep focus on a single global problem by leading scholars from 
around the world; global expansion of the Fulbright Language Teaching 
Assistants for U.S. students; initiatives focusing on science and 
technology, including awards for foreign students to obtain PhDs in the 
full range of science fields and a ``Lab to Market'' seminar in the 
Silicon Valley for students from developing countries; and enrichment 
programs exposing students from abroad to local communities throughout 
the United States.
    Other valuable academic exchange programs include the Edmund S. 
Muskie Graduate Program which confers fellowships across a wide range 
of sectors to graduate students and professionals in Eurasia; the 
Humphrey Fellowships Program, which provides powerful academic and 
professional training experiences for professionals in the developing 
world; Overseas Educational Advising, through which prospective foreign 
students receive reliable information about American higher education 
and professional assistance in the application process; the Gilman 
International Scholarship Program, which enables American students with 
financial need to study abroad; and English teaching and U.S. Studies 
programs, designed to enhance understanding of American society and 
values.
    The International Visitor Leadership Program (IVLP) continues to be 
ranked by many U.S. Ambassadors as their most effective program tool. 
This results-oriented program allows our Embassies to address directly 
their highest priority objectives by bringing emerging foreign leaders 
to the United States for intensive, short-term visits with their 
professional counterparts. The program also exposes visitors to 
American society and values in homes and other informal settings.
    Fifty-three current heads of government and chiefs of state are 
alumni of the IVLP, including President Nicolas Sarkozy of France, 
President Hamid Karzai of Afghanistan, President Felipe de Jesus 
Calderon Hinojosa of Mexico, Prime Minister Gordon Brown of the United 
Kingdom, and Prime Minister Ehud Olmert of Israel. Georgian President 
Mikheil Saakashvili is an alumnus of the IVLP and Muskie programs, and 
many of his cabinet members either attended a university in the United 
States or participated in exchange programs. Saakashvili and his 
colleagues were among the leaders of the peaceful ``Rose Revolution'' 
in 2003 and Georgia's subsequent transition to democracy.
    According to State Department evaluations, IVLP alumni returned to 
their home countries with positive feelings about democratic values, 
overwhelmingly agreeing with the following statements: citizens should 
have equal rights (99 percent); rule of law is fundamental to democracy 
(99 percent); free and fair elections are cornerstones of democracy (98 
percent); individuals and organizations have the right to free speech 
(97 percent); and independent media are important (95 percent).
    Citizen exchanges continue to engage American citizens across the 
United States in productive international activities. In addition, 
these programs leverage their relatively modest Federal dollars into 
significantly more funding through the participation of local 
communities, schools, businesses, and nongovernmental organizations. 
Increased funding for citizen exchanges would permit an expansion of 
these highly cost-effective activities, particularly in the critical 
area of capacity building in communities across the United States. 
Engaging more Americans as ``citizen diplomats'' can only strengthen 
public diplomacy.
                           regional programs
    The Alliance strongly supports growth in exchanges world-wide. Both 
public opinion polling and the global nature of most current issues--
exempli grati, terrorism, the environment, public health--demand that 
we strengthen our public diplomacy in all world regions. In this brief 
testimony, however, we wish to draw attention to three particularly 
critical areas.
    While the need for exchanges is worldwide, increased engagement 
with the Islamic world is particularly critical as we seek to enhance 
our national security and build understanding, trust, and a sense of 
shared interests between the people of the Islamic world and the 
American people.
    The State Department has created a continuum of programs to reach 
out to Muslim participants, particularly diverse and underrepresented 
populations. The Department has instituted a very successful program of 
micro-scholarships to stimulate in-country English study by teenagers. 
In addition, the Youth Exchange and Study Program (YES), also known as 
the Cultural Bridges Program, brings high school students from the 
Islamic world to live with American families and attend American 
schools for an academic year. For the 2007-08 academic year, the 
program includes over 750 students from 30 countries, the West Bank and 
Gaza. We urge funding of $25 million for YES, which would allow the 
program to reach its long-term goal of 1,000 students.
    The Department has devised a variety of undergraduate exchanges 
including summer institutes, community college programs, and semester 
and year-long programs at 4-year institutions, and expanded the 
Humphrey fellowships for the Muslim world. Under the National Security 
Language Initiative (NSLI), the Department has used summer institutes 
and existing programs such as Fulbright and Gilman to increase U.S. 
capacity in Arabic, Farsi, and Indic languages. The International 
Visitor Leadership Program has targeted `key influencers' in 
predominantly Muslim nations, bringing hundreds of clerics, 
journalists, and women and student leaders to the United States for 
programs emphasizing tolerance, interfaith dialogue, and diversity. 
These programs have had remarkable and consistent impact, and U.S. 
Embassies would welcome many more if funding were available.
    We strongly support the administration's initiative to focus 
additional exchanges on Latin America. The Bureau of Educational and 
Cultural Affairs (ECA) continues to apply its continuum approach to 
Latin America to reach out effectively to non-elite groups in this very 
important region. Program elements include micro-scholarships for 
English language study, summer institutes for student leaders, an 
expanded Youth Ambassadors program, ``supplementary scholarships'' 
covering incidental and travel expenses to allow talented but needy 
students to accept financial aid offered by U.S. colleges and 
universities, and scholarships to attend U.S. community colleges.
    In addition, the Alliance supports continued funding to sustain 
engagement with the countries of Eurasia, Central Asia, and Eastern 
Europe. On-going political transition and challenges to democratic 
change continue in this region, often grabbing international headlines. 
Over the past few years as the world's focus turned to the Middle East, 
funding too has shifted, resulting in a diminished focus on activities 
with countries in this important and potentially volatile region.
    Exchange programs have provided sustained opportunities to expose 
future leaders to American civil society and values, and to foster 
personal and professional relationships between Americans and citizens 
of the region. As political change continues to occur, the Alliance 
urges sustained U.S. engagement throughout the region to maintain the 
ties we have developed and to continue to expose youth and future 
leaders to U.S. ideals and values.
    In addition to increased funding for exchange programs, the 
Alliance strongly supports the President's request to increase funding 
for the Department of State, and particularly for consular operations. 
The State Department has done an excellent job in its management of the 
visa function despite a greatly increased workload in recent years. 
Still, the many new requirements mandated by Congress, especially the 
mandate that nearly all applicants have a personal interview, have 
meant that waits for visa interviews can be very long in critical 
countries, and that visas have become a prominent issue in several key 
bilateral relationships. Bringing qualified people to the U.S. enhances 
our national security. We encourage Congress to continue to provide the 
State Department with additional consular resources.
    Thank you again for this opportunity to voice the Alliance's 
support for a robust appropriation for the educational and cultural 
exchange programs administered by the Department of State's Bureau of 
Educational and Cultural Affairs in fiscal year 2009 as well as for 
increased consular resources. We look forward to working with the 
subcommittee throughout the year ahead to ensure that the United States 
continues to vigorously support the traditional exchange programs that 
have proven their success for the past 50 years, while also developing 
new and innovative programs.
                                 ______
                                 
               Prepared Statement of The Asia Foundation
    Mr. Chairman and members of the subcommittee: The United States and 
Asia face new challenges and pressing needs, complicated by the war on 
terrorism, and fragile democracies. To support political stability and 
economic reform, we must give attention to countries where recent 
events have exacerbated bilateral relations, specifically in the new 
democracies of Asia and in countries with predominantly Muslim 
populations. Potential ties to regional terrorist networks threaten 
regional stability. Human rights abuses continue with impunity in parts 
of Asia. Even though women have made gains in many places, they still 
face economic and political inequities, and in the worst cases, along 
with children, they are victims of trafficking and abuse. The costs of 
poverty and poor governance in Asia are high. Our investments in the 
region must be deep and multifaceted, taking advantage of both 
government and non-government resources. As literally the only non-
governmental American organization that has addressed Asia's needs 
effectively on-the-ground and contributed to American interests in Asia 
for over 50 years, the Asia Foundation, under the Department of State, 
is again requesting $18 million for fiscal year 2009, as it did last 
year.
    In November 2007, Secretary of Defense Gates stated that the 
Department of Defense has ``taken on many of the burdens that might 
have been assumed by civilian agencies in the past, but it is no 
replacement for the real thing--civilian involvement and expertise.'' 
Last week, Chairman of the House Committee on Foreign Affairs Rep. 
Howard Berman noted ``we have to deploy American's finest engineers, 
development experts and diplomats in the campaign for reconstruction 
and stabilization in vulnerable countries.''
    Challenges to governance in Thailand, the Philippines, Mongolia, 
and Indonesia require different approaches than in countries struggling 
to achieve democracy, peace and stability, such as Afghanistan, 
Pakistan, Nepal, and Timor Leste. The Asia Foundation's programs 
benefit from its long experience and on-the-ground presence through 17 
Asian field offices. Its work with and through literally hundreds of 
established and emerging Asian partner organizations make it highly 
knowledgeable, effective, and trusted by Asians. This experience base, 
coupled with a staff of more than 80 percent Asian nationals who have a 
sensitivity and understanding of the local context, makes the 
Foundation different from nearly all other nongovernmental development 
organizations. The Foundation does not bring staff for work on a short-
term basis and then leave. Its commitment is long term. The Foundation 
builds and sustains the kinds of institutions and practices that enable 
Asians to replicate success and be sustainable in the future. In short, 
The Asia Foundation is the premier development organization focusing on 
Asia.
    Of perhaps particular interest to the Congress today is the fact we 
have been working effectively with Muslims and Islamic civil and higher 
education organizations for more than 35 years. Generations of Asians 
know us from our education grants and exchange programs and through the 
more than 40 million English-language books we have provided in more 
than 20 countries (974,000 last year alone). The result is that Asians 
respect, trust, and like the Foundation at a time when much of what 
they hear and think about our country is not very positive. In short, 
The Asia Foundation has an unmatched credibility. It is an 
irreplaceable American and international asset.
    Although the Foundation has operated continuously since 1954, The 
Asia Foundation Act of 1983 authorizes an annual appropriation from the 
Congress. That Act acknowledged the importance of stable funding for 
the Foundation and endorsed its ongoing value and contributions to U.S. 
interests in Asia. For most of the decade until 1995, the Foundation's 
annual appropriation was at least $15 million. However, in fiscal year 
1996, during the Government shutdown year, despite broad bipartisan 
support commending its work, the Foundation's appropriation was cut by 
two-thirds, to $5 million. The Foundation painfully was forced to 
sharply cut back its programs, but struggled to maintain nearly all of 
its most important asset, its field operation structure. Since that low 
point, the committee, in support of the organization's mission, has 
gradually restored funding for the Foundation to its current level of 
$15.3 million.
    The past year has been important for the Asia Foundation. For the 
first time in a decade, the Foundation reached its fiscal year 1995 
funding level and was appropriated $15.3 million, enabling us to take 
on new challenges and start new programs. We greatly appreciate the 
committee's trust and faith in the Foundation to achieve results and 
fulfill its mission to advance U.S. interests. It is clear nevertheless 
that many of the countries where we work in Asia have been under 
served, and local capacity and experience in democracy and governance 
is lacking. The Foundation's approach of working with local partners is 
therefore greatly needed. Past committee report language has commended 
our grant-making role in Asia, and the Foundation, at the Committee's 
encouragement, has expanded its programs in predominantly Muslim 
countries, including Afghanistan, Indonesia, Pakistan, southern 
Thailand, and Mindanao in the southern Philippines.
    Public funds are critical to our capacity to do more to advance 
American interests in Asia. The Foundation has expanded its private 
funding, but potential private donors need to be assured that the U.S. 
Government supports the Foundation's efforts, and private funds are 
always tied to specific projects. Only public funding through this 
appropriation provides the flexibility that allows the Foundation to 
maintain its field presence and respond quickly to new developments, as 
we did in supporting the Emergency Loya Jirga in Afghanistan, where we 
were the first U.S. non-governmental organization on the ground in 
spring 2002.
    Despite the positive attitude and assessment of the Foundation's 
programs in the State Department, USAID, and especially among those 
U.S. Ambassadors with deep Asian experience who often turn to our 
country representatives for information and advice, past and present 
administrations consistently have used previous year requests as the 
baseline for future requests, rather than the congressional 
appropriations of the previous year. This has resulted in a low 
appropriation recommendation in the past and once again for fiscal year 
2009. The result has been that the Foundation's U.S. funding base has 
been shrinking in both relative and absolute terms. With unfavorable 
exchange rates and higher security and operational costs in Asia, and 
its programs more needed than ever, an increase is critical for us this 
year. The Foundation has the experience, expertise, and office/staffing 
base to do so much more of great value to the United States and Asia, 
if sufficient funds are available. Other multilateral and bilateral 
development agencies have increasingly seen the value of the 
Foundation's assets and expanded cooperation on a wide range of 
critical democracy and development programs. But these funds continue 
to be tied to specific projects and do not allow the flexibility to 
enable us to address urgent needs as they arise. Therefore, we urgently 
but respectfully ask the committee to sustain and increase its support 
for the vital work the Foundation is engaged in on behalf of the U.S. 
interests in this complex region. The Asia Foundation is requesting a 
modest increase to $18 million.
    In making this request, we are very aware of the fiscal year 2009 
budgetary pressures on the committee. However, an increase would enable 
The Asia Foundation to strengthen program investments it has begun in 
recent years with congressional encouragement. We have proved that 
modest increases for the Foundation not only enhance America's 
engagement and image in the region, it also has a great impact on the 
lives of the people of Asia, notably in the areas of protecting women 
and children against trafficking; promoting women's rights; building 
democracy and critical government capacity in Afghanistan and Timor 
Leste; increasing tolerance in predominantly Muslim nations like 
Indonesia, Bangladesh and Pakistan; securing human rights in Cambodia, 
Sri Lanka, and Nepal; and strengthening good governance and civil 
society throughout Asia.
         the asia foundation's mission, expertise, and approach
    The Asia Foundation is committed to the development of a peaceful, 
prosperous, just, and open Asia-Pacific region. Our core capabilities 
and primary program concentrations are central to U.S. interests in the 
region:
  --Democracy, Human Rights and the Rule of Law.--Strengthening 
        democratic and civil society institutions; encouraging an 
        active, informed and responsible nongovernmental sector; 
        advancing the rule of law; promoting free and fair elections; 
        and building institutions to uphold and protect human rights;
  --Economic Reform and Development.--Reducing barriers at the national 
        and regional level to the formation and productive functioning 
        of small business and entrepreneurship;
  --Women's Political and Economic Empowerment.--Encouraging women's 
        participation in public life; protecting women's rights and 
        supporting advocacy training; and prevention of trafficking and 
        domestic violence, including supportive efforts to protect and 
        provide shelter to victims;
  --Peaceful and Stable Regional Relations.--Promoting U.S.-Asian and 
        intra-Asian dialogue on security, regional economic 
        cooperation, law and human rights.
    While the Foundation undertakes some development work directly with 
its own staff experts, the Foundation remains faithful to its primary 
focus on its grant-making role, steadily building institutions and 
strengthening Asian leadership and institutions for democratic 
societies. Foundation assistance provides training, technical 
assistance, and seed funding for new, local organizations, all aimed at 
promoting reform, building Asian capacity and strengthening U.S.-Asia 
relations. Today, Foundation grantees can be found in every sector in 
Asia, leaders of government and industry and at the grassroots level, 
and in an increasingly diverse civil society. The Foundation is 
distinctive in this role, not only providing the technical assistance 
necessary, but also in providing grants that cover the often neglected 
nuts and bolts necessities to support that capacity-building effort.
    Urgent political and security needs in Asia have increased the need 
for experienced and credible American actors in the region. In Asia, 
the Asia Foundation is a well recognized and respected American 
organization, but its programs are grounded in Asia, helping to solve 
national and local problems in cooperation with Asian partners.
                                programs
    The Asia Foundation makes nearly 800 grants per year. These include 
such diverse efforts as support for: institutional reform of the Human 
Rights Court in Indonesia and judicial branch in Timor Leste; the 
Office of the President and Council of Ministers Secretariat in 
Afghanistan; conflict and mediation programs in Nepal, China and Sri 
Lanka; human rights and conflict management in Cambodia, the 
Philippines and Thailand; educational reform in Muslim schools in 
Indonesia and Thailand; counter corruption in the Philippines and 
Mongolia; strengthening civil society and the protection of migrant 
labor rights in China; improved support among Southeast Asian Muslim 
organizations on democracy and tolerance; small and medium enterprise 
policy reform in Vietnam and Bangladesh; anti-trafficking and women's 
rights in Afghanistan, Pakistan, India, Cambodia and Thailand; and 
regional dialogues to expand peaceful regional relations. A full 
listing of programs may be found on our website www.asiafoundation.org.
                               conclusion
    The Asia Foundation, with its experienced, highly qualified and 
committed staff, is first and foremost a field-based, grant-making 
organization, committed to maximizing program impact in Asia while 
keeping costs low, despite the growing challenge of providing security 
to field offices and protecting staff. If the committee provides 
additional funding for Foundation programs in this fiscal year, we 
pledge to use those funds to focus on further expanding our on-the-
ground programming to build democratic capacity, strengthen civil 
society, increase economic opportunity, protect women, and work with 
moderate Muslim groups as described above. The Foundation budget needs 
to grow in order to meet the growing challenges to American interests 
in the Asian region.
    The increase in funding to $18 million that we seek is essential if 
the Foundation is to build on its increasing level of success in 
contributing to the development of stable, democratic and peaceful 
societies in Asia. We respectfully urge that the Committee sustain its 
support for the Asia Foundation, and thereby demonstrate our strong, 
shared commitment to addressing the challenges and opportunities in 
Asia today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. We will leave the record open for questions 
from other committee members:
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.
            Questions Submitted by Senator Patrick J. Leahy
    Question. The wars in Iraq and Afghanistan are creating serious 
staff and funding shortages for other State Department and USAID 
missions around the world. The State Department has filled only 79 
percent of its positions worldwide--so more than 20 percent are vacant.
    How many State Department and USAID staff have been shifted from 
other posts to Iraq?
    Answer. As of January 2008, the Department's overseas vacancy rate 
was approximately 11 percent and the domestic vacancy rate was 
approximately 18 percent, for a total vacancy rate of 13 percent 
overall. The Department's 13 percent vacancy rate reflects the 
insufficient number of Department personnel to adequately conduct 
foreign language and other types of training while continuing to staff 
operational positions.
    The rapid growth of staffing needs in Iraq and Afghanistan required 
the Department to shift resources in a number of ways. The Department 
utilized approximately 100 Diplomatic Readiness Initiative positions, 
originally intended to create a training float, as a basis to quickly 
ramp up operations in Iraq and Afghanistan. Each year the Department 
has also left lower priority domestic and overseas positions vacant in 
order to concentrate staffing resources on higher policy priorities, 
including long-term language training in superhard languages such as 
Arabic and Chinese. Approximately 140 domestic and overseas positions 
were ``frozen'' in this manner during the 2007 assignments cycle. We 
have also filled positions in Iraq with employees on short-term and 
long-term temporary duty [TDY] assignments. In those cases, the 
personnel resources were not shifted permanently to Iraq, but there may 
have been temporary gaps in coverage because the Department does not 
have adequate personnel to backfill behind the employees serving on 
TDY.
    If approved and fully funded by Congress, the Department's fiscal 
year 2009 request for 1,543 new positions (1,095 from State Operations 
Appropriations and 448 fee-funded positions under the Border Security 
Program) would significantly reduce the Department's overall vacancy 
rate. The 300 new positions requested for language training, for 
example, would cut the Department's overseas vacancy rate by half to 
approximately 6 percent.
    Question.Approximately how much has been spent in Iraq that would 
otherwise have been available for Embassy operations and security and 
for assistance programs in other countries?
    Answer. The administration has requested funding specifically for 
Embassy operations as well as assistance programs in Iraq in both 
annual and supplemental appropriations requests since 2004. With the 
exception of approximately $88 million provided for staff salaries in 
Iraq and the operation of the Office of Iraq Affairs housed at the 
State Department in Washington, DC out of the Diplomatic and Consular 
Programs account between fiscal year 2004 and fiscal year 2008, all 
other costs related to Iraq have been supported by supplemental funding 
requested and appropriated specifically for Iraq. In addition, no 
assistance funding has been diverted from other country programs for 
use in Iraq.
                            embassy baghdad
    Question. The fiscal year 2008 supplemental requests an additional 
$1.5 billion to operate the huge new Embassy in Baghdad, but that hides 
the total cost of operations planned for 2008. Using carryover funds 
you plan to spend $2.5 billion, a 100 percent increase over fiscal year 
2007.
    You have requested an additional $310 million for construction 
projects at the new Embassy compound. The building has only just been 
certified for occupancy, and you need it to be still larger?
    Answer. Within amounts requested for the Department of State in the 
fiscal year 2008 Supplemental, approximately $75 million would be used 
for follow-on construction projects at the New Embassy Compound [NEC]. 
The completed NEC consists of 27 facilities; the requested funds would 
not be used to enlarge any building within the NEC but rather would go 
towards re-configuring spaces within two of the office buildings.
    When the NEC was originally designed in 2004/2005, it was not 
expected that offices working under the American Ambassador and offices 
associated with the MNF-I Commander would need to be co-located. 
However, circumstances have changed and it continues to be critical to 
have diplomatic and military offices operate in the same location. The 
current amount of classified workspace in two office buildings in the 
NEC is not adequate to support all Mission and MNF-I staffers who 
routinely process classified material in their daily work. The 
Department is addressing these new requirements through follow-on 
projects, funding for which is in the fiscal year 2007 enacted 
supplemental (approximately $75 million), and the fiscal year 2008 
supplemental request (approximately $75 million). The follow-on 
projects, totaling $150 million also address requirements for 
additional secure temporary housing (trailers with overhead cover), 
other security enhancements to the NEC, and food service in addition to 
the reconfiguration of space in the two office buildings.
    Question. A significant portion of the additional construction 
would delay when staff can move in until 2010.
    In 2005, when Congress approved the largest and most costly Embassy 
ever built at $592 million we were told it was urgently needed for our 
people serving in Iraq. Now this Embassy is finally ready to be 
occupied and you are asking us to delay further.
    Why keep staff in trailers for another 2 years while a much more 
secure compound sits empty?
    Answer. The New Embassy Compound [NEC] in Baghdad does not sit 
empty. The post has implemented a plan to begin occupancy of the staff 
apartments as of May 23, 2008. Approximately 50 percent of the 600 
staff apartments are being subdivided with drywall in order to 
accommodate two residents. This project provides additional secure 
housing. In addition, certain components of the Embassy not requiring 
classified space will relocate their work operations to unclassified 
facilities in an annex building within the NEC as of June 2008.
    If the follow-on projects for which funding has been requested in 
the fiscal year 2007 and fiscal year 2008 supplementals receive full 
congressional approval by the end of May 2008, occupancy and use of 2 
office structures among the 27 buildings within the NEC would occur in 
June or July 2009 for the New Office Building and August 2009 for the 
Interim Office Building.
    The Department has also requested funding for additional secure 
temporary housing on the NEC in its budget requests. This housing would 
consist of trailers protected with overhead cover.
    The Department takes very seriously its responsibility for and 
commitment to the physical security of its employees. Employees are 
being moved out of unprotected trailers with no overhead cover and into 
secure permanent housing as rapidly as possible. Any additional housing 
to be constructed on the NEC would be as secure as possible given the 
need for speed of construction and prudent use of appropriated funds.
    Question. In the 7 years of the Bush administration the 
Palestinians' per capita income has plummeted by 40 percent. At the 
same time, Israeli security checkpoints and other impediments to 
Palestinian commerce have increased.
    According to press reports 2 weeks ago, the Israeli Government has 
said it will remove 50 checkpoints in the West Bank, and recent reports 
are that it has begun doing so. But that would leave about 550. We all 
recognize and support Israel's right to security. But I have seen how 
the West Bank has become a maze of fences, bypass roads, barriers and 
check points. By making it virtually impossible for Palestinians to get 
produce to market and to their jobs in Israel, hatred, desperation, and 
violence only increase. Is removing less than 10 percent of the 
checkpoints going to make a significant difference?
    Answer. Israel has committed to reducing obstacles to Palestinian 
movement in the West Bank, both under the Roadmap, and in the November 
2005 Agreement on Movement and Access that Secretary Rice brokered. 
There is an urgent need for progress in this area to build confidence 
between the parties, sustain popular support for negotiations, as well 
as to facilitate progress on important economic and capacity building 
projects for the Palestinians.
    Secretary Rice has urged the Government of Israel to focus on 
removing obstacles to movement that will create a qualitative 
improvement in Palestinians' way of life rather than focusing on sheer 
numbers which may have limited or no effect. The government of Israel 
has committed to such a policy, and is focused initially on improving 
movement in and around Jenin, where the Palestinian Authority is 
currently conducting a law and order campaign as part of a broader 
initiative to improve economic and social conditions, as well as 
removing checkpoints near other big cities. For instance, on May 18 
Israel removed a checkpoint south of Hebron that Palestinian business 
leaders had identified as a significant impediment to doing business.
    Much more remains to be done. Improved performance by the 
Palestinian Authority Security Forces [PASF] to uphold law and order 
and combat terrorism, along with better Israeli-Palestinian security 
coordination, will facilitate continued progress. Progress on the 
ground remains a vital component of overall progress towards peace, and 
as such will remain a high priority for the Department.
    Question. The press reported that a few hours after you left the 
Middle East a couple of weeks ago, the Israeli Government announced 
plans to build hundreds more homes in the Palestinian part of 
Jerusalem. Your response was that ``settlement activity should stop'', 
but I have lost count how many times this administration has said that 
and yet it continues. Apparently settlement construction has been 
booming since Annapolis. What should we take away from this--that the 
administration is powerless to convince the Israeli Government to stop 
it?
    Answer. We continue to call on Israel to end settlement expansion 
and to remove unauthorized outposts, consistent with the Roadmap. 
Continued settlement construction is a problem. While we have seen far 
more announcements in recent months than actual construction on the 
ground, both announcements and actual construction are unhelpful. These 
activities do not contribute to a positive atmosphere supportive of 
negotiations, and only feed Palestinian and broader Arab skepticism 
about Israel's commitment to peace. Settlements are one of the many 
Roadmap issues that Lt. Gen. William Fraser is addressing as he works 
to monitor and promote progress on implementation of the Roadmap. At 
the same time, it is vital that we focus on helping the parties achieve 
their shared goal of a peace agreement before the end of the year, 
because then we will know what land belongs in Israel and what belongs 
in Palestine. But nothing that is undertaken under any guise can 
prejudge the outcome of negotiations.
    Question. Past efforts by the Chinese Government have not succeeded 
in resolving the conflict over Tibet. Chinese officials now say things 
are back to ``normal,'' but we know that what they call normal in Tibet 
is like a pot that is in a constant state of almost boiling over.
    We want closer relations with China. We also want to see an end to 
the repression in Tibet. Six years of low level talks between China and 
the Dalai Lama's representatives have achieved nothing. You have urged 
the Chinese authorities to talk directly with the Dalai Lama, but they 
have consistently refused.
    What do we do now?
    How can we convince the Chinese that there is a solution to this 
conflict that serves the interest of both China and the Tibetans?
    Answer. We welcome the May 4 meeting between Chinese officials and 
the Dalai Lama's representatives, Lody Gyari and Kelsang Gyaltsen, in 
Shenzhen as a constructive first step in resolving the longstanding 
tensions between Beijing and China's Tibetan people. While we do not 
know the details of the discussions, Mr. Gyari has stated that concrete 
proposals were made by both sides. We note that the two sides agreed to 
meet for a seventh round of formal dialogue, and we hope that this next 
round will be scheduled soon and lead to concrete results.
    We share your concerns that the previous six rounds of dialogue 
from 2002 to 2007 yielded little substantive progress. As we have noted 
to the Chinese, dialogue that does not result in tangible improvements 
in the lives of Tibetans is likely to create cynicism and weaken 
support for the Dalai Lama's non-violent approach in the Tibetan 
community. We urge the Chinese Government to engage in substantive 
dialogue with the Dalai Lama's representatives and with the Dalai Lama 
himself, noting that the Dalai Lama has publicly and repeatedly said he 
does not call for independence for Tibet, has renounced all violence, 
and has expressed his support for the Beijing Olympics.
    Tibetans have asked for increased autonomy to govern their own 
affairs within Tibetan areas, particularly on issues such as education, 
language, religious practices, and other matters that are important to 
the protection of Tibet's unique cultural heritage. We have called on 
China to address policies in Tibetan areas that have created tensions 
due to their impact on these facets of Tibetan life. We strongly 
believe this is in China's own interest and will serve not only to 
improve the lives of the Tibetan people, but also to reduce tensions 
and increase stability.
    Question. As a result of the latest unrest, do we know how many 
Tibetans were killed, how many are under arrest, who they are and where 
they are being detained?
    Does the International Red Cross have access to them?
    Answer. Tibetan exile groups have reported 203 ethnic Tibetans 
killed in the unrest in March in the Tibetan Autonomous Region [TAR] 
and other Tibetan areas of China. Chinese officials and state-run media 
have stated that the figure is much lower. We cannot independently 
confirm these numbers.
    We face similar difficulties in confirming the number of 
individuals detained during the recent unrest and the number still in 
custody. In an April 10 report, the Congressional-Executive Commission 
on China cited official Chinese reports stating that over 4,400 persons 
had either surrendered voluntarily to authorities for engaging in 
``beating, smashing, looting, and burning'' during riots, or had been 
detained on suspicion of engaging in such activities. Many of the 
individuals who surrendered voluntarily were subsequently released by 
authorities; however Tibetan exile groups estimate that about 3,000 
remain in custody. We have repeatedly asked for unfettered access to 
the Tibet Autonomous Region [TAR] and other Tibetan areas of China so 
that, among other things, U.S. diplomats could observe judicial 
proceedings against Tibetans charged in connection with recent events 
in Tibetan areas. Since the Chinese Government has denied such 
requests, we have not been able to independently confirm the number of 
detainees or the precise location and circumstances of these 
individuals' detention.
    As was widely reported in the international press in April, the 
Lhasa Intermediate People's Court issued sentences ranging from 3 years 
to life in prison to 30 Tibetans for their alleged participation in 
violent acts during the protests. We are concerned about reports that 
these individuals were not afforded basic protections of due process. 
We were particularly disturbed that criminal defense lawyers who 
volunteered to represent the detainees were denied permission to do so.
    Through our bilateral channels, the United States has raised, 
repeatedly and at the highest levels, our serious concerns regarding 
the status and treatment of those detained and arrested for their 
alleged participation in the protests. President Bush and Secretary 
Rice have spoken to their Chinese counterparts to urge restraint and 
the release of protesters who expressed their views peacefully. 
Ambassador Clark T. Randt at our Embassy in Beijing has raised the 
issue repeatedly with high-level officials in the Chinese Government. 
Officers from our Embassy and our Consulate General in Chengdu have 
repeatedly pressed Chinese officials at all levels for information 
regarding detainees, for unfettered access to the TAR and other 
affected areas, and for information on individual cases. To date, we 
have not received a positive response to our requests.
    We have called on the Chinese Government to ensure that all legal 
and administrative proceedings against persons alleged to have 
participated in violent acts during the recent protests throughout 
Tibetan areas of China are conducted in a manner that is both 
transparent and consistent with Chinese law and international human 
rights norms. We will continue to raise these concerns with our Chinese 
interlocutors, including as part of our upcoming bilateral human rights 
dialogue with China.
    To our knowledge, the International Committee of the Red Cross does 
not have access to the detainees at this time.
    Question. For years, the administration was figuratively joined at 
the hip with Pakistan's President Musharraf. We poured billions of 
dollars into that country with no conditions. Musharraf is widely 
despised by the Pakistani people and they hold us responsible for being 
his patron.
    The recent elections offer a new opportunity to reshape our policy 
and programs in Pakistan. How do you see our policy changing now that 
Pakistan has a new Parliament and Prime Minister?
    Answer. The United States is robustly engaging with the new 
government and will continue to strengthen civilian institutions and 
build a broad-based relationship between our two peoples. Deputy 
Secretary Negroponte and Assistant Secretary Richard Boucher visited 
Pakistan in mid-March and held meetings with a wide range of Pakistan's 
new leadership, including Prime Minister Gilani.
    Our priorities in Pakistan will not change--we will continue our 
focus on democracy, development, economic growth, and security, but 
will pursue our partnership with Pakistan as a long-term relationship 
with Pakistan's people and institutions.
    As part of this goal, we look forward to working with Congress and 
the new Pakistani Government on expanding United States assistance for 
Pakistan's continued democratic, economic, and social development. We 
believe the restoration of democracy in Pakistan is an important 
opportunity for us to demonstrate our long-term commitment, expand 
United States programs to help the Pakistani people and help the new 
government meet its objective of transforming Pakistan into a 
prosperous, secure democracy. We hope to establish a new framework for 
political, economic, and security assistance to Pakistan's democracy--
one that represents the type of partnership only possible between two 
democracies with shared interests in good governance, economic 
development, and combating violent extremism.
    Question. The administration has focused attention on Darfur, but 
the killing and burning of villages continues. We read that the 9,000 
hybrid force of U.N./African Union troops on the ground lack everything 
from adequate transport to blue helmets.
    Why does this new mission seemingly not have the equipment and 
support it needs to respond to the worst humanitarian crisis in the 
world?
    Have we exhausted our leverage with Sudan's President Omar al-
Bashir or do you have something else planned?
    Answer. The former African Union Mission in Sudan [AMIS] troops who 
are now part of UNAMID, have accommodations, vehicles, and 
communications equipment provided by AMIS partners including the United 
States, the Europen Union, Canada, and the United Kingdom. Many of 
these troops are currently in the process of being upgraded to full 
United Nations-standards by their home governments, with further 
bilateral assistance from donor countries, primarily the United States.
    Once deployed, UNAMID will be one of the U.N.'s largest 
peacekeeping operations. The mission is struggling to generate, deploy, 
and accommodate its authorized 26,000 uniformed personnel. UNAMID draws 
its resources not just from U.N. peacekeeping assessments, but more 
fundamentally from U.N. member states, which contribute active-duty 
troops and formed police units. Many of the key troop contributing 
countries hesitate to pledge troops to the mission due to the ongoing 
violence in Darfur, including attacks against UNAMID personnel, and 
perceived government of Sudan opposition to non-African troop 
contributors.
    UNAMID is confronted by three major equipment and capacity 
challenges: (1) Lack of pledges of crucial enabling units for UNAMID 
(exempli grati, helicopters, heavy transport, combat engineers); (2) 
many of the African units pledged fall short of U.N. self-sufficiency 
standards; (3) lack of infrastructure in Darfur to absorb rapid troop 
deployment and robust operations.
    The United States is confronting these challenges where it can by 
lobbying key partners to provide missing UNAMID enabling units, by 
pressing the government of Sudan to accept non-African units, and by 
pressing the United Nations to make maximum use of its existing legal 
authorities to contract for service providers to support peacekeeping 
troops in the field. As announced by President Bush in February, we are 
also providing over $100 million in United States equipment and 
training assistance to African troop contributing countries (including 
Rwanda, Senegal, Ethiopia, Burkina Faso, Malawi, Ghana, and Tanzania) 
deploying as part of UNAMID.
    United States discussions with the government of Sudan have focused 
on tangible improvements in the ground situation. We have been clear 
that no options are off the table.
    Question. In the eastern region of the Democratic Republic of 
Congo, tens of thousands of women and girls have been raped by rebels 
and Congolese Army troops. Is the administration putting pressure on 
President Kabila to send more soldiers to eastern Congo who have the 
training and professionalism to protect these women, and to punish 
those who have committed these atrocities?
    Answer. We are working with President Kabila and Congolese 
authorities directly and through the United Nations Mission to the 
Democratic Republic of Congo (MONUC) to address the problem of gender-
based violence in eastern Congo. President Kabila has appealed to us 
for help in training and professionalizing the Congolese armed forces. 
It is important to remember that the Congolese armed forces are 
comprised of former belligerents who are not fully integrated. 
Untrained and irregularly paid Congolese are sometimes implicated in 
violence. We are training military prosecutors to investigate sex 
crimes, and we are working with international and local civil society 
organizations to not only provide psycho-social relief services to 
victims but to also educate them about their judicial rights. We are 
promoting professionalism through training. President Kabila has asked 
the United States to train a rapid reaction force for eastern Congo. 
Human rights will be a significant element in this training. 
Unfortunately, we do not have the peacekeeping funds necessary to do 
this training.
    While increasing the number of professional soldiers is an 
attractive option to reduce women's exposure to sexual violence, it is 
obviously not a long-term solution. The sexual violence against women 
in eastern Congo will not end until the fighting stops. For this 
reason, the Department continues to focus on assisting the Congolese 
Government and other parties to implement the Nairobi communique of 
last fall and the January 2008 Goma cease-fire agreement in order to 
create the conditions for sustainable peace, which will facilitate 
greater rebuilding of the country's weak justice system and thus an end 
to the ongoing culture of impunity, particularly in the east. The 
United States was intimately involved in the negotiations of both 
agreements.
    Question. What about increasing the number of U.N. troops there?
    Answer. Given the size of the Congo--as big as the United States 
east of the Mississippi--increasing the size of the United Nations 
looks attractive as an option. However, as the demand for U.N. 
peacekeeping continues to rise worldwide, the feasibility of increasing 
the size of MONUC becomes ever more problematic. Troop and financial 
contributors to MONUC had expected that the mission would begin a 
drawdown in 2008, following national and local elections. An increase 
in violence in 2007 has pushed local elections back to 2009 and 
required a realignment of MONUC forces to eastern Congo. We are not 
ready to begin a withdrawal, but an enlargement is unlikely.
    Question. What is the administration doing to pressure Rwandan 
President Kagame to take back the Rwandan refugees in Congo, most of 
whom were not part of the genocide?
    Answer. President Kagame has called for all Rwandans in Congo to 
return to Rwanda, with the condition that they must face justice if 
they were involved in the genocide. The U.S. facilitates the Tripartite 
Plus Process, a confidence-building mechanism aimed at ending the 
threat of armed groups in the Great Lakes region. At the Tripartite 
Plus Summit in Addis Ababa on December 5, Secretary Rice urged Great 
Lakes leaders to fulfill their previous commitments, including their 
commitment to the voluntary return of refugees.
    Question. How, specifically, is the Leahy amendment being enforced 
in Israel?
    Answer. The Department has issued Leahy implementation guidance to 
all posts instructing them on how to report on human rights issues and 
how to conduct vetting for training programs subject to the Leahy 
amendment. As is policy worldwide, after receiving a training request 
for Leahy vetting, Post's Leahy point of contact (often Post's human 
rights officer) conducts a local records search, including Internet, 
for any indications that the individual or unit has been implicated in 
gross human rights violations. In Tel Aviv, the human rights officer 
then asks the Regional Security Office, Defense Attache's Office, Legal 
Attache, and Consular section to search their records and to respond in 
writing to the human rights officer with the results of their searches. 
Once the Embassy checks have been completed, the human rights officer 
sends a cable to the Department with the results and requests further 
vetting by the Washington-based bureaus. The Near Eastern Affairs 
Israel and Palestinian Affairs Desk [NEA/IPA] receives the cables and 
conducts an INR data-base search on the requested individual and/or 
unit. NEA/IPA also requests that the Bureau of Democracy, Human Rights, 
and Labor [DRL] to conduct a records search. Once these checks are 
complete, the Department cables the results back to the Embassy. If 
credible derogatory information is found, assistance is withheld.
    Question. Please provide me with a list of incidents that have 
triggered the Leahy Amendment in Israel, and what was done as a result?
    Answer. As a general matter, the Department policy would be to deny 
training when derogatory information is identified, without making a 
formal determination that the Leahy amendment applies. We would be 
happy to discuss this further with you in a classified setting.
    Question. What is the status of the flawed investigation of Rachel 
Corrie's death? What is the administration doing to ensure that a 
thorough, credible and transparent investigation is done?
    Answer: The United States Government takes its responsibilities 
involving American citizens abroad very seriously and has repeatedly 
engaged the Government of Israel at the highest levels about this 
issue. Immediately following Ms. Corrie's tragic death, President Bush 
telephoned Israeli Prime Minister Sharon to request a thorough and 
transparent investigation and was given personal assurances by the 
Prime Minister that there would be one. Additionally, then-Secretary 
Powell, Ambassador Kurtzer, Deputy Chief of Mission LeBaron, Assistant 
Secretary William Burns, and Deputy Assistant Secretary David 
Satterfield, among others, raised this issue with their counterparts 
and other appropriate authorities in the Israeli Government.
    More recently, during a visit to Israel in November 2007, former 
Assistant Secretary for Consular Affairs Maura Harty specifically 
raised outstanding issues again with her counterpart at the Israeli 
Ministry of Foreign Affairs, Mr. Yigal Tzarfati. Assistant Secretary 
Harty also gave Mr. Tzarfati a letter that reiterated the U.S. 
Government's request for a full and transparent investigation of the 
incident. Janice Jacobs, Acting Assistant Secretary for Consular 
Affairs, reiterated this request in March 2008.
    The government of Israel has not yet fully responded to these 
requests, and specifically to our request for a full and transparent 
investigation. We continue to follow up with the Israelis for a 
response to our inquiries.
    Additionally, in late October 2007 representatives from the 
Department of State met with the Corrie family and with Congressman 
Baird and his staff at his offices to discuss concerns that the Corrie 
family still has with respect to the death of Rachel Corrie. We are 
continuing to raise with the Israeli Government charges of 
irregularities with its handling of the case and to respond to the 
family's concerns to the maximum extent possible.
    Question. Was U.S. assistance used to purchase the bulldozer that 
killed Ms. Corrie? Was it a U.S.-manufactured bulldozer?
    Answer. The government of Israel purchased bulldozers from 
Caterpillar, Inc., a United States corporation, using Foreign Military 
Financing funds provided to the government of Israel. An Israeli-
purchased Caterpillar bulldozer was involved in Ms. Corrie's tragic 
death.
    Question. Has United States assistance for Israel been used to 
purchase United States-manufactured bulldozers used in home 
demolitions?
    Answer. U.S. Foreign Military Financing is used by the government 
of Israel to purchase Caterpillar bulldozers. Caterpillar bulldozers 
have been used in home demolitions.
    Question. Have changes been made in the manner in which U.S.-
manufactured bulldozers used in home demolitions are licensed, sold, 
transferred, monitored, or equipped?
    Answer. Since 2003, the sale of one bulldozer was conducted via the 
Foreign Military Sales [FMS] process. Caterpillar bulldozers are 
considered standard commercial construction equipment. It is our 
understanding that the government of Israel armors their bulldozers, if 
required, in an industrial facility in Israel. FMS sales are subject to 
end use monitoring.
    Question. Have there been other deaths resulting from the use of 
bulldozers by the Israeli Defense Force since Ms. Corrie's death? If 
so, what were the circumstances and what action was taken?
    Answer. We are not aware of any such deaths resulting from the use 
of bulldozers since Ms. Corrie's death.
    Question. We continue to receive credible reports of atrocities 
being committed by Ethiopian Government soldiers in the Ogaden region. 
The administration requests an increase in military assistance for 
Ethiopia from $850,000 last year to $4 million in fiscal year 2009.
    What will these funds be used for and how will you ensure that the 
United States is not associated with Ethiopian forces who violate human 
rights?
    Answer. We continue to investigate allegations of human rights 
abuses allegedly committed by the Ethiopian National Defense Force 
[ENDF] in the Ogaden region. We are not in a position at this time to 
assess the credibility of the allegations or confirm their veracity. 
The U.S. Government takes seriously all allegations of human rights 
abuse. Ethiopia remains a key ally in protecting United States national 
security interests in the Horn of Africa and regularly contributes 
troops to peacekeeping operations. Ensuring that Ethiopian forces are 
professionally trained and equipped is therefore a high priority for 
the United States.
    The fiscal year 2009 Foreign Military Financing [FMF] request of $4 
million is critical to help professionalize the Ethiopian military. The 
fiscal year 2009 FMF will focus on two priorities: support for the U.S. 
Army-modeled Command and General Staff College, and to continue funding 
spare parts, maintenance support, and other training associated with 
the Ethiopian Air Force fleet of four C-130/L-100 transport aircraft.
    The Ethiopian Command and General Staff College trains senior and 
mid-grade ENDF officers for more senior command and staff positions 
within the ENDF. Understanding the role of the military in a multiparty 
democracy, civil-military relations, civilian control of the military 
and the respect for human rights are core components of its U.S.-
modeled curriculum. Assistance to this institution therefore remains a 
key component of United States efforts to support the transition to 
multiparty democracy in Ethiopia. Attendees of FMF-funded training will 
be vetted in accordance with State Leahy procedures to ensure 
compliance with the Leahy amendment.
    The Ethiopia Air Force uses its one operational C-130 to transport 
its peacekeepers to peacekeeping missions in Africa. Ethiopia currently 
has peacekeepers in Liberia and is deploying to Darfur. Enhancing 
Ethiopian air transport capability reduces requirements on U.S. airlift 
to move African peacekeeping forces in the region. Lastly, having 
operational transport aircraft enhances the capability of the Ethiopian 
Air Force to respond to humanitarian crises (drought and/or flooding) 
in the Ogaden region and elsewhere in Ethiopia, specifically 
humanitarian relief supplies and food.
    The Department of State ensures that all Ethiopian security force 
personnel that are trained with foreign assistance funding undergo 
human rights vetting in accordance with Department of State policies 
and procedures to ensure compliance with the Leahy Law. In addition, 
the U.S. Government, through the American Embassy in Addis Ababa, 
conducts end-use monitoring to ensure that FMF-funded equipment does 
not benefit Ethiopian forces that violate human rights.
                family planning and reproductive health
    Question. Last year, we appropriated $456 million for family 
planning and reproductive health which public health experts tell us is 
one of the essential building blocks of a functioning health system. 
That may sound like a lot, but it is actually about the same amount we 
appropriated in 1995, when the dollar's purchasing power was a lot 
higher than it is today.
    For 2009, you propose to cut it to $301 million.
    Why does that make sense, when we know that there are women in many 
poor countries that need contraceptives and cannot get them, and we 
know that unplanned births only compound the difficulties of families 
that are already barely able to earn enough to survive?
    Answer. The President has requested $328 million for family 
planning and reproductive health. Of that amount, $301.7 million is 
from USAID's Child Survival and Health account and $25.8 million is 
from the Economic Support Funds, Freedom Support Act, and Support for 
East European Democracy accounts. This is a 29 percent reduction from 
the fiscal year 2008 653a enacted level of $464 million.
    Even at this funding level, the United States remains the largest 
bilateral donor for family planning and reproductive health. The 
funding level reflects the current budget coupled with competing 
priorities for resources to support initiatives in HIV/AIDS, Malaria, 
and TB. Family planning and reproductive health remains one of the top 
four programs in the USAID health portfolio.
    Question. The fiscal year 2008 State and Foreign Operations Act 
requires you to convene an interagency committee to evaluate the 
specific needs of developing countries in adapting to climate change 
impacts. It further requires you to submit a report by September 1, 
2008, describing such needs, on a country-by-country and regional 
basis, and the actions planned and being taken by the United States, 
including amounts of funding provided to developing countries to help 
them adapt to climate change impacts.
    I want to be sure someone in your Department is taking this 
seriously, and that the report will describe action plans for helping 
these countries adapt to what could be devastating consequences of 
global warming.
    Has the committee been convened, and have they begun this study? If 
you don't know, will you be sure this is being done?
    Answer. Let me assure you that the Department of State is taking 
seriously the climate change activities you have raised. Our fiscal 
year 2009 budget request includes $64 million to support our efforts to 
address adaptation and reduce deforestation. These are key elements of 
the Bali Action Plan adopted at the multilateral climate change 
negotiations in Indonesia this past December. In the case of the Asia 
Pacific Partnership [APP] for Clean Development and Climate, we have 
requested $26 million in the fiscal year 2009 budget request from the 
Economic Support Fund account. APP is an innovative effort to 
accelerate the development and deployment of clean energy technologies. 
Moreover, President Bush has committed $2 billion for the Clean 
Technology Fund, which will help advance cleaner and more efficient 
technologies in key developing countries.
    Last year, even before the fiscal year 2008 appropriations bill was 
passed, a National Security Council Principals Committee tasked the 
Department of State with leading, at the highest sub-Cabinet level, an 
interagency effort to address the needs of developing countries in 
taking action on climate change. This effort was undertaken to support 
President Bush's announcement on May 31, 2007 to develop a new 
framework on energy security and climate change by the end of 2008. The 
Department worked closely with other agencies, including the 
Environmental Protection Agency and the United States Agency for 
International Development to develop a range of activities to help 
developing countries adapt to the impacts of climate change. Building 
on the work begun last year, we are taking steps to convene an 
interagency committee, at the highest levels, to further discussions 
and to comply with the September 1 reporting deadline.
    Question. The State Department's fiscal year 2009 budget proposes a 
new program, the Civilian Stabilization Initiative, to train for quick 
deployment of U.S. Government personnel from various agencies and 
civilians with special skills to provide a civilian counter-part to the 
military in post-conflict environments to help countries rebuild.
    The budget requests $248 million for this initiative to build a 
long-term capacity. How do you expect to spend these funds in 1 year?
    Answer. The Civilian Stabilization Initiative [CSI] will develop an 
Active Response Corps, a Standby Response Corps, and a Civilian Reserve 
Corps that will be trained, equipped, and ready to be deployed to 
assist in the stabilization and reconstruction of countries and regions 
that are at risk of, in, or transitioning from conflict or civil 
strife.
    The CSI fiscal year 2009 budget request is for establishment of a 
no-year funding account in recognition that crises, and the need for an 
adequate U.S. Government's response to them, are inherently 
unpredictable. Funding needed for force protection or deployment, for 
example, will fluctuate from year-to-year, and funds not needed in one 
year can then be made available in the following year.
    Question. The State Department's fiscal year 2009 budget proposes a 
new program, the Civilian Stabilization Initiative, to train for quick 
deployment of U.S. Government personnel from various agencies and 
civilians with special skills to provide a civilian counter-part to the 
military in post-conflict environments to help countries rebuild.
    What role do you see USAID playing in this initiative?
    Answer. USAID is involved at every level of the policy coordination 
process for the Civilian Stabilization Initiative [CSI]. USAID 
officials co-chair the senior policy bodies, including several of the 
sub-Policy Coordinating Committees on NSPD-44 implementation and the 
Committee of the Consortium for Complex Operations. They also co-chair 
the Senior Leaders' Roundtable, and the Interagency Counterinsurgency 
Initiative.
    USAID will play a key role in decision-making in all levels of an 
actual response. USAID is a member of the Country Reconstruction and 
Stabilization Group [CRSG] that recommends to the President the U.S. 
Government response to a given crisis under the procedures set out 
under the Interagency Management System [IMS], which is the framework 
for responding to reconstruction and stabilization crises. USAID staffs 
are also expected to play critical roles on the CRSG Secretariat, in 
the Integration Planning Cell (IPC), and on the Advance Civilian Team 
(ACT) in-country. USAID also participates in the Assistance Working 
Groups, organized by the Office of the Director of U.S. Foreign 
Assistance, which are part of the planning and budgeting process for 
reconstruction and stabilization. Additionally, USAID will carry out 
all implementation planning and decision-making for programming in its 
areas of responsibilities.
    USAID will also have Active Response Corps (ARC) and Standby 
Response Corps (SRC) members. Under CSI, they will receive the largest 
percentage of ARC and SRC positions, or 37 percent, which equates to 93 
new positions. The State Department will have 29 percent, with the 
remaining 34 percent distributed among other U.S. Government agencies.
                      emerging infectious diseases
    Question. Many countries have endorsed and participated in the 
USAID and CDC funded Global Animal Information Network for Surveillance 
(Wildlife GAINS), developed to monitor and share avian influenza 
information and samples from wild birds from around the world. 
International organizations and public health institutions, such as the 
World Health Organization and the Food and Agriculture Organization, 
agree that monitoring wildlife for a wide range of emerging diseases is 
critical.
    Does the State Department plan to support the public-private sector 
partnership approach to prevent global spread of diseases?
    Answer. The Department of State's Avian Influenza Action Group 
(AIAG) supports the public-private partnerships in the Wild Bird Global 
Avian Influenza Network for Surveillance (GAINS) under funding from 
USAID and CDC. These partnerships effectively met multiple action 
targets in the National Strategy for Pandemic Influenza and, overall, 
improved participating countries' capacities to assess influenza risks 
in wildlife. The AIAG directly supports GAINS by helping to ensure that 
the network is well coordinated with other U.S. Government efforts to 
strengthen influenza research, surveillance, and detection in priority 
countries. For example, the Department of Agriculture's international 
efforts to protect agricultural animals (id est, poultry, swine) from 
wildlife disease risks directly complements GAINS, and vice versa. 
Likewise, the AIAG provides a forum to help technical agencies steer 
their influenza research and international capacity building activities 
in a manner that helps to expand partnership in GAINS and helps current 
participants optimize their use of the network. The AIAG plans to 
continue this level of support to GAINS in the future.
    Question. Please provide the following:
    List of all the units of any Thai security forces that have been 
vetted for U.S. assistance since 2001.
    List of all units of any Thai security forces that have received 
U.S. assistance since 2001.
    List of unvetted units of the Thai security forces from which 
individual members are cleared to receive U.S. training.
    Answer. A list of Thai security forces vetted for U.S. assistance 
since 2002 is attached. The list identifies units vetted for the 
purpose of unit training. Following the GAO Report ``Southeast Asia: 
Better Human Rights Reviews and Strategic Planning Needed For U.S. 
Assistance to Foreign Security Forces'' which was released in July 
2005, Embassy Bangkok improved its record-keeping on the vetting of law 
enforcement personnel, ensuring that all agencies are aware of the 
requirement to vet law enforcement individuals covered by the Leahy 
provisions, and that all training/vetting is properly recorded. Post 
records of law enforcement training prior to 2005 may have some gaps.
    All Thai military units that have received assistance since 2001 in 
the form of training were vetted and are reflected in the response 
above. Assistance in the form of equipment and supplies is provided to 
the procurement agencies of the Royal Thai Armed Forces (RTArF) rather 
than to individual security force units. The individual services of the 
Thai Armed Forces then decide how best to employ the equipment and 
supplies per Thai national security priorities. The entire RTArF or 
service component would not be vetted when providing equipment and 
supplies, as in comparable cases of providing assistance a centralized 
national Defense ministry or combined armed forces. End use commitments 
are secured on all equipment and technology provided, and end use 
monitoring on select equipment, technology or systems is conducted 
periodically. Every individual who receives training is vetted and we 
maintain a list of those individuals. Units with which vetted 
individuals are affiliated are to be vetted as well, although there had 
been some inconsistency in the pas practice of some posts in this 
regard, which is being regularized.
                state department--lack of responsiveness
    Question. Following your appearance before the State and Foreign 
Operations Subcommittee in May 2007, it took us almost 9 months to 
receive all of your responses to questions, edits to your transcript, 
and items you said you would submit for the hearing record. As you 
know, the hearing record plays an important role in providing the 
public the opportunity to review the activities of the Committee and I 
believe they deserve this information in a timely manner.
    The printing staff of the Appropriations Committee has had many 
difficulties in obtaining the Department's record submissions following 
hearings. In my role as chairman of the Senate Judiciary Committee I 
ask that witnesses respond to questions for the record within 2 weeks 
following the receipt of written questions.
    How much time does the Department of State require to respond to 
record submissions, including questions submitted by Senators?
    Answer. The Department attempts to respond to questions for the 
record in as prompt a manner as possible. In some instances, responses 
must be coordinated among various bureaus, with other agencies, or with 
a U.S. Embassy.
    Question. What can be done to expedite this process?
    Answer. We take the responsibility of providing information to 
Congress very seriously, and we believe it is important to review our 
own procedures, periodically, to seek ways of providing responses on a 
more timely basis.

                         CONCLUSION OF HEARINGS

    Senator Leahy. Thank you all very much. That concludes our 
hearings.
    [Whereupon, at 11:49 a.m., Wednesday, April 9, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
 Alliance for International Educational and Cultural Exchange, 
  Prepared Statement of the......................................   104

Bennett, Senator Robert F., U.S. Senator From Utah, Statement of.     3
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Prepared Statement of........................................    20
    Statement Submitted by.......................................    20
Brownback, Senator Sam, U.S. Senator From Kansas, Statement of...    64

Cochran, Senator Thad, U.S. Senator From Mississippi, Statement 
  of.............................................................    48

Durbin, Senator Richard J., U.S. Senator From Illinois, Questions 
  Submitted by...................................................    27

Fore, Henrietta H., Administrator and Director of Foreign 
  Assistance, U.S. Agency for International Development..........     1
    Prepared Statement of........................................     6
    Summary Statement of.........................................     4

Gregg, Senator Judd, U.S. Senator From New Hampshire, Opening 
  Statement of...................................................    33

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Opening Statements of........................................ 1, 31 
    Prepared Statement of........................................ 2, 33
    Questions Submitted by.......................................    35


Rice, Hon. Condoleezza, Secretary, Office of the Secretary, 
  Department of State............................................    31
    Prepared Statement of........................................    37
    Summary Statement of.........................................    35

The Asia Foundation, Prepared Statement of.......................   107


                             SUBJECT INDEX

                              ----------                              

                          DEPARTMENT OF STATE

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   110
Civilian Stabilization in Post-Conflict States...................    38
Core Exchange Programs...........................................   105
Diplomatic Solutions to National Security Issues.................    38
Economic Assistance..............................................    43
Embassy Baghdad..................................................   111
Emerging Infectious Diseases.....................................   119
Family Planning and Reproductive Health..........................   117
Fiscal Year 2009:
    Foreign Operations Request...................................    40
    State Operations Request.....................................    37
Global Challenges................................................    46
Influencing Foreign Opinion Through Public Diplomacy.............    39
Programs.........................................................   110
Protecting America's Borders.....................................    38
Providing Secure Diplomatic Facilities...........................    39
Regional Programs................................................   106
Section II.......................................................    86
Security Assistance..............................................    45
State Department--Lack of Responsiveness.........................   120
The Asia Foundation's Mission, Expertise, and Approach...........   109

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

Additional Committee Questions...................................    21
Administrator Fore's Priorities..................................    21
Biodiversity Protection..........................................    26
Burma............................................................    28
Child Survival and Maternal Health...............................    23
China............................................................    24
Continued Focus on Security Assistance...........................     9
Cuba.............................................................    29
Democracy Program in Pakistan....................................    27
Development Leadership Initiative................................    22
Foreign Operations Request.......................................     7
Global War on Terror.............................................     7
International Disaster Assistance................................    22
Maintain a Strong Focus on Health................................     9
Merida Initiative................................................    25
Millennium Challenge Corporation.................................    24
National Solidarity Program......................................    27
Promoting Freedom................................................     8
Rebuilding the U.S. Agency for International Development.........    20
Renewing the Focus on Poverty Reduction..........................     8
Strengthening USAID's Operational Capacity.......................     8
Transition Initiatives...........................................    23
USAID Budget.....................................................    17
Water............................................................    28

                                   - 

</pre></body></html>
